<html>
<title> - NOMINATION OF AMBASSADOR JOHN D. NEGROPONTE TO BE DIRECTOR OF NATIONAL INTELLIGENCE</title>
<body><pre>[Senate Hearing 109-79]
[From the U.S. Government Publishing Office]



                                                         S. Hrg. 109-79

                        NOMINATION OF AMBASSADOR
                        JOHN D. NEGROPONTE TO BE
                   DIRECTOR OF NATIONAL INTELLIGENCE

=======================================================================

                                HEARING

                               BEFORE THE

                    SELECT COMMITTEE ON INTELLIGENCE
                          UNITED STATES SENATE

                       ONE HUNDRED NINTH CONGRESS

                             FIRST SESSION

                               __________

                             APRIL 12, 2005

                               __________

      Printed for the use of the Select Committee on Intelligence


 Available via the World Wide Web: http://www.access.gpo.gov/congress/
                                 senate


                                 ______

                    U.S. GOVERNMENT PRINTING OFFICE
22-581                      WASHINGTON : 2005
_____________________________________________________________________________
For Sale by the Superintendent of Documents, U.S. Government Printing Office
Internet: bookstore.gpo.gov  Phone: toll free (866) 512-1800; (202) 512�091800  
Fax: (202) 512�092250 Mail: Stop SSOP, Washington, DC 20402�090001

                    SELECT COMMITTEE ON INTELLIGENCE

           [Established by S. Res. 400, 94th Cong., 2d Sess.]

                     PAT ROBERTS, Kansas, Chairman
          JOHN D. ROCKEFELLER IV, West Virginia, Vice Chairman
ORRIN G. HATCH, Utah                 CARL LEVIN, Michigan
MIKE DeWINE, Ohio                    DIANNE FEINSTEIN, California
CHRISTOPHER S. BOND, Missouri        RON WYDEN, Oregon
TRENT LOTT, Mississippi              EVAN BAYH, Indiana
OLYMPIA J. SNOWE, Maine              BARBARA A. MIKULSKI, Maryland
CHUCK HAGEL, Nebraska                JON S. CORZINE, New Jersey
SAXBY CHAMBLISS, Georgia
                   BILL FRIST, Tennessee, Ex Officio
                     HARRY REID, Nevada, Ex Officio
                   JOHN WARNER, Virginia, Ex Officio
                              ----------                              
             Bill Duhnke, Staff Director and Chief Counsel
               Andrew W. Johnson, Minority Staff Director
                    Kathleen P. McGhee, Chief Clerk
                                CONTENTS

                              ----------                              


                                                                   Page

Hearing held in Washington, DC:
    April 12, 2005...............................................     1

Statements:

    Corzine, Hon. Jon, U.S. Senator from New Jersey..............    34
    Hagel, Hon. Chuck, U.S. Senator from Nebraska, prepared 
      statement..................................................    28
    Negroponte, Ambassardor John D., Nominee to be Director of 
      National 
      Intellegence...............................................     9
    Roberts, Hon. Pat, U.S. Senator from Kansas..................     1
    Rockefeller, Hon. John D. IV, U.S. Senator from West Virginia     4
    Snowe, Hon. Olympia J., U.S. Senator from Maine..............    22
    Stevens, Hon. Ted, U.S. Senator from Alaska..................     7

Additional Material:

    Questionnaire for completion by Presidential Nominees........    54
    Additional Pre-hearing questions.............................   137
    Letter from Marilyn L. Glenn, Office of Government Ethics....   147
    Letter from Amb. John D. Negroponte to John A. Rizzo, Central 

      Intelligence Agency........................................   168
    Letter from Amb. John D. Negroponte to the Honorable John D. 
      Rockefeller IV.............................................   171
    Responses to Questions for the Record........................   158

 
                        NOMINATION OF AMBASSADOR
                        JOHN D. NEGROPONTE TO BE
                   DIRECTOR OF NATIONAL INTELLIGENCE

                              ----------                              


                        TUESDAY, APRIL 12, 2005

                      United States Senate,
           Senate Select Committee on Intelligence,
                                                    Washington, DC.
    The Committee met, pursuant to notice, at 10:12 a.m., in 
room SH-216, Hart Senate Office Building, the Honorable Pat 
Roberts, Chairman of the Committee, presiding.
    Committee Members Present: Senators Roberts, Hatch, DeWine, 
Bond, Lott, Snowe, Hagel, Chambliss, Warner, Rockefeller, 
Levin, Feinstein, Wyden, Bayh, Mikulski and Corzine.

        OPENING STATEMENT OF HON. PAT ROBERTS, CHAIRMAN

    Chairman Roberts. The Committee will come to order.
    The distinguished Vice Chairman will be here momentarily.
    The Committee meets today to receive testimony on the 
President's nomination for the newly-created position of 
Director of National Intelligence. Our distinguished witness 
today is the President's nominee, the Honorable John D. 
Negroponte. Ambassador, the Committee does welcome you and your 
guests.
    The Committee also welcomes our distinguished colleague, 
who will introduce the nominee, the Senate's President Pro Tem 
and Senior Senator from Alaska, the Honorable Ted Stevens. The 
Junior Senator from New York, the Honorable Hillary Rodham 
Clinton was to be here, but apparently has a conflict.
    The President has made an excellent choice, I believe, in 
nominating Ambassador Negroponte to serve as the Nation's first 
Director of National Intelligence. Ambassador Negroponte is a 
distinguished public servant, having dedicated 40 years and 
service to our country.
    During his career, the Senate has confirmed him five 
times--five times for Ambassadorial positions in Honduras, 
Mexico, the Philippines, at the United Nations and, of course, 
most recently as our first Ambassador to the new Iraq.
    Ambassador Negroponte also has held a number of key 
positions in the Executive Branch, including serving as Deputy 
National Security Adviser. He has worked on intelligence and 
national security issues all throughout his career, and in that 
respect I think brings a great deal of experience to this 
position. Most important, Ambassador Negroponte has a 
demonstrated record as an outstanding manager and a leader. He 
is well suited for this position and I look forward to his 
confirmation.
    Intelligence has long played an important role in the 
defense of the United States and its interests. We developed 
what is now known as the intelligence community to determine 
the capabilities and intentions of state actors and their 
respective militaries. The idea that a non-state actor could 
seriously threaten our national security was virtually 
inconceivable 50-plus years ago.
    Given the grave dangers that our Nation now faces from 
threats such as terrorism and the expansion of weapons of mass 
destruction, what was inconceivable a half century ago has now 
become reality, and intelligence is now the key to our success.
    In the past few decades, there have been many unsuccessful 
attempts to reform the intelligence community. Those attempts, 
quite frankly, resulted in little more than incremental and 
marginal changes. It took the very visible intelligence 
failures associated with 9/11 and the flawed assessments on 
Iraq's WMD programs to build the historic consensus required 
for substantial change.
    And change is a very necessary process. If it ultimately 
results in fundamental and substantial change, as it appears 
that it might, it will have been for the good. Change will be 
good not only for the U.S. national security, but also for the 
men and women of the intelligence community.
    In my years on the Senate Intelligence Committee, I have 
met many of these hardworking men and women who work day in and 
day out with one goal in mind--keeping this Nation secure and 
its people safe. They are held back, however, I think, by a 
flawed system that does not permit them as a community to do 
their very best work. We need to honor their commitment and 
their sacrifices by giving them an intelligence community 
worthy of their efforts and capable of meeting their 
aspirations and our expectations of them.
    I understand that change can be hard and stressful, but we 
need change--and not just a month or a year of change, but 
sustained, fundamental change that becomes a continuing process 
of adaptation as new threats emerge.
    Now, we all know that terrorism is a long-term threat to 
our national security, but I can assure you that it will not be 
the last threat that we face. There will be others which will 
require our intelligence community to continue to be adaptive 
and flexible.
    Mr. Ambassador, the process of change begins with you. It 
is my foremost hope that, when confirmed, you will begin to 
provide the strong, independent leadership that has long been 
lacking in our intelligence community.
    The position for which you have been nominated was created 
by the Intelligence Reform and Terrorism Prevention Act of 
2004. It is no secret that this bill did not go as far as I 
would have liked in creating a Director of National 
Intelligence, or the DNI, with the very clear authorities and 
chain of command that the intelligence community, I think, 
requires. As I have said before, the Intelligence Reform Act is 
not the best possible bill, but rather the best bill possible 
under very difficult circumstances.
    If we embrace the concept of change as a continuing 
process, however, this reform effort is a very solid first step 
in the right direction of someday creating a clear chain of 
command and accountability within that chain.
    For now, we must implement and oversee an Intelligence 
Reform Act that is somewhat ambiguous with respect to your 
authorities and responsibilities. Ambassador, this ambiguity 
has created justifiable concern about whether you, as the DNI, 
have the clear authorities you will need to meet your vast 
responsibilities. In other words, we have high expectations. 
But did we give you the tools you will need to meet them?
    President Bush has made some very forceful statements about 
the strong authority that the DNI will have in his 
Administration. I am confident that, when confirmed, you will 
have the strong support of the President.
    I am equally confident that you will have the same strong 
support from this Committee. In other words, if you need help, 
let us know. I'll be the stagecoach driver along with the rest 
of the Members of the Committee. You can be the shotgun rider. 
I think that's turned around. You be the stagecoach driver. 
We'll be the shotgun rider. But for now you have a blank slate 
and any ambiguities in your authority will be up to you to 
resolve. We need your advice.
    This leads me to an important point. As the first DNI, you 
will establish historic precedents that will define all future 
DNIs as well as set the course for the future of the entire 
intelligence community. We can legislate powerful authorities 
all day long, but as the history of the position of the 
Director of Central Intelligence has shown, if the first DNI 
does not exercise his authorities, it will be difficult for any 
subsequent DNI to do so.
    Exercising the authorities of the DNI will not be easy. 
Setting the precedent of a strong DNI will likely mean stepping 
on more than a few toes along the way. I am confident, however, 
that you are the right man for that job.
    It is my hope that as the Director of National Intelligence 
you will be independent of the interests of any one 
intelligence agency, and that you will achieve a better flow of 
information in our Government. To me this means that 
intelligence information will be passed to decisionmakers not 
because it comes from a particular agency, but because it 
represents the best work from any agency.
    This also means that we must reject the concept of 
information-sharing in favor of what the Vice Chairman and I 
call information access. I believe, as does the WMD Commission, 
that information sharing is a limited idea that falsely implies 
that the data collector is also the data owner. The concept of 
information-sharing relies on our collectors to push the 
information to these analysts who they deem really need it.
    We need new thinking on this issue. While we must continue 
to protect sources and methods--we know all know that--cleared 
analysts with a need to know should be able to pull information 
by searching all intelligence databases without waiting for any 
one agency to deem them worthy.
    Now, this is a very challenging proposition. I can assure 
you that the intelligence collection agencies will not greet 
such efforts with great enthusiasm. Even with the intelligence 
failures of 9/11 and Iraq WMD hanging over us and the 
staggering willful inability to share information associated 
with those failures, achieving a free flow of intelligence 
information has still proved very, very elusive.
    Mr. Ambassador, it is my hope that you'll be able to 
provide leadership and, quite frankly, a kick in the pants when 
necessary to get our collection agencies to finally perfect the 
concept of information access.
    As you know, in Washington politics and turf is a zero-sum 
game. Just by showing up on your first day of work you will 
already have stepped on quite a few toes. I am confident, 
however, that you will perform your duties in a manner that 
will soon have us wondering how we ever got along without a 
Director of National Intelligence.
    When we get to that point--and I hope it happens sooner 
than later--we can begin moving toward what I believe must be 
the ultimate goal: a more rationalized, organized intelligence 
community with a clear chain of command and accountability that 
comes with it.
    With that said, I again welcome you to the Committee and 
look forward to your testimony.
    I now recognize the distinguished Vice Chairman, Senator 
Rockefeller.

           STATEMENT OF HON. JOHN D. ROCKEFELLER IV, 
                         VICE CHAIRMAN

    Vice Chairman Rockefeller. Thank you, Mr. Chairman.
    Mr. Ambassador, welcome. It's my view that the President's 
confidence in you to lead the intelligence community as 
Director of National Intelligence at a time of enormous 
turbulence, 20 or 30 or 40 years of war on terrorism out in 
front of us and a lot of national introspection is a well-
founded decision.
    You have a 40-year career of public service in some of the 
most difficult places. People tend to forget how hard that can 
be--in Vietnam, the Paris Peace Talks, which most Americans 
probably don't know, South and Central America, the United 
Nations and obviously, most recently, Iraq. This breeds a tough 
and disciplined man with self-esteem and with the willingness 
to make decisions and to tell truth to power, which I think is 
key in all of this.
    Since joining the Foreign Service as a young man out of 
college, you've ably served our country and if confirmed you 
will continue to do so. Your abilities as a manager, your skill 
as a negotiator, your understanding of the workings of 
Government are going to be applied to a much different, and 
certainly much more difficult, task than even those that you've 
had.
    You've been asked to lead an intelligence community that is 
bruised, but fundamentally unbowed by the failures of 9/11 and 
Iraq prewar intelligence, a group of 15 agencies with their own 
respective cultures that are in the process of being reshaped 
and redefined into a cohesive entity that can more effectively 
blunt the murderous plots of the terrorists and stymie the 
global spread of weapons of mass destruction. This is happening 
to a certain extent in the intelligence community. There has 
been some of that thanks to the counterterrorism center.
    This is a tall order for any well-seasoned professional, 
which is what you are. The position of Director of National 
Intelligence is one of the toughest jobs in Washington--I would 
put it in the top three or four--frankly, in terms of the 
pressure that will be on you, the spotlight that will be on 
you, and the mandate for the country that will be placed 
squarely on your shoulders. You will need to call upon all of 
the skills that you have.
    Now, let me take this opportunity to summarize what I see 
as five pressing challenges that you will have to deal with if 
you are confirmed, and hopefully we can discuss them further 
during the questioning period.
    First, it is absolutely essential that our intelligence is 
timely, objective and independent of political considerations. 
As you know, this is what the law requires. This is not a 
simple judgment. This is the 1947 National Security Act, as 
amended by the Intelligence Reform Act. Timely, effective, 
independent, objective intelligence is the law.
    You will need to speak truth to power, and that includes 
the President of the United States, obviously--that's very 
important; and I'll have a specific question for you on that--
even if the truth is not well received by any policymaker or a 
group of, or inconsistent with stated policy goals.
    The credibility of the intelligence community and, by 
extension the credibility of the United States, has suffered 
when key intelligence reports, such as the prewar intelligence 
on Iraq, failed the test of being timely, objective and 
independent, as required by law.
    Second, the issue of accountability is to many of us a very 
important one. The WMD commission highlighted the issue very 
strongly. As far as I can determine, no one was held 
accountable for the numerous failures to share critical 
intelligence and act on the intelligence warnings in the year-
and-a-half prior to the 9/11 attacks. In fact, the Committee is 
still waiting--now 3 years later--for the CIA Inspector General 
Report on Accountability after 9/11.
    Government doesn't function without accountability. You, as 
DNI, if you're confirmed, will bear that very heavy 
responsibility to make it effective. It's not just negative 
accountability, it can also be positive accountability.
    Likewise, there has been a lack of accountability over the 
misrepresentation of intelligence by analysts prior to the Iraq 
war. There was a great deal that went on between the time that 
the Senate voted to authorize the President, and then the 
Powell speech, and then, later in March, the decision to go to 
war. There was an enormous amount of statements that were made, 
what some of us would call hyping and misrepresenting what the 
intelligence actually said, particularly in the area of Iraq's 
nuclear and biological weapons programs.
    If accountability is absent, workers are sent the wrong 
message--that there are no incentives for improving job 
performance. That is not a monetary matter I'm talking about; 
it's a question of firing, promoting, good words to them, 
something good in the record. I think it's an extremely 
important part of accountability and that does not disinclude 
firing.
    Third, the intelligence reform bill passed by Congress last 
December is a blueprint for achieving a more focused and 
effectively-managed intelligence community. Making this vision 
a reality will take time and require you and your deputies and 
your staff to flesh out, as they say, some of the details in 
the legislation.
    I disagree with the statement of the Chairman only in this 
regard, and that is that I think it's very important--and we've 
talked about this when we met privately--that we not try to 
cram a whole bunch of new reforms into our authorization bill 
or do it into some vehicle on the floor of the Senate.
    I think you and your team will need the time to look over 
the landscape, to make judgments about what's being done and 
what's not being done, and then make your decisions and your 
recommendations about what should be changed, if anything, from 
that point.
    In fact, I would go further. I think the fact that we did 
not so perfectly delineate your responsibilities is a great 
advantage. It was important. Congress cannot do that; only you 
and your team can do that, and then go over that with us.
    I'm concerned that while some progress has been made in the 
coordination of agency activities at places like the National 
Counterterrorism Center, which I've mentioned, much more needs 
to be done. Specifically, I'm concerned that the increase in 
the overseas collection of intelligence by the CIA, the 
Pentagon, the FBI, while laudatory is not being properly 
orchestrated in a cohesive fashion.
    On the domestic front, I see the insular culture at the FBI 
changing, but much too slowly, and the counterterrorism efforts 
of the Bureau still hampered by outdated and dysfunctional 
information technologies systems.
    Fourth, the collection of intelligence through the 
detention, interrogation and rendition of suspected terrorists 
and insurgents will be a responsibility of the intelligence 
community for as long as our Nation remains in a global war 
against terrorism, which I suspect will be decades yet to come.
    I believe that we have lacked a comprehensive and 
consistent legal and operational policy on the detention and 
interrogation of prisoners since we began our operations in 
Afghanistan. This in turn, in my judgment, has led to confusion 
among officials in the field and numerous cases of documented 
abuses that appear several times every week.
    I've been advocating for over 2 months now that our 
Committee undertake an investigation that would get to the 
heart of these legal and operational matters and propose 
corrective recommendations. The intelligence that we gain 
through these interrogations is too important--much too 
important--to allow shortcomings in this program to continue, 
for boundaries to be ill-defined.
    I trust that you share my concern. And I hope you will 
assist our Committee in undertaking a constructive inquiry into 
detention, interrogation and rendition practices.
    Finally, the President's intelligence budget for the fiscal 
year 2006 was formulated during the time last year when your 
position was being worked through in terms of legislation, not 
when you were in office. Obviously, the budget that was sent to 
Congress prior to your confirmation, by the time that you're in 
office, it may be relevant or lack some relevancy, either for 
this coming fiscal year or for the following one.
    My point is that it's absolutely essential that this budget 
becomes your budget, as the Director of National Intelligence. 
If the intelligence spending priorities proposed in the 
national intelligence program do not match your own priorities, 
I urge that you prepare a budget amendment and forward it to us 
with alacrity. That would refer to 2006.
    You will be the individual responsible for executing the 
new intelligence budget come October. The sooner it reflects 
your guidance the better. Ambassador, the support of the 
President will be a key factor in your ability to meet these 
and other challenges facing you as DNI. The reform act provides 
the director position with considerable authorities. But the 
most important authority of all is the backing of the President 
when you get to your first couple of tests. And it'll be those 
first couple of tests on which you will be judged. And who 
knows where that will come from, but I think reasonable people 
can make reasonable guesses on that.
    So you will make a decision, and it will be very important 
for the President to back you up. If he does not, you will be 
weakened. If he does, you will be strengthened. And it does not 
take long in this city, as you know, for people to make up 
their minds about the aura and therefore the fact of power, of 
holding a powerful position.
    I thank you again for appearing before us, for being 
willing to take on a job of this dimension, which I said I 
think is historic in its reach--global reach, national reach--
and effect on the lives of all Americans.
    I thank you.
    Chairman Roberts. I thank the Vice Chairman. Just for the 
record, I don't know what chairman you're listening to, but it 
was not me that suggested that we cram the authorization bill 
with changes to the intelligence reform bill. I don't think 
it's possible to cram anything through the Senate, let alone 
any changes to the intelligence reform bill. And, as you have 
suggested, Mr. Vice Chairman, we do listen very carefully and 
ask the advice and counsel of the DNI before we move on any 
changes.
    It is my privilege now to recognize the distinguished 
Senior Senator from Alaska, the Alaskan of the century, Senator 
Stevens.
    I would only indicate to you, Mr. Ambassador, this is what 
some of us in Dodge City, Kansas, would call your friendly 
hometown intelligence community banker. So I think the closer 
you sit next to him, why, the more successful you might be.
    Senator Stevens.

                STATEMENT OF HON. TED STEVENS, 
                    U.S. SENATOR FROM ALASKA

    Senator Stevens: Thank you very much, Mr. Chairman, Members 
of the Committee. I'm delighted to have the opportunity to come 
here today to recommend speedy reporting of this nomination to 
the Senate and a quick action on it.
    Ambassador Negroponte and I have known each other now for 
almost 30 years and we have developed a great personal 
friendship.
    Actually, John started out in the Deputy Assistant 
Secretary for Oceans and Fisheries Affairs with the rank of 
Ambassador. And in that connection he handled several matters 
that pertained to fisheries. This goes back into the early 
1970s. And one of the things he did was to not only visit our 
State frequently, but he also conducted the breakthrough 
agreement with the government of Japan that provided for 
crucial protection of the wild salmon for the United States on 
the open sea, in the oceans.
    This high seas fishing agreement has led to the 
preservation of the largest fish found in the world, the 
Bristol Bay salmon, and he was directly associated with that. 
Those benefits continue to protect a series of small native 
communities in Alaska.
    And I have had the pleasure of working with him in the 
assignments that all of you have mentioned so far--the two of 
you mentioned so far--Ambassador to Honduras, Assistant 
Secretary for Oceans, International Environment and Scientific 
Affairs, Ambassador to the Philippines, Ambassador to the 
United Nations and, of course, he is currently the Ambassador 
to Iraq.
    I have witnessed his ability to work on very difficult 
assignments, to manage large and complex diplomatic and joint 
State and Defense missions. I have observed his effectiveness 
and sensitivity in dealing with foreign counterparts, which I 
think is going to be crucial to this job of his.
    Educated at Yale, my friend speaks five languages fluently, 
and I consider that to be a really true asset for the job he's 
got ahead of him.
    I believe President Bush, as you've said, has chosen 
extremely wisely and I welcome his selection to be our Nation's 
first Director of National Intelligence.
    And as you've indicated, Senator Inouye and I currently 
have the responsibility of overseeing the funding for this new 
position. We certainly are going to do everything we can to 
work with Ambassador Negroponte--now Director Negroponte.
    This is, as you said, a very crucial period of our history, 
and we need his vast experience to guide this new establishment 
and to fulfill the obligations and commitments we've made to 
the country in this new position. It requires finesse and 
skill.
    I can tell you very seriously, I think this is one of the 
most distinguished public servants I've had the honor of 
knowing. In my 36 years here in the Senate, I don't think I've 
known anyone who's handled every single job he undertook in the 
way that John has completed his assignments. I am confident 
that the United States will be well served by his confirmation, 
and we look forward to working with this Committee to assure 
that he has the tools to complete this job and to really find 
new headquarters, to do a great many things.
    And I wouldn't worry, Senator Rockefeller, about sending up 
a different budget. I can assure you that the two of us will 
listen to him and what his needs will be for the fiscal year 
2006.
    Thank you very much.
    Chairman Roberts. Senator Stevens, on behalf of the 
Committee, we thank you for being here to introduce this fine 
nominee. I know, sir, that you have many important duties. We 
would love to have you for the full hearing, seeking your 
continued advice and counsel, but we know you have miles to go 
and things to do.
    Senior Stevens. Thank you very much.
    Chairman Roberts. Mr. Ambassador, you may proceed. And may 
I suggest to you, sir, that you introduce your lovely wife 
Diana and the rest of your family who is sitting directly 
behind your right shoulder?

             STATEMENT OF HON. JOHN D. NEGROPONTE, 
          DIRECTOR OF NATIONAL INTELLIGENCE-DESIGNATE

    Ambassador Negroponte. Thank you, Mr. Chairman.
    I am pleased to introduce my wife Diana and two of my five 
children. Diana teaches history at Fordham University at the 
moment. My daughter Alejandra, who is a junior at Georgetown 
University, and my son John, who is a junior at St. Johnsbury 
Academy in St. Johnsbury, Vermont.
    I also happen to have three other children who, for a 
variety of reasons, were not able to be here with us at this 
hearing.
    Chairman Roberts. Well, we welcome you and your family and 
we thank you very much and you may certainly proceed with your 
statement.
    Ambassador Negroponte. Thank you so much.
    Mr. Chairman, Senator Rockefeller, distinguished Members of 
the Committee, I am pleased to appear before you today as the 
President's nominee to be the first Director of National 
Intelligence.
    I support the fine work this Committee has done to guide 
and inform United States intelligence policy. And, if 
confirmed, I look forward to our continued close consultation. 
I know that the Members of the Committee share my conviction 
that timely, accurate intelligence is a critical component of 
preserving our national security.
    Without good intelligence, we will be unable to defeat the 
terrorists who began their assault us on long before September 
11th, 2001; we will fall short in our efforts to counter the 
proliferation of weapons of mass destruction; we will lack the 
insight we need to deal with hostile regimes that practice 
artful schemes of denial and deception to conceal their 
dangerous intentions; and we will possess insufficient 
understanding of an array of global phenomena that could have 
consequences for our economy, our health and environment, our 
allies and our freedom.
    The United States intelligence community, staffed by 
talented, patriotic Americans, forms what President Bush has 
rightly called our first line of defense. My job, if confirmed, 
will be to ensure that this community works as an integrated, 
unified, cost-effective enterprise, enabling me to provide the 
President, his Cabinet, the armed services and the Congress 
with the best possible intelligence product, both current and 
strategic, on a regular basis.
    My qualifications for this post extend over a career in 
public service that began in October 1960. Since then, I have 
been nominated for posts subject to confirmation by the U.S. 
Senate eight times. On five occasions, I have served as Chief 
of Mission of United States Embassies and had the privilege of 
working with many fine representatives of the United States 
intelligence community, the armed services and the Cabinet 
departments.
    I also have served as Deputy National Security Adviser to 
the President of the United States. Coordinating intelligence 
support for the National Security Council was one of my primary 
responsibilities under President Reagan.
    During my most recent assignment as the United States 
Ambassador to Iraq, I saw firsthand the savage depredations of 
terrorists and insurgents who oppose the birth of a new 
democracy. These are violent, determined adversaries who cannot 
be thwarted, captured or killed without close coordination 
between all of our intelligence assets--military and civilian, 
technical and human.
    The forces of freedom are making progress in this struggle, 
with the most notable accomplishment being Iraq's national 
election on January 30th. But much remains to be done. To 
prevail, Iraqis must keep to the political timetable 
established in United Nations Security Council Resolution 1546 
and continue to train, equip and motivate effective military 
and police forces.
    This is their struggle, but President Bush has made clear 
that they will have our support. With time, patience and 
tenacity, I believe that they will succeed. The formation of a 
transitional Iraqi government now underway is a major step 
forward.
    The position for which I am now nominated is a new 
position, in a new era, and the specific recommendations I will 
make to the President will require careful study and engagement 
that is not possible prior to confirmation. That being the 
case, I am not now prepared to describe in detail exactly how I 
plan to carry out the job of Director for National 
Intelligence.
    Nonetheless, there are clear requirements set forth in the 
Intelligence Reform and Terrorism Prevention Act of 2004, and I 
understand that the Congress and the American people expect 
more of the intelligence community today than perhaps ever 
before in our history.
    In the past 4 years our homeland has been attacked and we 
have miscalculated the arsenal, if not the intent, of a 
dangerous adversary. Our intelligence effort has to generate 
better results. That is my mandate, plain and simple. I expect 
this will be the most challenging assignment I have undertaken 
in more than 40 years of Government service.
    Just as my first requirement in Iraq was to start up a new 
embassy, my first requirement as Director of National 
Intelligence will be to start up a new organization. In this 
regard, I am grateful that the President has nominated 
Lieutenant General Mike Hayden as principal Deputy Director for 
National Intelligence. General Hayden's distinguished career in 
the field of military intelligence, capped by his tenure as 
Director of the National Security Agency, will enable him to 
complement my efforts with great insight, wisdom and 
experience.
    In addition to General Hayden, I will have the support of 
other deputies and senior appointees.
    I have never been able to accomplish anything in Government 
without the help of highly skilled, dedicated colleagues, nor 
have I ever taken an approach to leadership that is not built 
on the principle of teamwork. Teamwork will remain my North 
Star as Director of National Intelligence, not just for my 
immediate office, but for the entire intelligence community.
    My objective will be to foster proactive cooperation among 
the 15 intelligence community elements and thereby optimize 
this Nation's extraordinary human and technical resources in 
collecting and analyzing intelligence.
    We can only make the United States more secure if we 
approach intelligence reform as value-added, not zero-sum. The 
office of the Director of National Intelligence should be a 
catalyst for focusing on the hardest, most important questions 
and making it possible for very good people to outperform their 
individual talents by drawing on the Nation's investment in 
intelligence as a whole.
    The President has made clear that the intelligence 
community needs fundamental change to successfully confront the 
threats of the 21st Century, and this is what I take 
fundamental change to mean--working and thinking together, 
trusting one another across the various disciplines of 
intelligence collection and analysis, jettisoning outmoded 
methods, questioning assumptions, breaking down bureaucratic 
barriers, establishing priorities, both short-term and 
strategic, and sticking to them.
    When I have to make difficult decisions or recommendations 
to achieve that kind of change, I will do so. We cannot let 
another decade tick away without making intelligence reform a 
reality.
    Mr. Chairman, I am not someone who believes that 
intelligence is a panacea. I suspect the Members of the 
Committee agree with me. Intelligence is an ingredient in 
national security and foreign policy, not the policy itself. It 
has limits encrypted in the illusions of dictators and the 
fantasies of fanatics. But even if we cannot know every fact or 
predict every threat, by working more closely and effective as 
a team we can be more specific about what we do not know. And 
this is critical. It's the only way we can pinpoint gaps in our 
knowledge and find ways to fill them.
    As Director of National Intelligence, I will spare no 
effort to ensure that our intelligence community is forward-
leaning, but objective, prudent, but not risk-averse, and yet 
always faithful to our values and our history as a Nation.
    We must make sure that the information generated in one 
part of the community is accessible to other parts of the 
community. We must recognize that what we do is on behalf of 
the taxpayer and not on behalf of individual institutional 
interests. We must welcome new ideas, new approaches and new 
sources of intelligence.
    In this information age, there are many open secrets to be 
discovered across the spectrum of government, private sector 
and academic enterprise. Our intelligence community is already 
alert to this fact, but now is the time to pick up the pace, 
mirroring the agility and adaptability of entrepreneurs across 
the globe.
    A great deal has been said about intelligence fiefdoms 
within the United States Government. Some argue that there are 
three intelligence communities, not one--a military 
intelligence community centered on the Department of Defense; a 
foreign intelligence community centered on the CIA; and a 
domestic intelligence community centered on the Departments of 
Justice and Homeland Security and the FBI.
    Where there's so much talk, there's always some truth. In 
times past, these arrangements have served the Nation well. But 
times present demand that we transcend any foreign-military-
domestic divide that may historically have characterized our 
approach to intelligence.
    This Committee and the American people know that. The 9/11 
Commission knew that. The Commission on the Intelligence 
Capabilities of the United States knew that. And having served 
as Ambassador to the United Nations, where a multitude of 
issues transcend national borders and overflow 20th Century 
categories of threat, I know that.
    We do not confront a monolithic adversary or a state-based 
pact. Rather, we are dealing with an eclectic array of 
sometimes discreet, sometimes allied forces that are cunning in 
their efforts to define the battlefield to their advantage.
    Terrorists, narco-traffickers, high-tech criminals and the 
leaders of anti-democratic states know that head-on assaults 
against any of our instruments of national security are not 
likely to succeed. It is in the cracks and the overlooked gaps 
where we are at risk, places where our organizational stance 
and, more importantly, our mindset has not caught up with the 
dynamics of globalization, which can be used to exacerbate the 
grievances and leverage the capacities of our enemies.
    We live in an unpredictable world, subject to few of the 
old orthodoxies. That is why we must ensure genuine teamwork 
between our military, foreign and domestic intelligence 
agencies, cooperating with both imagination and diligence to 
build upon the core strength of democracy itself--Government 
service to the people, all the people, all the time.
    I have made it a priority to meet with the Attorney 
General, the Secretary of the Department of Homeland Security, 
the Director of the FBI, and law enforcement officials at the 
local level the make sure that we all as a team take advantage 
of the Intelligence Reform and Terrorism Prevention Act, using 
it to bolster our ability to protect ourselves and our national 
interests here in the United States I also have met with the 
Secretary of Defense, the National Security Advisor, the 
Director of the Central Intelligence Agency, and other senior 
officials responsible for United States security interests 
overseas. I have not encountered hesitation on the part of 
anyone to begin reforming our intelligence community in ways 
that will ensure good overlap and good support, not wasteful 
redundancy among the domestic, foreign, and military components 
of our efforts.
    Everyone knows this will be a tough job, but the things 
that have to be done differently will be done differently. We 
need a single intelligence community that operates seamlessly, 
that moves quickly, and that spends more time thinking about 
the future than the past. We need the right mix of human and 
technical resources, providing us with a new generation of 
capable intelligence officers, analysts and specialists, and 
innovative technologies.
    Good intelligence is our first line of defense. It is 
difficult and often dangerous to produce. Many valiant 
Americans have given their lives in its service. But it is the 
best way for us to ensure that freedom, democracy and our 
national security are protected in the 21st Century.
    Mr. Chairman, I want to thank you and the Committee for 
this opportunity to share these thoughts with you. And, of 
course, I welcome your comments and questions.
    Chairman Roberts. Mr. Ambassador, thank you for a very 
comprehensive statement.
    The Committee will now proceed to questions. Each Member 
will be recognized by the order of their arrival. Each Member 
will be granted 8 minutes so that we can explore fully any 
questions that Members have and, if necessary, we will have a 
second round.
    Given the number of Members that we have--i.e., 14 and 
probably 15 in just a few moments, i.e., the Full Committee--I 
am going to insist in terms of lightly tapping on the gavel 
when each Member's 8 minutes is up with the knowledge that you 
would, obviously, have an opportunity in the second round.
    Mr. Ambassador, do you agree to appear before the Committee 
here or in other venues when invited?
    Ambassador Negroponte. Yes, sir.
    Chairman Roberts. Do you agree to send the intelligence 
community officials to appear before the Committee and 
designated staff when invited?
    Ambassador Negroponte. Yes, sir.
    Chairman Roberts. Do you agree to provide documents or any 
material requested by the Committee in order to carry out its 
oversight and its legislative responsibilities?
    Ambassador Negroponte. I do, sir. Yes.
    Chairman Roberts. Will you ensure that all intelligence 
community elements provide such material to the Committee when 
requested?
    Ambassador Negroponte. I do.
    If I could just interject, Senator----
    Chairman Roberts. Certainly.
    Ambassador Negroponte. [continuing.]----I've never reviewed 
in its entirety the procedures. Being a career diplomat, I'm 
familiar with the State Department procedures; I'm not entirely 
familiar with the procedures for the release of documents by 
the intelligence community to the Committee.
    So there may be some limitations of which I am not aware. 
But in any event, you can be certain that I will do my utmost 
to be entirely cooperative with the Committee.
    Chairman Roberts. There has been a great deal of 
discussion, Mr. Ambassador, about the U.S. Government's 
involvement in interrogation, rendition and detention of 
terrorists in the global war on terror.
    I am not going to ask you to discuss in an open hearing the 
specifics of any ongoing intelligence operations or, for that 
matter, any investigations. But can you commit to us that as 
the DNI you will ensure the intelligence community's activities 
comply with the Constitution of the United States and all 
applicable laws and treaties, and that the elements of the 
intelligence community will cooperate with all relevant and 
possible investigations?
    Ambassador Negroponte. Yes, sir. And I am assured that our 
behavior--although I have not been briefed in detail--our 
comportment in regard to this question is in keeping and our 
policy is to comply with the Constitution and all applicable 
laws.
    Chairman Roberts. In the Administration's supplemental 
funding request for fiscal year 2005 the President requested 
$250.3 million to support the initial establishment of the 
office of the DNI.
    I understand the House Appropriations Committee fully 
funded the request, but placed some restrictions on the funds, 
and that the Senate Appropriations Committee has not fully 
funded the request. The statement of Administration policy on 
the supplemental strongly urges the Senate to restore the 
funding.
    What is the impact, sir, if you do not receive these funds?
    Ambassador Negroponte. Well, I believe the principal 
impact, Senator, may relate to our ability to find permanent 
quarters for the community. But I've also--just in a dialog 
I've had with Senator Stevens just this morning, he has assured 
me that he will be supportive of providing whatever funding is 
required to deal with that issue.
    Chairman Roberts. We will await the action of the Senate 
and possible action in the conference in regards to that. Our 
concern is, without these funds, the establishment of the 
office of the DNI could be set back.
    I'm going to yield back the balance of my time at this 
particular point and recognize the Vice Chairman.
    Vice Chairman Rockefeller. Thank you, Mr. Chairman. Your 
last question was my first question. I think you've answered it 
very correctly, because we've said you can't be inside the 
White House. So where you are going to land is important and 
that money is important for it. And I find it distressing that 
money was cut just as you are, in my view, being confirmed.
    Ambassador Negroponte, as I indicated in my opening 
statement, the collection of intelligence through interrogation 
of prisoners is an enormously valuable tool in finding out 
important events that might be taking place. If prisoners are 
abused or tortured, the information produced may be unreliable 
and misleading. Over a year has passed since the first photos 
of the abuses of Abu Ghraib appeared.
    As DNI, what role will you have in approving the legal and 
operational guidance pertaining to how intelligence is 
collected from detainees?
    Ambassador Negroponte. Senator, if confirmed, I will do all 
in my power to make sure that all practices of the intelligence 
community are in full compliance with the law.
    And as you know, the legislation directs that the Director 
of the CIA report to the office for which I have been 
nominated. So given the DNI's authority over the CIA 
specifically and the intelligence community generally, I would 
expect that the DNI would oversee all such activities at the 
strategic level.
    And coming back to your original point, not only is torture 
illegal and reprehensible, but even if it were not so, I don't 
think it's an effective way of producing useful information.
    Vice Chairman Rockefeller. Do you have any concerns--I 
mean, there are varieties of techniques, et cetera, leading up 
to the word torture, hopefully not including that word. But do 
you have any concerns about what you have read or come to 
understand about interrogations that have been carried out at 
Abu Ghraib or Guantanamo or Afghanistan?
    Ambassador Negroponte. Well, there were abuses, as we 
know--appalling abuses--that were carried out in Abu Ghraib. 
I'm not intimately familiar with all the practices either there 
or certainly not in the other countries that you've mentioned.
    But I would come back to my main point. I think the guiding 
principle must be that the intelligence community must abide by 
all applicable laws and the Constitution of the United States.
    I think, beyond that, there might be some questions that we 
could discuss in the closed session. But I have not been 
extensively briefed, I want to stress, Senator, on all the 
practices that have been undertaken here.
    And I might, as a general point, just add, you know I just 
recently left Iraq and was Ambassador there until only recently 
and have just been back in the country 2 weeks. So this has 
been a process of really total immersion, but the learning 
curve has been extremely steep.
    Vice Chairman Rockefeller. Mr. Ambassador, this morning's 
paper indicated the State Department released hundreds of 
documents related to your time in Honduras. This question, as 
you know, was bound to come.
    The Committee has not had a chance to review those 
documents. I'm not sure that there's anything new in those 
documents. But let me ask you a couple of questions about the 
report.
    According to the article, immediately after the House voted 
to cut off funding to the Contra rebels, you sent a cable 
expressing continued support for this policy. Were you 
advocating continuing of some kind of aid to the Contras after 
the congressional cut off of funds? What was the purpose of 
this cable? I might go on to say The Washington Post describes 
back-channel messages. Can you describe what this back channel 
was as opposed to the normal State Department cable traffic 
method?
    Ambassador Negroponte. Senator, first and foremost, with 
respect to the question of support for the Contras, whatever 
activities I carried out, whatever courses of action I 
recommended in Honduras were always entirely consistent with 
applicable law at the time.
    So if your question is whether I ever undertook any 
activity or made any recommendation that was inconsistent with 
legal prohibitions that existed at various times, known as the 
Boland Amendment, I made every effort to scrupulously to comply 
with that amendment.
    Second, as far as the material is concerned, if I read the 
story correctly--and I haven't had an opportunity to look at 
the cables to which The Washington Post refers--but it sounds 
to me like the same set of cables that was my chronological 
file--my file of cables that I personally drafted which was 
declassified and made available to the Foreign Relations 
Committee prior to my hearings to be Ambassador to the United 
Nations in 2001.
    The Committee also reviewed this very same matter in 
practically microscopic detail in 1989 when I was nominated to 
be Ambassador to Mexico. And I think in both instances have 
found that I had not carried out any improper behavior. And I 
certainly believe that I was--my comportment was always in an 
absolutely legal and entirely professional manner.
    Vice Chairman Rockefeller. I thank you, Mr. Ambassador.
    Chairman Roberts. For the record, all Committee Members 
should know that the Foreign Relations Committee has supplied 
the Committee with approximately 100 documents that we 
recognize as a chronological file, as the Ambassador has 
pointed out. And they will be available to all Members of this 
Committee should any Member with to go over those documents.
    In my personal view, I don't think there is any mystery 
documents. I think this is the first time that--as a matter of 
fact, the timing of it as sort of--I guess it's interesting to 
me. But at any rate, all Members can have access to this file, 
which has been made available to us by the Foreign Relations 
Committee.
    Senator Wyden.
    Senator Wyden. Thank you, Mr. Chairman.
    Ambassador, I want to stay with this human rights issue in 
Honduras for a moment, because I've read all the reports and 
the letters and the testimony regarding the human rights 
practices there. And I will tell you when you compare what you 
wrote and what you testified to what the CIA said and what the 
Inter-American Court said and what the Honduras human rights 
commissioner said, there is a very big gap. It is almost as if 
you were an ambassador to a different country.
    So let us, if we could, begin by having you reconcile what 
is on the record with respect to these human rights practices 
and what is so remarkably different about what the CIA said and 
all of these other bodies who have looked at the period as 
well.
    Ambassador Negroponte. Thank you for your question, 
Senator.
    First of all, I don't think there is necessarily such a 
large gap, certainly not----
    Senator Wyden. Would you like me to review it, because I 
can go case-by-case.
    Ambassador Negroponte. [continuing.]----especially, with 
regard to the CIA.
    But let me just put Honduras in context. Now, we're talking 
about history, really. It's something that, things had happened 
24-25 years ago. But I think one has to understand that 
Honduras was a country surrounded by trouble. There were civil 
wars going on in Nicaragua, El Salvador and Guatemala.
    The political freedom was relatively greater in Honduras 
than it was in the neighboring countries. In fact, there were 
refugees streaming to Honduras from those three countries. It 
wasn't the other way around. It wasn't that Hondurans were 
fleeing their country to their neighboring countries because of 
political repression.
    When I got to Honduras shortly thereafter, there was a 
first democratic elections that had taken place in 9 years. And 
there have been six such elections in the years that have 
followed.
    Honduras had a free labor movement. It had a free press.
    Now, were there human rights abuses? Yes. And our human 
rights reports--I have the 1984 report here right in front of 
me--they talk about those things, about disappearances, about 
arbitrary arrests, about defects in the administration of 
justice in that country.
    But I think if you look at it in the context of what was 
happening in Central America at the time, I think Honduras' 
record compared favorably with the neighboring countries.
    And I would submit to you that improvements occurred during 
the time of my tenure there, including an administration of 
justice program, a revision of the penal code, and other 
efforts to deal with human rights issues in that country.
    Senator Wyden. With all due respect, Mr. Ambassador, that's 
simply not responsive to my question. I mean, for example, in 
1982 you wrote a letter to The New York Times: Honduras' 
increasingly professional armed forces are dedicated to 
defending the sovereignty and territorial integrity of the 
country; they're publicly committed to civilian constitutional 
rule.
    The CIA, for example, said during that period the Honduran 
military committed hundreds of human rights abuses since 1980, 
many of which were politically motivated and officially 
sanctioned. The Inter-American Court said the same thing. The 
Honduran human rights commissioner said the same thing.
    I mean, I see a pattern essentially of you ducking the 
facts. And what troubles me is not the idea of re-litigating 
what happened in Central America 20 years ago; nobody wants to 
do that, and I don't think that's constructive.
    But we're making a call now about your judgment, and it 
looks to me like you saw things through an Administration-
colored lens then. And what you need to do over the course of 
today is convince me that when you brief the President, you 
have this extraordinarily important duty that you're going to 
make sure the facts get out there. And when I look at what you 
said about human rights issues in the 1980s and I look at what 
the CIA said and all these other objective parties, there's 
just no way I can easily reconcile those differences.
    So I want to give you another chance to be responsive to my 
question. For example, if you tell me, you know, I should have 
said more about these human rights issues in the early 1980s in 
those country reports, in those letters and interviews you 
gave, that's an indication--because I have certainly made loads 
of mistakes over the years--that's responsive to what I'm 
interested in seeing.
    But I'm very troubled at this point and I want you to 
reconcile the differences between what you said and wrote and 
what these other parties have said.
    Ambassador Negroponte. Just to pick up on one of your 
examples there where you mentioned the CIA, I remember one of 
the principal allegations of the CIA Inspector General's Report 
was that I had suppressed or sought to suppress reporting on 
human rights. And I was able to establish to the satisfaction 
of the Senate Foreign Relations Committee that that was not the 
case. And in fact, my deputy station chief from that time, who 
was quoted as the source of that information, himself wrote the 
Committee and said that that was absolutely incorrect. He wrote 
to Senators Helms and Biden.
    If I may, Senator, I think that sometimes when one tries to 
reconstruct these situations 15, 20, 25 years after the fact, 
some subjective judgments creep into these analyses that don't 
necessarily stand up to scrutiny. I can tell you that I, in 
good conscience, can sit here and tell you that I believe that 
I called to Washington's attention what was going on in 
Honduras. Within the first several months of my tenure there, I 
asked the embassy to conduct a review of the administration of 
justice system.
    I had a meeting with the president of the country and the 
chief of staff of the armed forces within the first year that I 
was there and urged them to undertake urgent steps to review 
the administration of justice, particularly with the way that 
some of their police forces were treating terrorists. And we 
ended up establishing a strong administration of justice 
program in that country.
    Senator Wyden. I'm just looking again at what you 
testified--my time is up--but you said allegations of human 
rights-related abuses are fewer than in previous years. The 
Honduran government shows enhanced sensitivity to these 
complaints. That's what you said in 1984. And I will tell you--
I'm going to explore this further on other rounds--but the 
point really is if you disagreed with the CIA, that's fine. But 
all of these other objective analysts said the same thing, Mr. 
Ambassador. And I hope in the course of today you can convince 
me that when you brief the President, the President's going to 
get all the facts. And I will tell you I am not convinced that 
that's the case as of now. Thank you, Mr. Chairman.
    Chairman Roberts. Senator Levin.
    Senator Levin. Thank you, Mr. Chairman. Welcome, 
Ambassador, to you and your family. Mr. Ambassador, we need a 
Director of National Intelligence who will tell a President 
what a President may not want to hear, but what he needs to 
hear. We've too often seen heads of the intelligence community 
exaggerate or misrepresent or misstate intelligence to support 
the policy preferences of the White House. We saw this with 
Bill Casey, who, a bipartisan Iran-Contra Report concluded had 
``misrepresented or selectively used available intelligence to 
support the policy that he''--Bill Casey--``was promoting.''
    Now, that was the finding of a very bipartisan and a very 
distinguished Iran-Contra Commission. Did you agree with the 
Iran-Contra Report's conclusion about Bill Casey's 
misrepresenting intelligence?
    Ambassador Negroponte. Sir, I'm not sure I was focused on 
that issue at the time.
    Senator Levin. Were you involved in his thinking and 
conclusions relative to the Contras?
    Ambassador Negroponte. Well, of course, I knew Director 
Casey and met with him on numerous occasions, including when he 
visited Honduras. But, as you may know, by the time the Iran-
Contra situation developed, I had already moved on from 
Honduras in May 1985 and taken on my new responsibilities as 
Assistant Secretary of State for Oceans and International 
Environmental and Scientific Affairs.
    So I was not in a position dealing with Central America at 
the time the Iran-Contra scandal developed.
    Senator Levin. More recently, George Tenet also was engaged 
in exaggerations and misstatements when he said, for instance, 
publicly that Iraq had ``provided training in poisons and gases 
to two al-Qa'ida associates,'' which was close to what the 
President was saying publicly about the same issue. But the 
underlying intelligence said that that reporting was 
contradictory and was from sources of varying reliability.
    Judge Silberman explained recently in talking about his 
report that, ``The intelligence community was resistant to 
notions that there was an important connect between Saddam and 
al-Qa'ida or terrorism,'' and yet you had the Director, the 
DCI, talking about Iraq ``providing training in poisons and 
gasses to al-Qa'ida associates.''
    My question is this: Are you troubled by that kind of a 
public statement of Director Tenet which differs or differed 
from the underlying intelligence relative to the connection 
between al-Qa'ida and Saddam Hussein?
    Ambassador Negroponte. Senator, let me try to answer you 
question this way. And I think it goes back to the question 
that Senator Wyden was putting to me earlier. I'm an 
experienced foreign policy professional. As a junior officer, I 
was a political reporting officer. I don't know how many 
hundreds----
    Senator Levin. Given our time problem, I'm just wondering 
whether you could give a shorter answer.
    Ambassador Negroponte. Well, I'm just going to--OK. My 
punchline is, I believe in calling things the way I see them. 
And I believe that the President deserves from his Director of 
National Intelligence and from the intelligence community 
unvarnished truth as I best understand it.
    Senator Levin. That's critically important because it's not 
been the case. When the DCI said that something was a slam dunk 
which was not a slam dunk, even given the underlying classified 
intelligence, that was not giving the President the unvarnished 
truth.
    Now, you're not responsible for what Tenet said, but your 
assurance here that you will do that is important.
    There's another aspect of unvarnished truth here, though, 
and that is that if you conclude that policymakers are making 
public statements that differ from the classified intelligence, 
what action will you take? And I want to just give you a couple 
recent examples.
    Shortly after the 9/11 attacks, a single uncorroborated 
report alleged that the lead 9/11 hijacker, Mohammed Atta, had 
met in Prague in April 2001 with an Iraqi intelligence officer 
named al-Ani. On December 9, 2001, Vice President Cheney said 
that the Prague meeting had been ``pretty well confirmed,'' 
although it had never been confirmed. On September 8, 2002, 
Vice President Cheney was asked if the CIA thought the report 
of the meeting was credible, and he said it was credible.
    But in fact, as early as late spring of 2002, long before 
that statement, the intelligence community was skeptical that 
the meeting had taken place. In June of 2002, the CIA issued a 
then-classified report that said that the information about the 
meeting was contradictory.
    It now turns out that in January 2003--now that's still 
before the war--that the CIA published a then-classified report 
that said the following: ``Some information asserts that Atta 
met with al-Ani. But''--and these are the key words--``the most 
reliable reporting to date casts doubt on that possibility.'' 
Now, that language was just declassified at my request within 
the last week by the CIA.
    So you have the CIA, in its classified assessment, saying 
that the most reliable reporting to date casts doubt on that 
possibility. But yet you have the top policymakers saying that 
that meeting, we believe, took place.
    My question to you is this: What would you do if you were 
DNI at the time that kind of a public statement were made, if 
you believed that it went beyond the classified intelligence?
    Ambassador Negroponte. I think you're raising a 
hypothetical.
    Senator Levin. No, that's a real one.
    Ambassador Negroponte. But looking to the facts here, 
Senator, it seems to me that everything we've gone through in 
these last months--the 9/11 Report, the WMD Commission Report, 
the reports that you have done--are to look at ways in which we 
can correct and reform and improve the modus operandi of the 
intelligence community in order to avoid these kinds of 
situations being repeated.
    I would, first of all, do my utmost to make sure that the 
right intelligence is presented to the President, the Vice 
President, the Cabinet members and our armed forces and the 
Congress.
    Senator Levin. And if you believed an erroneous statement 
was made by a top policymaker to the public, what would you do?
    Ambassador Negroponte. Well, I think that, first of all, 
given an opportunity to comment beforehand on the correctness 
or not of the statement, and if I had information that 
contradicted what was in a draft Presidential speech, I would 
seek to ensure that that incorrect information did not find its 
way into a Presidential or----
    Senator Levin. And if it did?
    Ambassador Negroponte. Well, you know, we have to cross 
that bridge, Senator. But I believe that we've got to work to 
establish objective intelligence. And the Intelligence Reform 
Act deals with a number of mechanisms designed to do that.
    Senator Levin. Thank you.
    Chairman Roberts. Senator Feinstein.
    Senator Feinstein. Thank you very much, and welcome, 
Ambassador.
    I believe very firmly in the concept of the Director of 
National Intelligence. I first introduced legislation having to 
do with it in 2002.
    So I'm at last pleased that we are there where we are 
today. Having said that, I'm concerned that the legislation is 
not strong enough. And so I'd like to ask you some questions.
    The recent WMD Commission Report highlighted the dead-bang 
failures of the intelligence community that led up to the war 
in Iraq. We discussed some of these yesterday and I won't go 
into them in this setting. But the other major finding of the 
report is that in critical areas intelligence should be 
informing major decisions by senior policymakers--for example, 
Iran and North Korea.
    Now, the intelligence just isn't there, according to this 
report. And I would add that, even if we had intelligence, I 
doubt that it would be believed by many of us or by the 
international community. I think the American public deserves 
some unclassified answers as to how you intend to develop the 
needed intelligence and the credibility to use it so that it 
will be believed.
    Ambassador Negroponte. Well, Senator, the law prescribes a 
number of approaches to this. And as I said earlier in my 
testimony, I'm not ready to give you a detailed blueprint. But 
there are, obviously, guideposts with respect to analytical 
integrity, with respect to objectivity, with respect to the 
approach of creating a National Counterterrorism Center, which 
will be an all-source center that tries to integrate the work 
of the many different agencies involved in dealing with that 
issue. It also talks about the possibility of establishing a 
non-proliferation center.
    And the WMD Commission also makes a number of detailed 
recommendations, some 75 in all. And those are now being 
studied carefully at the White House and the President has set 
a 90-day timetable for a response to those recommendations.
    So I would expect that shortly after being confirmed, I'll 
be in a position to come to the Committee with some specific 
ideas for you as to how I propose to deal with these questions.
    Senator Feinstein. I must say, I'm a bit taken aback by the 
vagueness of your answer. I'm rather surprised by it, because 
it would seem to me that by now--and you said you've read these 
reports--you must have some concept of what needs to be done. 
And it's not just the setting up of a center, I believe. I 
don't think that is going to change much.
    Ambassador Negroponte. Well, here are some of the things 
we're talking about, Senator. Of course, one of them is 
developing a sense of community. Another is to make sure that 
we don't rely only on intelligence from one agency, but get the 
best possible benefit from all 15 different members of the 
intelligence community. We're talking about red cell analysis 
and alternative analysis.
    I mean, these approaches are all laid out there. But what 
I'm saying is the specific mechanisms as to how we're going to 
carry out all these different ideas have yet to be fully 
developed.
    Senator Feinstein. OK, well, that takes care of two of my 
other questions. Let me quote from one of your answers in the 
pre-hearing questions.
    ``The Secretary of Defense has significant discretion over 
the JMIP and TIARA, whereas the DNI has control over the 
national intelligence program. This creates natural tensions. 
The DNI can participate in budget development of JMIP and TIARA 
and is to be consulted by the Secretary of Defense with respect 
to any funds transfer or reprogramming under JMIP.'' And then 
you go on to say, ``I would expect to exercise these budget 
authorities.''
    So my question really is, how would you proceed? This 
morning, as I came in, I was listening to PBS. There was some 
discussion over the fact that the defense community may be 
realigning to try to prevent any loss of authority in this 
area.
    And we know it's a very sensitive area. I hope that this--
and my intention certainly is that this be a very powerful 
position, that you be able to use the budget authority and the 
statutory authority to its fullest strength. So could you 
comment more fully on that answer to the question, please?
    Ambassador Negroponte. Thank you, Senator. I mean, as you 
mention, according to the legislation, I do have enhanced 
powers relating to budgetary, to personnel and acquisition 
matters, among others. And, in addition, when the President 
announced my nomination he said he would fully back me and the 
new role of the DNI. And you may recall that he made specific 
reference to my role in determining the national intelligence 
budget.
    So I will seek to make the fullest possible use of these 
authorities. And as regards some of the discussion that has 
been put forward about the Defense Department--and I think 
yesterday there was a reference to an effort to bring together 
the different intelligence components of the Pentagon and have 
them all report through Under Secretary Cambone with regard to 
dealing with the DNI, I see my authority under the law, given 
my responsibilities for determining the national intelligence 
budget, in no way will preclude my ability to deal directly 
with such agencies as the National Security Agency, the 
National Reconnaissance Office and so forth.
    And also, as I think I mentioned to you when we met 
privately, I've met with Secretary Rumsfeld. We've agreed that 
we will meet on a regular basis to go over these issues. I've 
also seen Budget Director Bolten. And I'm confident I can count 
on his strong support in these matters.
    Senator Feinstein. Thank you. With respect to chapter 13 of 
the----
    Chairman Roberts. Senator, the time has expired. We will go 
to a second round.
    Senator Feinstein. I beg your pardon. Thank you very much. 
Thank you.
    Chairman Roberts. Senator Snowe.
    Senator Snowe. Thank you, Mr. Chairman. I would ask that my 
prepared statement be made a part of the Record.
    [The prepared statement of Senator Snowe follows:]

            Prepared Statement of Senator Olympia J. Snowe, 
                        U.S. Senator from Maine

    Thank you Mr. Chairman.
    Ambassador Negroponte, it is indeed a privilege to have you here 
this morning and I want to thank you personally for once again stepping 
forward to serve the Nation and taking on the tremendously complex role 
of leading the reform of our intelligence community.
    Truly, these are historic and perilous times for the Nation and 
your nomination comes with many questions about how you will address 
the challenges and opportunities the intelligence community faces. 
Indeed, I cannot recall a time when a nominee has come before the 
Senate with the entire community they have been nominated to lead in 
the midst of such sweeping transformation. As you well know, the 
transformation you will be charged with overseeing carries with it the 
future security of this Nation.
    Because we still know very little about our Nation's most dangerous 
adversaries, you will be responsible for ensuring that the community 
has the collection and analytic expertise required to confront our 
greatest challenges no matter from which quarter they appear. While 
many are concerned about the re-emergence of a regional peer competitor 
in the Northern Pacific, we obviously still face the scourge of 
international terrorism, international criminal organizations and other 
transnational threats. And, of course, there remains the perplexing 
problem of gathering intelligence against closed societies such as Iran 
and North Korea--so called ``hard'' targets.
    In the past three years, there have been four major investigations 
that have concluded that the time has come for significant reform in 
the intelligence community--two of them by this Committee. In December 
2002, the primary recommendation of the Joint Inquiry into the 
Terrorist Attacks of September 11, 2001 was that Congress should amend 
the National Security Act of 1947 to create a statutory Director of 
National Intelligence to be the President's principal advisor on 
intelligence with the full range of management, budgetary, and 
personnel responsibilities needed to make the entire U.S. Intelligence 
Community operate as a coherent whole.
    Last July, this Committee issued its Report on the U.S. 
Intelligence Community's Prewar Intelligence Assessments on Iraq that 
found that although the Director of Central Intelligence was supposed 
to act as head of both the CIA and the intelligence community, for the 
most part he acted only as the head of the CIA to the detriment of the 
intelligence product provided to national policymakers.
    Later that month, the 9/11 Commission issued their report on the 
terrorist attacks and also recommended that the current position of 
Director of Central Intelligence should be replaced by a National 
Intelligence Director with two main areas of responsibility: to oversee 
national intelligence centers and to manage the national intelligence 
program and oversee the agencies that contribute to it.
    Finally, just two weeks ago, the President's Commission on the 
Intelligence Capabilities of the United States Regarding Weapons of 
Mass Destruction found the Intelligence Community is ``fragmented, 
loosely managed, and poorly coordinated; the 15 intelligence 
organizations are a `community' in name only and rarely act with a 
unity of purpose.'' They also concluded that the Director of National 
Intelligence will make our intelligence efforts better coordinated, 
more efficient, and more effective.
    Clearly, with this many investigations and Commissions arriving at 
the same conclusions time and again, for the sake and safety of the 
Nation we must begin the transformation of the fifteen agencies tasked 
with collecting and analyzing intelligence into a single, coordinated 
community with the agility to predict, respond to and overcome the 
threats our Nation will face. Your confirmation is the first step in 
executing this extremely complex undertaking and time is of the 
essence.
    You have the distinct privilege and solemn obligations that come 
with being the first Director of National Intelligence. How you lead, 
how you manage the community, how you shape your role, the 
relationships you create with the various agencies and their leaders 
will not only determine how effective you are in reforming our 
intelligence community but very likely how each of your successors will 
approach the oversight of our intelligence community as well.
    As we discussed last week, I believe that one of your primary tasks 
will be to energize the workforce and give them direction. We both 
agree that our intelligence community professionals are the best in the 
world and every day they toil tirelessly, often unrecognized, in the 
shadows to keep this country safe. I believe they are eagerly looking 
for strong leadership so they can move forward with the business of 
securing the country.
    It has been said that ``A leader takes people where they want to 
go. A great leader takes people where they don't necessarily want to go 
but ought to be.'' We need your great leadership skills as the first 
Director of National Intelligence to break down the old rice bowls and 
stove-pipes so that loyalty to an agency or an established bureaucracy 
is replaced by the understanding that every agency and every employee 
comprising the intelligence community is part of one team and that 
team's goal is to secure America.
    All this points to significant reforms in current personnel 
policies--from recruitment and training to career progression and 
assignments. We must develop a workforce that is adequately agile and 
flexible to counter the myriad threats we face. The community must 
recognize that the growing diversity of the threat requires a 
commensurate growth in a diverse workforce. The mere act of recruiting 
a diverse workforce will offer the ability for an organization to see 
collection and analysis with fresh eyes as different ``frames of 
reference'' are added to the workforce.
    Finally, and again as we discussed the other day, while many are 
ready to jump in and begin amending and changing the provisions of the 
Intelligence Reform Act, I believe we must mind the ``law of unintended 
consequences.'' I believe that you will need some time to work with the 
law before you can tell what is working and what is not. Certainly, if 
you see areas that need immediate attention or further refinement, or 
that make your authorities unworkable, we would expect you to come back 
to us as quickly as possible so we can provide you the tools you need 
to quickly and effectively reform the community.
    Ambassador Negroponte, I firmly believe that you possess the 
experience and leadership necessary to refocus our intelligence 
community, so the intelligence products provided to national 
policymakers are not only timely, but reflect the best judgment of the 
entire of the intelligence community. I look forward to working with 
you in the coming years as we shape our intelligence community into a 
cohesive whole and as you define the role of Director of National 
Intelligence. With a strong DNI and a focused intelligence team, our 
Nation will be safer. Thank you.

    Senator Snowe. Welcome, Ambassador Negroponte. And I am 
going to thank you for once again stepping forward to serve our 
Nation in this precedent-setting role that has responsibility 
for overseeing a transformation, a sweeping transformation of 
our intelligence community that carries with it the future 
security of our country.
    As everybody's indicated, and you've acknowledged in your 
own statement, your leadership skills will be sorely tested as 
the first director of this newly created agency, particularly 
because you're going to have to break down the stovepipes and 
the barriers that exist between and among all of the 
intelligence agencies.
    That was abundantly apparent in the more than four reports 
that have been done over the last few years, the two regarding 
9/11 and then the weapons of mass destruction-related 
intelligence reports that were done by the Silberman-Robb 
Commission, and also our Committee.
    You'll have to break down those barriers and the loyalties 
that each individual employee has to the agency or bureaucracy 
and to replace that with an understanding that they now, as 
part of their agencies, comprise an intelligence community 
team, and that team's goal is to secure the security of 
America.
    So the real question is, in my mind, and many questions 
that have been raised in respect to that ultimate goal in 
creating that team that you've acknowledged in your statement 
as well, that it is building teamwork, because we have so many 
outstanding men and women who have put their lives on the front 
line and display enormous professionalism and courage.
    But I think the question is how you see your authority in 
breaking down those barriers, solidifying your position. Even 
the Silberman-Robb Report indicated that headstrong agencies 
will try to run around and over the DNI, that these agencies 
have an almost perfect record of resisting external 
recommendations. So the key is, number one, how you intend to 
solidify your authority.
    Some say that you're going to lack the command authority, 
as a result of the legislation we passed. Maybe the ambiguity 
and the gaps may be more positive than negative. On the other 
hand it could be a negative if you don't have the ability to do 
what you need to do--if we haven't given you the authority to 
succeed. And we, obviously, will need to know that sooner 
rather than later.
    So first of all, how do you view your role in solidifying 
your position? And if you lack the command authority as 
directed under this legislation--obviously, I'd like to hear 
your response to that--how will you direct the agencies to do 
what you want them to do?
    Ambassador Negroponte. Well, I think the law does give me 
substantial authority. And even in areas where there might be 
ambiguities, I think I've been encouraged by many of the people 
that I've consulted with during these past 2 weeks to push the 
envelope and use what authorities I believe I have to the 
utmost.
    And I think there's also been commentary to the effect that 
I will need the support of the President. And he has, in 
announcing my nomination, made public assurances of supporting 
me in these new functions.
    But there are budgetary authorities that we talked about 
already. There are some personnel authorities, there are 
procurement authorities. And there's a whole range of 
instruments that I think are available or can be developed.
    The other point I'd like to make, Senator, is I'm no 
stranger to operating within either the U.S. Government in 
general or within the intelligence community in particular. As 
an Ambassador I have had five CIA stations under my authority, 
I've had Defense attaches, and most recently in Iraq I worked 
extremely closely with General George Casey, the MNFI 
Commander, in what I think was a real model of civilian-
military cooperation even to the point where General Casey and 
I, the Embassy and MNFI, were issuing unprecedented joint 
mission statements.
    So I think that by developing relationships, by 
establishing trust between the key players here, I think this 
issue can be moved forward.
    Senator Snowe. Well, I guess the question is, how long?
    And I know you mentioned that we can't wait another decade 
to fix this community. And the breadth of failure, you know, 
frankly, was inconceivable, I think, to all of us. And, you 
know, we don't want to look in the rearview mirror.
    But on the other hand, I think, knowing that and given what 
has also happened in this unprecedented failure, that we need 
to make sure that we get it right sooner rather than later.
    So you know and understand we have to adopt a wait-and-see 
attitude for a while with respect to this legislation, with 
respect to the kind of authority you've been given or haven't 
been given depending on how broad it is. The question is, how 
long do you believe we have before we would have to go back and 
fix the legislation if it's necessary?
    Ambassador Negroponte. Well, I have a two-part answer to 
that.
    First of all, how long in terms of starting to make some of 
these changes: My answer is right away. As soon as I'm 
confirmed, I want to set about setting up this office and start 
making some of the changes and adjustments and adoption of 
different approaches that have been recommended. So I'd like to 
move out quickly. I have no personal interest in prolonging 
that aspect of the job.
    As far as if or when we might come up with some suggestions 
as to amendments, I think I'd have to reserve on that at the 
moment because I think it would be good to get a bit of a body 
of experience.
    But I can assure you that we won't hesitate. If we think 
some kind of a legislative fix is required, technical or 
otherwise, we will be back to the Committee promptly on that.
    Senator Snowe. So you wouldn't hesitate to come back, you 
know, within the year?
    Ambassador Negroponte. Well, that certainly sounds like a 
reasonable period of time to me. But, again, I just wouldn't 
want to be held to a specific timetable.
    Senator Snowe. Thank you.
    Chairman Roberts. Senator DeWine.
    Senator DeWine. Ambassador, we welcome you. We welcome your 
family.
    Thanks for being here. I think the President's made a good 
choice. And we look forward to working with you in the years 
ahead.
    As you and I discussed in my office a few days ago, I was 
one of the ones who felt that this bill did not give you enough 
authority. And I remain concerned about that.
    But I think we all do realize that ultimately your success 
or failure is not only going to depend on what you do, but it's 
going to depend on how much authority the President of the 
United States gives you. And I think that no matter how we 
write the legislation, no matter what words were down on paper, 
ultimately it's going to be whether the President backs you up 
in these turf wars that are bound to occur.
    Let me ask you to follow up on a question that you answered 
a moment ago in regard to this report that came out. It was a 
Time Magazine report in regard to Mr. Cambone.
    This report says, ``The Defense Department's Intelligence 
Chief, Stephen Cambone, is having aides draft a previously 
undisclosed charter for his office that would consolidate his 
power as the DNI's main point of contact for the Pentagon's 
myriad intelligence agencies, which consumes some 80 percent of 
the estimated. . .''--and then it tells about the intelligence 
budget.
    Then it says: `` `Cambone would be like a mini-DNI,' says a 
senior intelligence official.''
    You've answered that. I guess what you're saying is you 
would not feel constrained that you have to go through Mr. 
Cambone to deal with people in the Pentagon?
    Ambassador Negroponte. That's correct.
    And specifically, when you talk about the NSA or the 
Geospatial Agency, I've got to learn a whole new alphabet soup 
here,
    Senator DeWine. There's a lot of them.
    Ambassador Negroponte. In any case, the various agencies 
that benefit from what is called the national intelligence 
program, and since that responsibility is assigned to the DNI, 
I think the language in the law is quite strong. It says 
``shall determine'' that budget. Well, clearly I'm going to 
have to have a relationship with those agencies. I can't see 
any other way of doing it.
    Senator DeWine. Well, and I assume you mean this is a 
direct relationship. This is not a relationship that is going 
through someone. You need to have the ability to deal directly 
with them, and not through a conduit.
    Ambassador Negroponte. Right. Yes.
    Senator DeWine. I mean, you don't have to ask somebody to 
coordinate this. We're not looking at something here in the 
Defense Department, are we, where you have to clear something 
with somebody every time you do it, are we?
    Ambassador Negroponte. That would sound rather impractical 
to me. And that's not the way I would expect to proceed.
    Senator DeWine. Well, it's not only impractical, I think 
it's very dangerous.
    Ambassador Negroponte. Having said that, Senator, if--I 
certainly don't want to suggest----
    Senator DeWine. I'm not asking you to pick a fight today, 
Mr. Ambassador. You know, you've been in the diplomatic corps 
long enough; I'm not going to put you on the spot. But I just 
want to express this Member's opinion that that would be a 
problem. I'll let it go at that.
    Let me ask you about the FBI. What do you envision, based 
on the statute and your reading of the statute that we have 
written and your anticipation of your new job, what your 
relationship with the FBI will be?
    Ambassador Negroponte. Well, first, they have an 
intelligence component that is in part answerable to me. So I 
believe that's one point.
    Second, I think that when we're talking about trying to 
integrate the foreign and domestic intelligence aspects of the 
situation, clearly we're going to have to work extremely 
closely with the Department of Justice, the FBI and the 
Department of Homeland Security.
    Some of that effort is already ongoing in the form of the 
National Counterterrorism Center. But as to more specifics as 
to exactly how Director Mueller and I are going to work 
together, I think that's something that he and I are going to 
have to develop together.
    Senator DeWine. Have you had an opportunity to talk to 
Director Mueller about this in any detail yet?
    Ambassador Negroponte. Not in any detail, but we have met 
and I'm also pleased to say that he and I have worked together 
before when I was Ambassador to Mexico, as a matter of fact, 
and he was the Associate Attorney General for Criminal Matters.
    Senator DeWine. Let me ask you about your experience in 
Iraq and what you learned there that might be of relevance to 
your new position. I would even expand it beyond just your own 
personal experience in Iraq, but going back to the lead-up to 
the war and what we learned as far as some of the intelligence 
failures leading up to the war. Reflect on both. They are two 
separate issues.
    Ambassador Negroponte. Two points I would offer on that, 
Senator. First, with respect to the current situation in Iraq, 
my experience on the ground and to the extent that I've been 
able to follow it, the intelligence community is actually--
their work comes together quite well in Iraq. I think there 
have been some examples of excellent cooperation between 
various elements of the intelligence community, which has 
resulted, for example, in the capture or killing of a number of 
the al-Qa'ida and Zarqawi associates. So I think that there 
have been some positive achievements there, although I think I 
a lot of work still remains to be done, especially on better 
understanding the nature of the other aspects of the insurgency 
other than al-Qa'ida, namely the former regime elements, the 
Saddamists and so forth.
    On the intelligence prior to the war, I think I, like 
everybody else, was surprised at the virtual lack of any 
supporting information that was developed after the war took 
place and the Iraq Survey Group's Report. I certainly, when I 
was Ambassador to the United Nations and making whatever 
arguments or whatever case that I was instructed to make to the 
Security Council, I certainly believed most of the 
intelligence.
    So I think I would agree with particularly the WMD 
Commission's Report that I think diagnoses that Iraq failure in 
great detail, and we've got to do our darndest to avoid a 
repetition of that kind of situation.
    Senator DeWine. Thank you very much.
    Thank you, Mr. Chairman.
    Chairman Roberts. Senator Hagel.
    Senator Hagel. Mr. Chairman, thank you.
    Mr. Chairman, I would ask that a statement that I have be 
included for the record.
    Chairman Roberts. Without objection it is so ordered.
    [The prepared statement of Senator Hagel follows:]

              Prepared Statement of Senator Chuck Hagel, 
                       U.S. Senator from Nebraska

    America's first Director of National Intelligence faces an enormous 
challenge. He must re-energize the leaders of an intelligence community 
that have endured the intense scrutiny of numerous investigations. The 
DNI will need to harness the expertise, experience and commitment of 
the 15 different intelligence agencies to achieve the common goal of 
securing our Nation. And the Director must do all of this while the 
threat of terrorist attacks remains real. The President has nominated 
an extremely capable and experienced professional who will set the 
standard for all future Directors: Ambassador John Negroponte.
    I have worked closely with Ambassador Negroponte over the years and 
know of his depth of knowledge and wide experience on international 
security issues. His distinguished service as our Ambassador to the 
United Nations will give him the credibility we need in the world 
arena. He further proved his immense ability as Ambassador to Iraq, 
where his efforts were critical to the successful Iraqi elections. He 
understands the challenges of the 21st century and the magnitude of 
threats to America and the world. He has the ability to lead an 
effective, integrated intelligence community.
    I look forward to supporting Ambassador Negroponte in his efforts 
to build a strong and capable intelligence community for our country.

    Senator Hagel. Thank you.
    Ambassador Negroponte, welcome. I think Senator Stevens had 
it right when he referred to you this morning as one of the 
most distinguished public servants of our time. You have been.
    You continually avail yourself to impossible tasks. And we 
appreciate very much what you and your family have agreed to 
here to step into this critically important role, a role that 
will, in fact, define the intelligence community in this 
country for many years.
    Your actions, your leadership, how you interpret and how 
you define this new law will, in fact, set a precedent for 
future intelligence community leaders. It is an important, big 
job which you understand and you are up to. So thank you for 
agreeing to do this.
    You have had an opportunity to review the Silberman-Robb 
Report and it has been brought up here this morning. I would be 
interested in your thoughts about the challenge that you are 
going to have--and this was part of the report that they 
issued--in regard to information-sharing in the intelligence 
community.
    Here you will be dealing with 15 agencies, all important, 
all with their own cultures, dynamics, responsibilities. How do 
we integrate that information and intelligence? Have you given 
some thought to that?
    Ambassador Negroponte. Senator, first of all, it is a 
crucial issue. And I think it goes to the question of creating 
a unified intelligence community. And I think that that's one 
of the principal purposes of this new legislation.
    The Silberman-Robb Report has some 75 or so 
recommendations. And, as I mentioned earlier, they are being 
studied now by the White House, both by the National Security 
Council and the Homeland Security Council. And the President 
has given them 90 days to come up with a response to those 
recommendations.
    But within them are a number of them that make sense to me 
and address the question you raise with respect to information 
technologies, with respect to making more information about 
sources available across the intelligence community, so you 
don't have a situation sometimes when intelligence reports are 
being circulated, but the other receiving agencies don't have 
enough understanding or appreciation for the source and its 
reliability.
    There are a number of different steps that are being 
proposed, and we're going to take a hard look at that. And I 
certainly expect to move on whatever recommendations are 
adopted fairly promptly.
    Senator Hagel. Thank you.
    Also included in the Silberman Report was a reference, as 
was the case in other reports--and this Committee has dealt 
with this issue as well--the issue of alternative analysis--
allowing policymakers outside the regular, mainstream 
intelligence community analysis process--which, obviously, you 
need to be aware of that and may well even instigate and 
initiate something within your organized intelligence community 
for alternative analysis.
    Senator Hagel. Have you given any thought to that issue?
    Ambassador Negroponte. Yes, sir. I think it's important. I 
think there are mechanisms that can be established both within 
the DNI and perhaps in some of the other agencies, as well, 
related to that. And there is quite emphasis on it in the 
Silberman-Robb Report about the importance of open-source 
analysis. Clandestine intelligence reporting isn't the only 
source of wisdom and I think a lot of attention ought to be 
paid to that.
    But, yes, I think in terms of providing the best possible 
intelligence product to the President, one has to take a 
holistic look at this issue.
    Senator Hagel. Thank you.
    In our previous conversations, Mr. Ambassador, we've talked 
about one of the challenges that you are going to have is to 
not just integrate 15 agencies, to a certain extent, but it's 
also--it's my word not yours--reenergize and strengthen what 
has happened to our intelligence agencies over the last couple 
of years--the studies, the reviews, the critiques, the 
failures.
    And we understand--you certainly do--that structures are 
important, but it's relationships and people and culture that's 
most important.
    And you're going to have a big job of putting all that back 
together. These agencies have been hollowed out. Their sense of 
themselves, their sense of purpose, their self-confidence--not 
all--but there has been, I think, some erosion of a sense of 
their mission and their purpose. And they're going to need some 
intensive work in the area of bolstering their own personal 
commitments, it seems to me, and as an agency.
    And I'm not talking about cheerleading and pep rallies, but 
I'm talking about harnessing that vitality and bringing that 
vitality back to where any organization has to have it in order 
to get peak performance from its people.
    And you've thought about that. Would you care to share with 
us your thoughts?
    Ambassador Negroponte. Thank you, Senator.
    I have thought about it. And I couldn't agree with you more 
that it's extremely important, not only in and of itself, 
because we need to have a re-energized and positive and 
forward-looking intelligence community, but also because I 
think there are many individuals in these different agencies 
who have done absolutely outstanding work for our Nation, and I 
think that work needs to be recognized and acknowledged and 
remembered.
    As I mentioned earlier, I've worked very closely with the 
CIA, the Defense Intelligence Agency, the NSA in my recent 
positions. And they have done a lot of extremely valuable work, 
whatever some of the serious shortcomings that have been 
brought to our attention during the past couple of years.
    So, yes, I want to work very hard on that. I think it's 
probably one of the most important aspects of the job that I'm 
about to undertake, if confirmed. And while we may not have pep 
rallies, I certainly do want to go out to visit these different 
agencies and have town hall meetings and talk to the people out 
there.
    And to the extent that it's within the limits of my energy, 
we'll try to get to know as many of these fine individuals as 
possible.
    Senator Hagel. Thank you.
    Mr. Chairman, thank you.
    Chairman Roberts. Senator Chambliss.
    Senator Chambliss. Thank you very much, Mr. Chairman.
    Ambassador Negroponte, on behalf of all Americans, I thank 
you for your great public service. You have been a stalwart 
from the standpoint of taking tough jobs and achieving great 
success at every level that you have been involved from a 
public service standpoint. And having had the opportunity to 
see you and work with you firsthand, both at the United Nations 
and also in Iraq, I'm just very thankful that the President has 
chosen wisely in selecting you to head this very difficult 
position.
    As I indicated to you in a previous conversation, I think 
trying to find the right person with the right background was 
difficult on the part of the President. And you are one of the 
very, very few Americans, I think, that possessed the public 
service background, the intelligence background, as well as 
having the people skills necessary to carry out this very 
difficult position.
    So we look forward to continuing to work with you.
    I was pleased to hear in your comments that you don't see 
the intelligence game as a zero-sum game, and particularly this 
position, that will require the DNI to wrestle away the budget 
issue as well as the process issue from other agencies, 
particularly the CIA and DoD. And I think you're exactly right 
about that. This is not a zero-sum game.
    As you know, Senator Ben Nelson and I have been advocating 
a single DoD point of contact for the DNI through a four-star 
unified commander for intelligence that we're calling INTCOM. 
And I see now where Secretary Rumsfeld has picked up on this 
notion, as Senator DeWine mentioned, and has recently named 
Under Secretary Dr. Stephen Cambone to serve as your single 
point of contact, at least for the interim period of time, at 
the Department of Defense.
    How do you foresee the DNI working with the Department of 
Defense? And what are your thoughts about working with a single 
INTCOM commander who could coordinate the vast intelligence 
capabilities within the DoD to support your efforts?
    Ambassador Negroponte. Well, first of all, Senator, Senator 
Rumsfeld and I have agreed that we will meet frequently to 
discuss intelligence issues, so I would expect cooperation at 
that level in the first place, and certainly will cooperate 
with Mr. Cambone.
    And even though he's a focal point within the Defense 
Department, the way I read the statute, which gives me 
authorities to recommend or determine the budget with respect 
to the NRO, the NGA and the NSA, it seems to me that, in 
addition to working with the Secretary and Mr. Cambone, I will 
want to work directly with those agencies as well.
    But coming back to Senator Hagel's point, I think these 
things come down to relationships, investing time and effort 
and understanding into each other's point of view. And I look 
forward to working with the Department of Defense in addition 
to all the other agencies in carrying out my job.
    Senator Chambliss. What about as far as the concept of an 
INTCOM commander there? Do you see any problems if that comes 
about, working with a single point of contact with the eight 
Defense Department agencies?
    Ambassador Negroponte. Well, I'd have to study that 
legislation more carefully and get back to you on that, 
Senator. I haven't had a chance to look at it carefully. 
Although if memory serves me correctly, I believe some in the 
Administration have raised concerns with the creation of such a 
position.
    Senator Chambliss. And actually some have raised concerns 
and some are supportive, so we're still in the negotiating 
process, Mr. Ambassador.
    I'm very concerned about the rebuilding of our HUMINT 
capability, as well as protecting our morale of the CIA and our 
Defense Department case officers in the field as we continue to 
reform the intelligence community with the formation of the 
DNI.
    What are your general views on the State of HUMINT, both 
overt collectors like our military attaches as well as our CIA 
covert capabilities? And what's been your relationship with 
both CIA case officers as well as DIA case officers over the 
years, relative to HUMINT collection?
    Ambassador Negroponte. I think to the extent that we can 
comment about this in public session, Senator, first of all, 
I've had extensive relationships with both the CIA and the DIA 
in the field, so I feel that I'm quite well acquainted with 
their work.
    I was Ambassador to the Philippines from 1993 to 1996, 
which was a time during which the budgets were being cut for 
intelligence purposes, and I remember the station there being 
cut by about 50 percent when I was there. And it was an ironic 
situation, because it was just at the time that we captured 
some people who were connected with the World Trade Center 
bombing and who had developed a plot to assassinate the Pope 
and hijack 12 airliners in the Pacific. You may remember that 
case, the Ramzi Yousef case.
    And there we were, with the Filipinos capturing those 
individuals just at the same time that we were reducing our 
HUMINT capabilities.
    So I think it needs to be strengthened. I know there are 
plans afoot to do that. And I'm fully supportive of that 
effort. And it's one of the efforts that I certainly will be 
devoting a lot of attention to.
    Senator Chambliss. Mr. Ambassador, thank you. And we look 
forward to completing your confirmation process and to 
continuing to work with you in this very difficult, but 
exciting position that you're going to be assuming.
    Chairman Roberts. Senator Hatch.
    Senator Hatch. Welcome to the Committee, Mr. Ambassador, 
Madam Negroponte. We appreciate both of you. I've known you for 
a long time. I spent some time with you in Honduras way back 
when. And I agree with everything Senator Stevens had to say 
about you. There's no question you're one of the finest public 
servants we've had.
    I believe you've been confirmed by the Senate eight times?
    Ambassador Negroponte. If you confirm me this time, sir, it 
will be eight.
    Senator Hatch. It'll be eight.
    Ambassador Negroponte. Yes, sir.
    Senator Hatch. Well, then, seven times. It seems to me we 
don't even need this hearing. But we do need it, because we 
need to discuss some of these matters, of course.
    But I'm pleased, Mr. Chairman, that you moved as fast as 
possible to bring and schedule this confirmation hearing, 
following the actions we took last fall to establish the 
position of Director of National Intelligence. And so we've 
told the nominee now and in our own meetings his tenure will 
define the way we need to go to use our intelligence community 
to its fullest to address the various threats that still loom 
over us and around us.
    So I welcome my old friend John Negroponte, who has served 
this country for more than 40 years in some of the most 
challenging international situations we have faced. And I'm 
grateful for that service. In my opinion, you've already met 
your missions admirably. And I want to thank you for choosing 
once again to assume a very, very large challenge.
    And I'll make only two points. One is that this is the 
toughest job you're ever going to have. And I realize I'm 
saying this to someone who has just come back after serving as 
Ambassador to Baghdad.
    The President wouldn't have chosen you if he didn't think 
you could do it. And if confirmed, I think you need--please 
work with this Committee, as you have said you will, and I 
assure you of my support.
    Number two, Usama bin Ladin is not sitting wherever he is 
because Congress and the President have just created the 
position of Director of National Intelligence.
    Too often, we delude ourselves in Washington by believing 
that bureaucratic realignment is the policy solution. The 
bureaucratic shift can only support the policy solution. And 
that's what you do with this position. What you do with this 
position is what will make bin Ladin sweat, and that will 
hopefully lead to his ultimate elimination from the world 
scene.
    Now, you know from your years of being a top consumer of 
intelligence what the value of intelligence is and can be. 
You've handled, I think, at least five chiefs of station. And 
that's big-time stuff; there's no question about it.
    You know from your last post about the complexities of the 
various threats that we face. And now you must use your 
position to raise the level of analytic and operational quality 
of our intelligence community to new levels. You will be 
leading thousands of superb professionals with experienced 
leaders like Porter Goss, and working with them all to achieve 
a level of security that the American public deserves and that 
our enemies should fear.
    There's no question that we will support you, in my 
opinion, on this Committee. And I certainly support you 
strongly, knowing you as well as I do.
    I found it kind of interesting, some of the questions about 
you might be ducking issues. I've never seen you duck an issue 
the whole time I've been around you. And, frankly, you've been 
in some of the hottest spots on earth, and especially with 
regard to your work in Honduras.
    I think it's important to point out, if I recall it 
correctly, you and your wonderful wife have adopted five 
Honduran children. Is that correct?
    Ambassador Negroponte. Yes, sir.
    Senator Hatch. That's during this time that others are 
saying that you should have stopped a human rights problem. I 
think that shows the compassion that you had for the Honduran 
people and for life in general, for families in general. And I 
commend you for it. And as far as I can see, you've done a 
really good job with them too.
    I was on the Iran-Contra Committee and I have to say that 
was a very trying and difficult time in all of our lives. There 
were people on both sides, very sincere, very good people, very 
strong people, very educated people, very expert people, people 
who understood intelligence and I think people who had good 
points that they could make for both sides.
    But you always went down the middle, as far as I was 
concerned. You always stood up for your positions, with which 
some disagreed, but you always were honest and straightforward 
about your positions.
    Let me just ask you this. In your response to questions 
from the Committee, you indicated your familiarity with the 
tools provided under the Intelligence Reform and Terrorism 
Prevention Act of 2004 to provide for education and training 
for intelligence community personnel. Now, this was in response 
to a growing consensus that there is a need to develop 
community-wide education and training to instill modern 
doctrine to create so-called jointness across specializations.
    I have, in the past, supported the need to institutionalize 
a formal education structure toward this end. Now, have you 
given any consideration, or have you had a chance to give any 
consideration, to how exactly you would address the need for 
proper training of intelligence community personnel across the 
various specializations?
    And do you believe there's a need for the teaching and 
training under the new doctrines? And if so, how do you propose 
to institutionalize addressing these needs?
    Ambassador Negroponte. Thank you for your question, 
Senator.
    Definitely there needs to be focus on education. And there 
are provisions in the law that mandate and require the DNI to 
address those issues. I think one of the questions that's going 
to arise is whether one looks at the creation of some separate, 
free-standing national intelligence university, as the Robb-
Silberman Commission proposes, or is it a question of maybe 
having someone overseeing the training efforts that take place 
throughout the intelligence community and try to ensure that at 
the various institutes, whether it's in the military or in the 
CIA, that the training curriculum is standardized. But 
definitely, we've got to look at the training aspect--
tradecraft, professionalism and so forth.
    And the other point I would say, which, to me, as a career 
Foreign Service officer, is extremely important, is we've got 
to bolster the language and area training of our intelligence 
community. I've looked at some of the statistics. I can't 
remember them off the top of my head. But I do know that the 
language skills, for example, in the Central Intelligence 
Agency are substantially lower than those that you'd find in 
the State Department, for example.
    And I think those kinds of skills, in this day and age, 
have got to be improved.
    Senator Hatch. Thank you very much.
    Thanks, Mr. Chairman.
    Chairman Roberts. Senator Corzine.
    Senator Corzine. Thank you, Mr. Chairman. Let me request 
that my prepared statement be made a part of the record.
    [The prepared statement of Senator Corzine follows:]

               Opening Statement of Senator Jon Corzine, 
                      U.S. Senator from New Jersey

    Thank you, Mr. Chairman and Mr. Vice Chairman. Before I begin with 
questions, I think it's worth recalling how we got to this historic 
moment. The establishment of the Director of National Intelligence 
would not have happened had it not been for the patriotism and passion 
of some remarkable Americans.
    Let me begin with the families of the victims of 9/11 who managed 
to turn their grief into real, effective action. The Family Steering 
Committee and, in particular, four 9/11 widows from my State who called 
themselves the ``Jersey Girls'' fought for real answers. They pushed 
for the creation of the 9/11 Commission, whose recommendations included 
the position for which Mr. Negroponte has been nominated. They also 
insisted that the Administration cooperate fully with the Commission as 
it sought a full accounting of the terrorist attack. They did all this 
for one reason: they wanted America to be safer than it was on the day 
they lost their loved ones.
    Those of us responsible for our Nation's intelligence, including 
Members of Congress, owe them our deepest gratitude. Every step of the 
way, they have reminded us why we are here--to protect America, to 
safeguard American lives, to make sure 9/11 never happens again.
    We also owe an enormous debt to the 9/11 Commission, led by Tom 
Kean and Lee Hamilton. Their hard work, persistence, intellectual 
honesty, and political neutrality brought about something truly 
incredible: a national consensus. The Commission's meticulous and 
thorough study of the events up to and including September 11 and its 
wise and succinct recommendations gave us an understanding of the past 
and a path forward. And, by involving the American people in their 
deliberations, they also helped generate public support for much needed 
reform. Without them, we would not be here today.

    Senator Corzine. Let me welcome Ambassador Negroponte. And 
let me also say that I think, for all of us, at least those 
people I represent, we want to express our gratitude for your 
long service to our Nation, particularly your most recent 
efforts, both in Iraq and in the United Nations.
    Also, I would be remiss if I didn't say one of the reasons 
you're sitting here certainly flows from a lot of the 
activities of people who come from my home State, Governor 
Kean, in particular, with regard to the 9/11 Commission; but 
maybe even more importantly, the families, some of whom were--
700 who lost their lives. And I commend them because I do think 
this is the proper step in the direction that we're taking. And 
I do believe that you have the experience and the opportunity 
to really lead here.
    But all that said, let me express a reservation that really 
flows--my reservation--and I'm not going to change my view on 
this--but much of the analysis that we've seen from the 9/11 
Commission, now the WMD, from the reports of this Committee 
itself, dealt with collection and analysis. It seems to me that 
there is a third leg to that stool and it's the use of 
intelligence and how that is presented.
    I thought Senator Levin's recital of a series of issues and 
intelligence that backed up the intelligence community's view 
with regard to the Mohammad Atta meetings gets at the point.
    Isn't the right answer--and I think you said crossing the 
bridge when we got there was the ultimate answer if there were 
public statements by senior public policymakers--isn't the 
right answer going to the senior policymakers when there is 
serious contradiction with the intelligence when we're making 
advocacy for policy? Some of that could be done behind closed 
doors, of course. Some can be done in Intelligence Committees 
so that we're not making policy decisions with erroneous 
decisions and we can avoid it.
    But it seems to me that it is almost imperative that the 
Director of National Intelligence--what's the term?--speak 
truth to power or whatever the phrase is. It will be absolutely 
a requirement that those contradictions in analyses are 
presented in a way. Isn't that the response?
    Ambassador Negroponte. And in answering Senator Levin, I 
think in part at least, Senator, I was trying to go to that. I 
was trying to say, from everything we've learned, from the 
experience we've had in the past several years, we don't want a 
repetition of this kind of situation. We don't want to have the 
CURVEBALL situation again.
    And one of the ways you're going to avoid it is to improve 
the quality of the analytical product, make sure it's 
comprehensive and lay the truth before the policymakers of our 
country, and try to avert the kind of hypothesis he described.
    Senator Corzine. Collection and analysis, the work and the 
organization, which is going to be an enormous task. And I more 
than believe you're up to that. But the fact is that even when 
we come through with that process, sometimes there will be 
strongly held opinions that are colored by selectivity, colored 
by interpretation potentially.
    And isn't it the job of the independent arbiter of 
intelligence to make sure that the community that is most 
responsible for assessing those knows that those contradictions 
with what is said in public--and maybe we'll never ever have 
that again; maybe because our collection and analysis will be 
so good that no one will ever have preconceived or group-think 
ideas come to fruition, that it will take--but if they do, will 
it be the responsibility of the DNI to challenge that 
privately?
    I'm not asking for political confrontation.
    Ambassador Negroponte. Yes, I have no problem whatsoever 
with that. And I also, I believe, said in my statement that 
intelligence is not a panacea, nor is it policy. But should the 
DNI place before the President and other decisionmakers the 
fullest and best possible analytical accounting that is 
available and identify the gaps in knowledge and talk about 
judgments as to reliability or unreliability and the various 
gradations and all of that? Yes. It has to be put before the 
decisionmakers.
    Senator Corzine. I'll end here because I think this whole 
issue of independent analysis, and making sure that the testing 
of hypotheses and knowing where holes are and contradictory 
perspectives on unknowables, leads to probabilistic analysis. 
And if that is not practiced, we get into certainty. And I hope 
that as time unfolds, this Committee and others will ask, 
within those probabilistic kinds of analyses, these most 
difficult questions. I think sometimes that has appeared to 
have been missing.
    Chairman Roberts. The Senator from Maryland, Senator 
Mikulski.
    Senator Mikulski. Thank you very much, Mr. Chairman.
    And, Mr. Ambassador, welcome to you and to your wife and to 
your family.
    We sure want whoever is going to be the head of the DNI to 
be a success. And if you're confirmed, we want you to be a 
success. And I think that's what the point of all the questions 
are. And that's why we're interested in really the focus on how 
will you get control of the intelligence agencies, do you have 
authority, what will it take to ensure coordination and 
cooperation, speak truth to power, and of course the background 
on Honduras, which goes to speak truth to power.
    Let me just tell you why I'm on the Committee. I'm here to 
be a reformer and I'm here to be a transformer and to work with 
the Executive Branch. Because I view the purpose of 
intelligence is, number one, to prevent predatory attacks on 
the United States, on our assets abroad, like our embassies--
and as a Foreign Service officer you know about how threatening 
it is to our Foreign Service--and, of course, to our troops and 
our allies, and then, of course, to support the warfighter.
    We've had three different recommendations going back to 
your job as being recommended by the 9/11 Commission. And 
whatever conversations we have today and in the future, I'm 
taking some of my questions from the 9/11 Commission, and also 
our Senate report on the failure of finding weapons in Iraq.
    So having said that, let me go first, though, to this 
question of truth to power. Other colleagues have raised this 
question, but I want to come at it from a different angle. 
Again, you've been a professional, the guy at the beginning, as 
the political person, to Ambassador. What would you see as your 
job as the DNI to ensure that your subordinates are speaking 
truth to power?
    Because one of the problems we faced, for example, in the 
Iraq weapons analysis was the so-called group-think. The 
question was, number one, how would they speak truth to power? 
If they have yellow flashing lights--like when Secretary Powell 
was going before the U.N.--what mechanism or how would you, 
number one, create the tone, the climate and actually 
administrative mechanisms so that you're getting truth so that 
you then can do the kind of job that needs to be done?
    Ambassador Negroponte. First of all, I couldn't agree with 
you more. I mean, truth to power is crucial. And we've got to 
assure the objectivity and integrity of our intelligence 
analyses. Senator, I see three key parts of my job. One is the 
budgetary part; I think there are some important authorities in 
the law on that. I see, second, the question of trying to 
mobilize and promote a sense of community rather than the 
different stovepipes. And third, and perhaps one that goes to 
my own background and skills the most, has to do with the 
analytical product.
    So I guess the first thing I'd say to you there, in terms 
of how I would go about this, is I plan to devote quite a bit 
of attention to how our analytical efforts are organized and 
looking personally into ways by which we can assure that we get 
the best possible analytical product, whether it's from the 
regular analysts or from the red cells in the alternative 
analysis and so forth.
    And, second--and I haven't had an opportunity to mention 
this this morning--I really want to focus on getting the best 
possible people as deputies to me in the new DNI. And one of 
the deputies I would expect to have would be somebody in charge 
of overseeing analysis by the intelligence community. And I'm 
going to look for the finest possible person to occupy that 
position.
    Senator Mikulski. Well, I think that's a wonderful 
approach. But I'm going to go to another lesson learned from 
the State Department. As I understand at the State Department, 
there is something called the dissent channel, that can go 
right on up, even by, say, an intern or some beginning Foreign 
Service officer, all the way up to the Secretary of State, just 
so that he or she is aware that there's an alternative opinion, 
not only the alternative analysis, which we desperately need, 
which was not present back when we got the NIE on Iraq, but 
also that an individual could let the top dog, if you will, 
know that there is a possible yellow flashing light to the 
direction. Would you consider within the intel community, both 
at CIA, DoD and others, to have some type of dissent channel 
that would get to you and your top team?
    Ambassador Negroponte. I believe there are already 
provisions----
    Senator Mikulski. And I'm not talking about the exact 
replica.
    Ambassador Negroponte. No, I understand. And I think it's a 
great idea.
    Senator Mikulski. I'm just talking about ways that we're 
ensuring that we're making sure the views are known.
    Ambassador Negroponte. I think it's a very good idea. It's 
worked well in the State Department. There is a provision, I 
believe, for an ombudsman in the law, but maybe some variant of 
that. You also mentioned something earlier, as you asked the 
question, which I think is important also, which is some kind 
of lessons-learned mechanism within the intelligence community, 
to be sure that when we do have some problem with a product of 
ours that we can go back and really analyze and engage in self-
criticism about how that arose and how it can be avoided in the 
future and what can be done to improve the product the next 
time around.
    Senator Mikulski. The other goes to leadership, which is 
different than management. Leadership helps create a state of 
mind in an organization, whether it's a country or an Executive 
Branch agency or a corporation. As you go about building this 
sense of community--and by the way, I do think it needs to be 
done for our people who are risking their lives in the field, 
people who work a 36-hour day, either out at Langley or the FBI 
or out at NSA. So will you also create a tone where you will 
ensure that there will be no retaliation for people who attempt 
to speak the truth?
    Ambassador Negroponte. Yes. I think the short answer to you 
is a categorical yes.
    Senator Mikulski. And I would hope that that would be part 
of it. Is my time up, Mr. Chairman?
    Chairman Roberts. Well, basically, I would tell the Senator 
that your time is never up. But in terms of the 8 minutes that 
we have allotted, yes, it is, ma'am. But we can have a second 
round.
    Senator Mikulski. Well, thank you. And then we'll talk 
about some of these other issues. But I think this was very 
important and I appreciate your forthrightness.
    Chairman Roberts. Senator Bayh.
    Senator Bayh. Ambassador, welcome. I thank you for your 
devotion to public service. Did I hear correctly this is your 
eighth Senate confirmation process?
    Ambassador Negroponte. Yes, sir. Five Ambassadorships--just 
to clarify, because the Chairman, at the beginning when he 
introduced me, mentioned five. I've had five Ambassadorships, 
but I've been an Assistant Secretary of State, which required 
confirmation, for Oceans and International, Environmental and 
Scientific Affairs. And when I was Deputy Assistant Secretary 
for Fisheries I also had the rank of Ambassador Senatorially 
confirmed.
    Senator Bayh. Well, eight Senate confirmation processes, 
some people might say that's violative of the Constitution's 
prohibition against cruel and unusual punishment. But we're 
grateful to you for your willingness to come before us yet 
again. And I hope, before I get into my questions, that you 
won't hesitate to let us know what we can do in working with 
you to improve the quality of the product that you will be 
charged with putting out.
    Recently, in a different setting, it was suggested that 
there were some legal changes, some things that could be done 
to actually improve the efficiency with which we're conducting 
particularly some aspects of the war on terror. So I hope you 
won't hesitate to let us know what you think we can do to 
uphold our part.
    My first question is, as we now all regrettably know, our 
Nation suffered a colossal intelligence failure with regard to 
the assessment of weapons of mass destruction in Iraq. It's 
been 2 years now. This has been the subject of review by this 
Committee, by the Silberman Report. We've uncovered some 
shocking lapses in tradecraft, frankly, that if the 
consequences weren't so profound--you mentioned CURVEBALL--some 
of this would be almost comical if it wasn't so sad.
    My question to you, Ambassador, is this. As you undertake 
these responsibilities, can we tell the American people today, 
after the passage of 2 years, that the quality and the 
reliability of our intelligence product is materially better 
than it was 2 years ago in assessing weapons of mass 
destruction in Iraq?
    Ambassador Negroponte. In Iraq?
    Senator Bayh. In Iraq.
    Ambassador Negroponte. Well, of course, we----
    Senator Bayh. There was obviously a huge failure there. Is 
it better today? Have we improved with the passage of the last 
years?
    Ambassador Negroponte. I certainly think that Mr. Duelfer's 
Report was a very candid and forthcoming one. And I think that 
his report, while it contained a number of revelations about 
the inadequacy of our intelligence beforehand--but I think that 
it----
    Senator Bayh. These entities that you're about to assume 
supervisory authority over, have they improved? Are things 
getting better or are we just where we were 2 years ago that 
led to this very unfortunate miscalculation?
    Ambassador Negroponte. Well, Senator, I'm not sure I have a 
holistic enough view at the moment. I think I'd probably have a 
better view once I take on this job. But certainly, speaking 
from the perspective of being Ambassador to Iraq, for example, 
I believe that I was a beneficiary of a lot of useful 
intelligence information. But I think when you talk about WMD, 
you're talking about one of the toughest nuts to crack because 
usually what we're trying to get is WMD information in these 
very closed societies. So maybe the beginning of truth here is 
to acknowledge to ourselves candidly what we don't know before 
we start talking about what we do know.
    Senator Bayh. Let me put a little finer point on it. It is 
very difficult. And I want to second what you said. There's a 
lot of good intelligence work that's being done. This is a 
difficult area, but it is, as you know, profoundly important. 
So let me put a finer point on it.
    There are troubling developments in North Korea and Iran. 
At least, we think there are troubling developments. So when we 
go to the American people or we go to the international 
community and we say, here's what we believe is happening in 
these two societies, should they have greater confidence in our 
assertions? Are things heading in a better direction with 
regard to our ability to assess these difficult targets and 
this difficult issue?
    Because if we're going to get international cooperation in 
dealing with these troubling developments, credibility is the 
coin of the realm and we had a failure. We need to be able to 
point to some evidence that things are getting better so that 
we will be believed.
    Ambassador Negroponte. I think there are two questions in 
there. I think the first about the credibility of the 
assertions, I would suspect they're more credible, because I 
think all of us have learned the lesson of being careful about 
assertions with respect to WMD. So I think that whatever we do 
say, I think we're going to be more cautious in how we develop 
those pronouncements.
    As to how much progress we're making, I'm not sure I'm able 
to comment, in actually unearthing the kind of information we 
want to find out. But what I can assure you is that that's just 
got to be one of the principal focuses of our intelligence 
effort--terrorism and WMD. And those are issues that I'm going 
to devote an awful lot of my time.
    Senator Bayh. Let me, in part, tell you what I've been told 
by others in response to that question, and that is that our 
assessments are getting a lot better, but that's because we're 
admitting what we don't know. So the assessments are more 
accurate, but not more illuminating. And ultimately, more 
illuminating, and therefore more credible, is where we need to 
arrive.
    I've also been told that the analytical part we're 
beginning to--with some of the questions my colleagues have 
touched upon--we're beginning to deal with the analytical part, 
but collection is still an area that really needs work.
    If you had to list the two or three top priorities you 
would have in the area of collection, what would they be in 
terms of improving the quality of information, the volume and 
quality of information that we're collecting so that the 
analysts can do their job?
    Ambassador Negroponte. Well, maybe we can discuss some of 
this a bit more in closed session. But I certainly think the 
WMD issues with respect to Iran and North Korea would be high 
on that list. And I think there's some intelligence issues vis-
a-vis Iraq, too, that I would rate very high.
    Senator Bayh. You've already touched upon the HUMINT aspect 
of this, I believe. Let me ask you, finally, in terms of the 
priorities looking globally at our strategic priorities for 
intelligence collection and assessment and then use by the 
policymakers, where would you rank China in terms of our 
priorities? We have the war on terror. We have proliferation. 
We have assisting the warfighter. Where would you rank China?
    Ambassador Negroponte.  think this raises a broader issue, 
doesn't it, Senator? And you're talking to somebody who spent 
about 15 years of his career in East Asia--Hong Kong, the 
Philippines, Vietnam--but always on the periphery of China and 
as a Deputy Assistant Secretary for East Asia. So I feel I 
know--and I went to Beijing with Dr. Kissinger in 1972. So I 
was in on the takeoff, if you will, of our relationship with 
the People's Republic of China.
    That is a long-term issue. Our children and grandchildren 
are going to live in a world where China will be a very strong 
and powerful player on the world scene. So in terms of longer-
term intelligence analysis, I think it's very important to 
follow countries such as China, analyze them well and carefully 
so that we understand the longer-term implications that a 
country like that has for our foreign policy.
    Senator Bayh. I would encourage you in allocating scarce 
resources, and obviously you always have to set priorities--but 
let's not let the long-term--let's not lose sight of the longer 
term, where I think this is going to be a very important 
relationship that we understand. Again, thank you, Ambassador. 
Look forward to working with you.
    Mr. Chairman, thank you for your indulgence.
    Chairman Roberts. Senator Rockefeller.
    Vice Chairman Rockefeller. Thank you, Mr. Chairman.
    Ambassador, I think it is amazing that you've been through 
all those investigations. And I know that I was very happy to 
vote for you on the Foreign Relations Committee when you came 
up for the United Nations.
    There are some questions which are better discussed in the 
afternoon, but I just want to put this out because I don't 
think it violates anything. And, yet, if it draws a response 
which is interesting then I think that will of itself be 
interesting. The CIA is obviously the lead agency for the 
conduct of covert action programs. And the CIA Director 
manages, as of this day, the carrying out of those activities 
to whatever extent they exist.
    Number one, do you believe that any agencies other than the 
CIA ought to carry out covert actions, because the war on 
terror is going to be with us for a very, very long time which 
we really haven't gotten into enough. And second, what do you 
see as the role of the DNI in your interaction with this 
traditional role of the CIA?
    Ambassador Negroponte. Senator, on the first question, I 
believe the answer is that there are already other agencies, I 
think, that can carry out certain kinds of clandestine----
    Vice Chairman Rockefeller. I didn't say clandestine; I said 
covert.
    Ambassador Negroponte. I'm just not sure how to 
characterize some of the activities that might take place, for 
example, in a war theater. But as a general rule, the 
concentration of covert action has been in the Central 
Intelligence Agency, which is as I think it should be.
    What is the relationship of the DNI to the CIA on these 
issues? Well, of course, the Director of the CIA will report to 
me, as the law states and as the President also reaffirmed. But 
I think with respect to the operational aspects of covert 
actions, as distinct from sort of generally overseeing them, I 
think that that will be something that will have to be worked 
out, but I think more likely will be carried out by the 
Director of Central Intelligence under the direction of the 
President through the National Security Council.
    I think it's a question of a command relationship. But my 
understanding of the legislation is that I will be responsible 
for reporting to the Committee on covert action. So, obviously, 
Mr. Goss and I are going to have to work very closely together 
and reach good understandings on the division of labor with 
respect to this question.
    Vice Chairman Rockefeller. Thank you, Mr. Ambassador. My 
final question is, you know, because it's sort of intriguing to 
talk about the future, China, how long is the war on terror, 
how are we going to react, how are we going to get language so 
it's not just 2 years in a classroom, but also 2 years on the 
street in the place where you're going, so you learn the street 
language and all of those things.
    And it's much more interesting, somehow, to talk about 
overseas. It's the American nature. But the American 
imperative, frankly, for us is not only to stop the terrorism 
which is being planned or has been planned for what might go on 
in this country or American assets elsewhere in the world, but 
the whole question of homeland security.
    And the Chairman and I have talked about this a good deal, 
and I think there's a great--I believe, on this Committee, and 
I believe generally in the Congress--there's a great sense of 
lack of confidence in the way that the Homeland Security 22 or 
27 agencies are coming together--the fact that they've had 
several directors; the fact that they have--I think the 
Chairman pointed out to me--as many different communications 
systems as there are agencies, virtually; and the fact that, 
you know, in a State like the one I come from, which doesn't 
have any cities over 45,000 people, we do have something called 
the Ohio River, which goes past some of the largest chemical 
plants in America outside of New Jersey, and that there's 
virtually no coverage to their backside.
    We have power plants. There are 103 nuclear power plants in 
this country. Now, your job description is somewhat limited to 
intelligence that comes from that. But I would hope that, as 
the Director of National Intelligence--which people are going 
to look upon as kind of making the whole deal work, as much as 
intelligence--that you will stretch the envelope even further 
on the workings or the non-workings of the Department of 
Homeland Security.
    I have grave reservations about what's going on there. I 
have grave reservations about the security of the American 
Nation, the American people. I worry about it every day.
    Ambassador Negroponte. Certainly, I think one of the 
challenges here is, as we discussed earlier, to integrate the 
foreign and the domestic intelligence. And it is, of course, 
not only the Department of Homeland Security, but dealing with 
all those local and State law enforcement officials that exist 
throughout the country.
    And as you suggest, that is primarily the responsibility of 
the Department of Justice and the Department of Homeland 
Security. But I've been to meet with Secretary Chertoff and 
we've agreed that we're going to work very, very closely 
together on these issues. So I share your concern, Senator.
    Vice Chairman Rockefeller. Thank you.
    Chairman Roberts. I believe it is Senator Wyden's turn next 
on the second round. Yes, that's correct.
    Senator Wyden.
    Senator Wyden. Thank you, Mr. Chairman.
    For the last 2\1/2\ hours, Ambassador, you have worn your 
diplomat's hat superbly, and I think what I'm interested in is 
seeing you put on the new hat as the head of the national 
intelligence program.
    I, for example, am not convinced, after several questions 
now, that you would move aggressively when a top policymaker 
misused intelligence. I think your attempt to convince me that 
there wasn't a big gap between what you said with respect to 
Honduras' human rights practices and what seemingly everybody 
else said--the CIA, the Inter-American Court--I think that was 
very far-fetched.
    And so I hope now on this round that we can get some sense 
that you are willing to push aggressively for change. And I'm 
going to ask you several questions in this regard. For example, 
do you feel that there is a serious problem with 
overclassification of documents in the national security area?
    Ambassador Negroponte. Senator, I don't know about 
classification or overclassification. But I do think what's 
important is ensuring proper access to information by those 
members of the intelligence and law enforcement community who 
need to have access to it. And one of my charges is going to be 
to work on this very issue. So I think access is the important 
point--getting information around that has to be gotten around.
    As to the specific question of classification or 
overclassification, certainly the trend in my lifetime has been 
to reduce levels of classification wherever possible. And I've 
seen that happen before my own eyes.
    Senator Wyden. Mr. Ambassador, it is hard to see how that 
could possibly be the case.
    Governor Kean, for example, said that three-quarters of 
what he saw with respect to Iraq was an overclassification. 
There is a voluminous record. Senator Lott and I have led a 
bipartisan effort on this matter, with the support of Senator 
Roberts and Senator Rockefeller. And for you to tell us that 
you think we're actually moving in the other direction, the 
public record is simply all the other way.
    And I'm going to come this afternoon to the session in our 
closed capacity. I'm going to be available to meet with you 
privately. But I will tell you, what I have seen over the last 
2\1/2\ hours--and I haven't left the room--leaves me very 
troubled about the approach you're going to take as the head of 
national intelligence. I don't think we're going to get the 
independence that this country needs.
    And let me, if I might--I gather I have a few more 
minutes--ask you about a couple of other policy questions to 
see the approach you would take.
    You talked earlier about interrogation, detention and 
rendition and made the point that your desire is to make sure 
that they comply with the Constitution, and that's admirable.
    Is it your view that the United States should continue the 
policy of rendering suspected terrorists to countries with a 
long record of torture and barbaric practices? Or is that a 
policy that you would take a fresh look at and try to bring a 
degree of independence to?
    Ambassador Negroponte. Senator, with regard to the question 
of rendering detainees, here's what I'm prepared to commit to 
you. First, that the law will be obeyed; second, doing 
everything in my power to ensure that the organizations under 
my purview are obeying the law; and pushing to have any and all 
violators prosecuted.
    [A disruption in the audience.]
    Chairman Roberts. Will the security please remove the 
individual from the hearing room? And the Committee will stand 
in recess for about 2 minutes.
    [Recess.]
    Chairman Roberts. OK, the Committee will resume again. And, 
Senator Wyden, you are recognized.
    Senator Wyden. Thank you again.
    Ambassador, with no disrespect, I would just like some more 
specificity with respect to the policy. For example, what 
concerns me is your answer suggests that you would be willing 
to trust one of these governments, such as Syria, for example, 
that is known to practice torture on a routine basis, with 
current law with respect to rendition.
    And I was just hoping, as I've tried to throughout the last 
2\1/2\ hours, to see if you might be willing to take a fresh 
look at some of these policies and bring not just your 
consummate diplomatic skills, which are extraordinary and have 
certainly been manifest this morning, but what I and others I 
think are hoping for in this national intelligence director 
position, which is an independence and a willingness to take a 
fresh look.
    Ambassador Negroponte. I'm not sure I can add----
    Senator Wyden. You're just going to go along with current 
law.
    Well, let me ask about one other area, and that's the 
PATRIOT Act. Now, surveillance powers authorized by the PATRIOT 
Act are implemented, of course, by the FBI. Do you foresee your 
office involving itself in decisions relating to the 
implementation of the PATRIOT Act's surveillance powers? And if 
so, for example, what might those be--weighing in on whether 
the FBI might seek a FISA warrant, that kind of matter?
    Ambassador Negroponte. Senator, I'm not entirely certain 
what my authorities would be under FISA. When I was the Deputy 
National Security Adviser under President Reagan, one of my 
responsibilities was to authorize such warrants.
    But one thing that I can assure you is that in my new 
position I will do everything that I can to ensure that the 
civil liberties of U.S. citizens are not being violated. There 
will be a privacy and civil liberties oversight board that's 
going to be created, and there's also going to be a civil 
liberties officer position established by law within the DNI. 
So I think that we're going to do our utmost to protect the 
civil rights of American citizens.
    Senator Wyden. Mr. Chairman, my time is up.
    I would only say to colleagues, on this round the nominee 
has said that not only is there no problem with 
overclassification of documents, we're going in the other 
direction, in his judgment; he's not aware of what his powers 
are with respect to FISA; and he's going to simply comply with 
current law on rendition.
    Each of those areas, I would hope that we could work on a 
bipartisan basis to initiate reforms. And I don't find the 
nominee's answers satisfactory on this points.
    And I thank you for the second round, Mr. Chairman.
    Chairman Roberts. Senator Corzine.
    Senator Corzine. Thank you, Mr. Chairman.
    I have a question that is really off of the directions that 
we've been following. And it really goes at something that I 
think is truly important, certainly in a strategic sense, but 
in a moral sense.
    I think most people would find tragic the lack of 
responsiveness of the global community to the Rwandan 800,000-
person genocide. And I want to know, either now or in due 
course, are we, in our intelligence communities, responding and 
developing both collection and analysis with regard to what has 
become a repetitive reality in global affairs, whether it's 
Cambodia or Bosnia or Rwanda, and now continues in Darfur. At 
least that's what the Congress says and the Secretary of State.
    Have you given any thought, and do you believe that we have 
sufficient resources to be able to help frame our policies 
appropriately on some what I would consider the highest moral 
issues that we have on our globe?
    Ambassador Negroponte. As you know, Senator, when I was the 
Ambassador to the United Nations, I worked a lot on these 
issues--peacekeeping questions in the Great Lakes region, 
Sierra Leone, the issue of the Democratic Republic of the Congo 
and so forth.
    I haven't been following those issues closely since I was 
Ambassador to Iraq. And I certainly, you said in due course, I 
would assume that we're getting some good intelligence on 
Darfur. But I would have to look into the level of intelligence 
effort that is being addressed to those situations.
    But it goes to the issue of how one allocates and decides 
national intelligence priorities. And it's certainly one of the 
kinds of issues that I'm going to have to address in this new 
job.
    Senator Corzine. I must say that I would hope that I would 
hear that concern about this, representing the basic moral 
values and cultural values of our country, will be at the top 
of the priority list.
    In fact, I think they're strategic, because when there is a 
breakdown, it creates the environment where, in fact, some of 
the things that are more obvious, terrorism, are bred. And this 
is a repetitive problem in our lifetime. And I think it is not 
adequately represented in any of our discussions; not that it 
is ignored, but human life is human life and we are not 
addressing these issues.
    Thank you.
    Chairman Roberts. Senator Levin is recognized and then the 
Chair will recognize the distinguished Chairman of the Armed 
Services Committee.
    Senator Levin. Has he had his first round already?
    Chairman Roberts. No.
    Senator Levin. If you haven't had your first round, why 
don't you go ahead.
    Chairman Roberts. The Senator from Michigan has very kindly 
demurred, and I will recognize the distinguished Senator from 
Virginia, the Chairman of the Armed Services Committee.
    Senator Warner. Thank you, Mr. Chairman.
    Mr. Negroponte, I've had the privilege of knowing you for 
many, many, many years. And I wholeheartedly respect and am 
gratified, as are the citizens of this country, that you've 
taken on this responsibility, together with your family. And I 
think you'll do admirably well in pioneering this new and very, 
very important post.
    And since we go back some 30-odd years, you know the 
effectiveness of government is not dependent totally on the 
Federal statute or regulation; it's on the ability of forming 
working and trusting relationships with your peer group and 
your superiors and the like. And you've had a good track record 
at doing that.
    And when you've felt at odds, I know from personal 
experience you have stood your ground and stood on principle. 
And I commend you for that.
    My comments go directly to the Department of Defense, where 
I share that responsibility, together with at least three 
Members of this panel who are presently here at this time. And 
I talked at some length with the Secretary of Defense this 
week, as well as Dr. Cambone, his deputy for intelligence. 
First, I think the record should show you met with him shortly. 
Am I not correct on that?
    Ambassador Negroponte. Yes, sir.
    Senator Warner. And reviewed with him your respective 
viewpoints with regard to the new law and the challenges of 
this position and particularly the relationship that you hope 
to forge with Secretary Rumsfeld in fulfilling these 
responsibilities.
    Ambassador Negroponte. Yes, sir.
    Senator Warner. And I go to the fact that about 80 percent 
of the resources, and a similar amount of the manpower 
associated with a national intelligence program--that's the 
national part--is within the cognizance of the Department of 
Defense at this time. And therefore, cooperation between you 
and the Secretary is of paramount important. We all recognize 
that.
    And you will determine the budgets of the national 
intelligence elements within the DoD, with input from the 
Secretary of Defense, but ultimately based upon his priorities 
and authorities, as the Director of National Intelligence.
    Senator Warner. And I correct in that?
    Ambassador Negroponte. Yes, sir.
    Senator Warner. Good.
    And then we also have the funding of the Joint Military 
Intelligence Program and the Tactical Intelligence Program, 
which are under the direct cognizance of the Secretary of 
Defense. But there again you take an active participation in 
the budget. And also, you've established a reporting chain so 
that you know the activities of those organizations and their 
functions will be performed in consultation with you. Am I 
correct on that?
    Ambassador Negroponte. Yes, sir.
    Senator Warner. So again I find, based on your meeting 
which was reported to me, that you're working on as seamless as 
possible relationship that you can at the start-off of your new 
responsibilities subject to confirmation. Would that be 
correct?
    Ambassador Negroponte. Yes, sir.
    Senator Warner. Last, there's been some report in the 
press--and I actually have addressed this--about the 
organizational charter, a document that the Secretary of 
Defense asked Dr. Cambone to put together. And that's 
understandable--to draw on it all together, put it down on 
paper as to how the Secretary of Defense wishes to work within 
his structure over those responsibilities. Dr. Cambone 
basically will be his principal deputy for that.
    And a draft of that charter was sent to the current acting 
DCI for comment. It's also before your transition staff. And I 
think, quite properly, you will await your comments on the 
draft of that charter, subject to the Senate's confirmation. Am 
I correct on that?
    Ambassador Negroponte. Yes. And I have not had an 
opportunity to read the proposal yet, sir.
    Senator Warner. I understand that. But that is another step 
that you will take such that I think the Senate can presume 
that eventually this charter will be adopted by the Secretary 
of Defense for the purpose of his organization and will 
incorporate such recommendations as you may wish to make, 
together with that of the head of the Central Intelligence 
Agency.
    So, Mr. Chairman, I'm satisfied with those areas in which 
you and I, as a member of the Armed Services Committee, 
together with Senator Levin, have primary responsibilities. And 
I look forward to working with you. Thank you again and thank 
your family.
    Chairman Roberts. I thank the Chairman for his comments. 
And I thank the ex officio Member's questions. And I think they 
were needed clarification.
    Senator Levin.
    Senator Levin. Thank you, Mr. Chairman.
    Ambassador Negroponte, the Senate Intelligence Committee 
Report of July 2004 contains over 500 pages detailing 
intelligence community mistakes, incompetence, 
misrepresentations, relative to its estimates of the Iraq WMD 
program. The recent Silberman-Robb Report contains about the 
same number of pages and similar detail about those failures of 
the intelligence community relative to that WMD program in 
Iraq. Then we had the 9/11 Commission Report on numerous 
failures within the intelligence community before the terrorist 
attacks of 9/11.
    And prior to the 9/11 Commission Report, there was a House-
Senate joint inquiry into the failures of the intelligence 
community before the 9/11 attacks, including failures of 
officials to pass critical information to other agencies, 
including failures of headquarters to heed field reports 
concerning efforts of people to learn how to fly, but not learn 
how to take off or land airplanes.
    Now, despite all of the hundreds of pages of failures, 
mistakes, incompetence, misrepresentations, there's been no 
accountability within the intelligence community. Are you 
troubled by the lack of accountability?
    Ambassador Negroponte. I think there should be 
accountability, Senator. And I think that we've got to learn 
from our lessons. We've got to fix what we think needs to be 
fixed. And we've got to go forward. But I don't know enough 
about the specifics, about who might have been responsible for 
a specific intelligence lapse, one or another. And I know that 
there's work being done in that area. For example, I know that 
Mr. Goss is looking into the whole question of CURVEBALL. And 
he's asked his inspector general to look into that.
    So I'm reluctant to discuss what specific types of measures 
of accountability might be taken. But yes, people should be 
held accountable.
    Senator Levin. Have you read the Senate Intelligence 
Committee Report of July 2004, or a summary of it?
    Ambassador Negroponte. I've read the Executive Summary of 
it.
    Senator Levin. Have you read the Silberman-Robb Report?
    Ambassador Negroponte. Yes I have. I've read a lot of it. 
And of course I've read all the recommendations.
    Senator Levin. Because it lays out in detail the failures, 
the lapses, the oversights, the incompetence, and yet nothing--
no action has been taken against anybody. What kind of a 
message does that send?
    Ambassador Negroponte. Well, Senator, I think the important 
thing is to deal with some of the systemic problems that might 
have existed, try to figure out how to improve the situation, 
and get on with the business of making these improvements.
    I see that as my charge, to try to improve the quality of 
the analytical product through the various mechanisms that are 
envisaged in the law. And I think that's got to be the focus of 
the effort. Let's get on with the business of improving the 
quality of the intelligence product that is given to our 
decisionmakers.
    Senator Levin. Everybody wants to do that.
    Ambassador Negroponte. Yes.
    Senator Levin. Unless people are held accountable for 
failures to do their job, it seems to me we're more likely to 
repeat these problems. You say you believe people should be 
held accountable for misstatements, failures to do their jobs. 
I hope you'll take that into your office, because it's not good 
enough to just simply say systemic problems, although obviously 
there are. And it's not good enough to simply say we should go 
forward, although we obviously must.
    Part of trying to avoid a repeat of these problems is to 
hold folks accountable when they did things they should not 
have done. CURVEBALL is but one example--just one example--
where you have got people who say they brought this to the 
attention--and this being the total incredibility of a source--
of the leadership of the CIA, and the CIA leadership says, no, 
they didn't.
    Someone's got to find out whether they did or didn't.
    Ambassador Negroponte. And that, I understand, is what Mr. 
Goss is looking to do.
    Senator Levin. But there are dozens of examples like this 
in those reports. And we need you to carry out this commitment 
about accountability. We need you to be confident that you mean 
what you say when you say you believe that there should be 
accountability for individuals who fail in the performance of 
their duties.
    Is that a yes? We should have that confidence because you 
will? I mean, I'm trying to figure out----
    Ambassador Negroponte. To be honest with you, Senator, I 
don't know who specifically is accountable and who is not.
    Senator Levin. My last question, because the yellow light 
is on. According to the Silverman-Robb Report, the intelligence 
community ignored the findings and the conclusions of the UN 
people relative to WMD programs. They were specifically on the 
ground. Two agencies spent 3 months on the ground in Iraq 
inspecting every facility they could and interviewing Iraqi 
personnel.
    Now Silverman-Robb pointed out that the intelligence 
community ignored that one source of real intelligence on Iraq 
at a time when it had no good intelligence of its own. Does 
that trouble you?
    Ambassador Negroponte. I think that's, in part, what they 
are referring to in terms of group-think, of carrying 
assumptions forward from previous behavior by the Saddam regime 
and therefore being dismissive of reports that somehow the 
Iraqi regime's behavior might have been different than what the 
preconceived notion was.
    But let's not forget there was a lot of bias and prejudice 
built into the analysis. That's one of the things I think I 
take away from reading these various reports. There was a lot 
of prejudice built into these analyses based on the past 
performance of the regime and the fact that we were taken by 
surprise in the early 1990s at the degree to which the Iraqi 
regime had developed weapons of mass destruction.
    So I think a lot of these assumptions were simply carried 
forward and considered to still be valid.
    Senator Levin. Thank you, Mr. Chairman.
    Chairman Roberts. In closing, we want to thank you for your 
time here this morning, Mr. Ambassador. I think it's been very 
helpful. We will have a closed session at 2:30. I have just a 
couple of questions or perhaps a comment and a question.
    I noted with interest that not only have you been confirmed 
by the Senate seven times, but you have gone through nine 
background checks--nine of them. I would venture to say I don't 
know too many Senators that could go through nine background 
checks without at least a question or two being raised.
    And you've had a distinguished career of public service, by 
my calculation, 40 years. I agree in total with the comments by 
Senator Stevens and others.
    This position is new. There are a lot of questions in 
regard to your authority. Just this morning you have been asked 
a hypothetical: Will you stand up to your public policy 
officials, i.e., your bosses--or the boss--in regards to 
commenting publicly or at least very aggressively to them if in 
fact you think that the consensus of that analysis is wrong?
    In a milder version--you ought to hear Senator Wyden when 
he really gets wound up--you know, of ducking an issue of 25 
years ago that he thinks has pertinence to the current 
situation--and I'm not trying to perjure his comments in any 
way--that you're vague, you're not aggressive--the press 
expects you to have a public arm wrestling contest at RFK with 
Secretary Rumsfeld--you have to worry about attack on the 
homeland; you have to worry about a broken intelligence 
community.
    If we go back in history to Khobar, the India nuclear test, 
the USS Cole, the embassy bombings, the Belgrade embassy, the 
Khartoum chemical plant--whoops, the wrong plant--then 9/11 has 
been alluded to by Senator Levin, the WMD studies.
    We've got the Bremer Commission, the Gilmore Commission, 
the CIS study, the Hart-Rudman Commission and God knows how 
many other commissions. You have at least 1,000 armchair 
experts on television every night. You have authors writing 
books.
    In the past, Mr. Tenet, Mr. Deutch, Mr. Woolsey, the 
Chairmen of this Committee--Senator Specter, Senator Shelby and 
Senator Graham--I don't think we took an activist approach on 
this to the extent that Senator Rockefeller and I want to have 
much more proactive or preemptive oversight.
    And you can see by the questions here that we are very 
eagerly awaiting that opportunity to work with you to achieve 
that.
    Then, obviously, you have to have better collection, better 
HUMINT, better analysis, better consensus, threat analysis, 
better information access as opposed to sharing.
    You've got to take a look at the capabilities in regard to 
the hard targets that pose a very threat to us today. And the 
Silberman-Robb Commission has indicated that unfortunately that 
still exists in terms of some lack of capability.
    My question to you is--and this is just the approach to the 
position--given all of that, why in the hell do you want this 
job?
    [Laughter.]
    Ambassador Negroponte. Because it's important, Senator.
    Chairman Roberts. And you think you can make that 
difference?
    Ambassador Negroponte. Well, I hope I can make a 
difference.
    Chairman Roberts. You've made a difference in the past. I 
think you're an excellent appointee, but I just wanted to give 
you an opportunity, with all of that burden upon your 
shoulders, you know--our very best wishes to you.
    Do you have any comments on why you yourself think that you 
can get this job done?
    Ambassador Negroponte. Well, as I said, I think it's 
important. I think one of the reasons I may be able to get 
something done in this job is because I do have long experience 
in the national security and the diplomatic area. And I think 
that it will be dealing with several of the most serious 
national security issues that our country is going to be facing 
for the foreseeable future, namely international terrorism and 
the proliferation of weapons of mass destruction, among others.
    So as somebody who's devoted his life to dealing with these 
kinds of difficult national security and foreign policy issues, 
I was honored when President Bush offered me the opportunity to 
undertake this responsibility.
    Chairman Roberts. So you willfully went into the briar 
patch and now we're at the crossroads. I can promise you, sir, 
that we will try to be of as much help as we possibly can.
    There is one other comment I want to make.
    Do you agree with this statement? We have heard over and 
over again during the debate on the intelligence reform bill 
and on other matters that 80 percent of the funding in regard 
to the intelligence community does go to the military or in 
regard to supporting the military.
    And we have heard during the debate under whose 
jurisdiction the national foreign intelligence program should 
be. But the majority user of intelligence is obviously the 
warfighter. And you have just been through that with General 
Casey in your position over there as Ambassador in Baghdad.
    And that is true, and so I think there is a bias, 
understandably, among those who serve on the Committees who 
have that jurisdiction in support of the warfighter and the 
military; count me in on that--also Senator Levin, others. But 
the principal user of intelligence is the President of the 
United States and the National Security Council and, with all 
due respect, the Congress of the United States.
    And I don't think we should ever lose sight of that. Nobody 
in the Congress wants to deny or harm in any way that lash-up 
between the intelligence community and our warfighters, more 
especially when we're involved in any kind of a military 
mission.
    But again, the principal user, and why Senator Levin is 
being so insistent, is that it is the President of the United 
States and the National Security Council and the Congress of 
the United States in the policymaking business that we must 
rely on credible intelligence. And unfortunately that has not 
been the case.
    I should have phrased that better in a question. Are you in 
agreement with that comment?
    Ambassador Negroponte. I wouldn't change a word of what you 
said, Senator.
    Chairman Roberts. Bless your heart.
    Thank you for coming.
    Senator Wyden. Mr. Chairman, just a question with respect 
to scheduling. What is your plan with respect to how we 
proceed? We're going to have a session this afternoon, a closed 
session?
    Chairman Roberts. Yes, sir. At 2:30. It's a closed session, 
and it's in the usual place.
    Senator Wyden. When would you expect the vote on the 
nominee?
    Chairman Roberts. As soon as we possibly can. I haven't 
scheduled that with the floor. And I've talked with the Leader, 
and it's his intent that he would like to do it as soon as he 
can.
    Senator Wyden. But you wouldn't expect that the Committee 
would vote this afternoon on the nominee?
    Chairman Roberts. No.
    Senator Wyden. I'm very appreciative of that, Mr. Chairman, 
because I'm anxious to hear from the nominee this afternoon 
behind closed doors.
    Chairman Roberts. I know you have additional questions, 
sir.
    Senator Wyden. Great. Thank you very much.
    Senator Levin. Mr. Chairman? As usual, the record will be 
kept open for how long, for additional questions?
    Chairman Roberts. I think the remainder of the day should 
be sufficient, unless somebody wishes some additional time.
    Senator Levin. That's fine. The remainder of the day, 
that's fine.
    Chairman Roberts. Ambassador, thank you very much.
    Ambassador Negroponte. Thank you, Mr. Chairman.
    Chairman Roberts. Go have lunch.
    Ambassador Negroponte. Thank you.
    [Whereupon, at 1:11 p.m., the hearing adjourned.]

                          ADDITIONAL MATERIAL

[GRAPHIC] [TIFF OMITTED] T2581.001

[GRAPHIC] [TIFF OMITTED] T2581.002

[GRAPHIC] [TIFF OMITTED] T2581.003

[GRAPHIC] [TIFF OMITTED] T2581.004

[GRAPHIC] [TIFF OMITTED] T2581.005

[GRAPHIC] [TIFF OMITTED] T2581.006

[GRAPHIC] [TIFF OMITTED] T2581.007

[GRAPHIC] [TIFF OMITTED] T2581.008

[GRAPHIC] [TIFF OMITTED] T2581.009

[GRAPHIC] [TIFF OMITTED] T2581.010

[GRAPHIC] [TIFF OMITTED] T2581.011

[GRAPHIC] [TIFF OMITTED] T2581.012

[GRAPHIC] [TIFF OMITTED] T2581.013

[GRAPHIC] [TIFF OMITTED] T2581.014

[GRAPHIC] [TIFF OMITTED] T2581.015

[GRAPHIC] [TIFF OMITTED] T2581.016

[GRAPHIC] [TIFF OMITTED] T2581.017

[GRAPHIC] [TIFF OMITTED] T2581.018

[GRAPHIC] [TIFF OMITTED] T2581.019

[GRAPHIC] [TIFF OMITTED] T2581.020

[GRAPHIC] [TIFF OMITTED] T2581.021

[GRAPHIC] [TIFF OMITTED] T2581.022

[GRAPHIC] [TIFF OMITTED] T2581.023

[GRAPHIC] [TIFF OMITTED] T2581.024

[GRAPHIC] [TIFF OMITTED] T2581.025

[GRAPHIC] [TIFF OMITTED] T2581.026

[GRAPHIC] [TIFF OMITTED] T2581.027

[GRAPHIC] [TIFF OMITTED] T2581.028

[GRAPHIC] [TIFF OMITTED] T2581.029

[GRAPHIC] [TIFF OMITTED] T2581.030

[GRAPHIC] [TIFF OMITTED] T2581.031

[GRAPHIC] [TIFF OMITTED] T2581.032

[GRAPHIC] [TIFF OMITTED] T2581.033

[GRAPHIC] [TIFF OMITTED] T2581.034

[GRAPHIC] [TIFF OMITTED] T2581.035

[GRAPHIC] [TIFF OMITTED] T2581.036

[GRAPHIC] [TIFF OMITTED] T2581.037

[GRAPHIC] [TIFF OMITTED] T2581.038

[GRAPHIC] [TIFF OMITTED] T2581.039

[GRAPHIC] [TIFF OMITTED] T2581.040

[GRAPHIC] [TIFF OMITTED] T2581.041

[GRAPHIC] [TIFF OMITTED] T2581.042

[GRAPHIC] [TIFF OMITTED] T2581.043

[GRAPHIC] [TIFF OMITTED] T2581.044

[GRAPHIC] [TIFF OMITTED] T2581.045

[GRAPHIC] [TIFF OMITTED] T2581.046

[GRAPHIC] [TIFF OMITTED] T2581.047

[GRAPHIC] [TIFF OMITTED] T2581.048

[GRAPHIC] [TIFF OMITTED] T2581.049

[GRAPHIC] [TIFF OMITTED] T2581.050

[GRAPHIC] [TIFF OMITTED] T2581.051

[GRAPHIC] [TIFF OMITTED] T2581.052

[GRAPHIC] [TIFF OMITTED] T2581.053

[GRAPHIC] [TIFF OMITTED] T2581.054

[GRAPHIC] [TIFF OMITTED] T2581.055

[GRAPHIC] [TIFF OMITTED] T2581.056

[GRAPHIC] [TIFF OMITTED] T2581.057

[GRAPHIC] [TIFF OMITTED] T2581.058

[GRAPHIC] [TIFF OMITTED] T2581.059

[GRAPHIC] [TIFF OMITTED] T2581.060

[GRAPHIC] [TIFF OMITTED] T2581.061

[GRAPHIC] [TIFF OMITTED] T2581.062

[GRAPHIC] [TIFF OMITTED] T2581.063

[GRAPHIC] [TIFF OMITTED] T2581.064

[GRAPHIC] [TIFF OMITTED] T2581.065

[GRAPHIC] [TIFF OMITTED] T2581.066

[GRAPHIC] [TIFF OMITTED] T2581.067

[GRAPHIC] [TIFF OMITTED] T2581.068

[GRAPHIC] [TIFF OMITTED] T2581.069

[GRAPHIC] [TIFF OMITTED] T2581.070

[GRAPHIC] [TIFF OMITTED] T2581.071

[GRAPHIC] [TIFF OMITTED] T2581.072

[GRAPHIC] [TIFF OMITTED] T2581.073

[GRAPHIC] [TIFF OMITTED] T2581.074

[GRAPHIC] [TIFF OMITTED] T2581.075

[GRAPHIC] [TIFF OMITTED] T2581.076

[GRAPHIC] [TIFF OMITTED] T2581.077

[GRAPHIC] [TIFF OMITTED] T2581.078

[GRAPHIC] [TIFF OMITTED] T2581.079

[GRAPHIC] [TIFF OMITTED] T2581.080

[GRAPHIC] [TIFF OMITTED] T2581.081

[GRAPHIC] [TIFF OMITTED] T2581.082

[GRAPHIC] [TIFF OMITTED] T2581.083

             Answers to Pre-Hearing Questions Submitted to 
             Ambassador John Negroponte from the Committee

       RESPONSIBILITIES OF THE DIRECTOR OF NATIONAL INTELLIGENCE

    Question 1.:  Explain your understanding of the obligations of the 
Director of National Intelligence (DNI) under Section 502 and Section 
503 of the National Security Act of 1947, including the responsibility 
to ensure that all departments, agencies, and other entities of the 
United States Government involved in intelligence activities comply 
with the reporting requirements in those sections.
    Answer:  If confirmed as DNI, I will be committed to implementing 
the statutory responsibility to keep Congress fully and currently 
informed of intelligence activities and covert actions. I will ensure 
that all members of the Intelligence Community understand and fulfill 
their commitment to do the same.
    Question 2.:  Describe your understanding of the role of the Joint 
Intelligence Community Council (JICC) in assisting the Director of 
National Intelligence (DNI) in his responsibility to lead the 
Intelligence Community (IC). Explain the types of issues on which you 
would seek JICC assistance, should you be confirmed as DNI.
    Answer:  The JICC was established to assist the DNI in creating a 
more unified and effective IC. The IRTPA calls for the DNI to seek the 
advice of the JICC on establishing requirements, developing budgets, 
financial management, monitoring and evaluating the performance of the 
IC, and ensuring timely execution of the programs, policies and 
direction of the DNI. I would expect that the JICC may prove to be a 
useful source of advice on other issues as well.
    Question 3.:  Should you be confirmed, do you intend to exercise 
the authority to appoint individuals to serve as Deputy Directors of 
National Intelligence? If so, how many Deputy Director positions (from 
one to four) will you create? What responsibilities will you assign to 
the Deputy Directors that you appoint?
    Answer: Yes, if confirmed I will exercise the authority to appoint 
Deputy Directors to assist in carrying out the DNI's authorities and 
responsibilities. One of my first tasks, if I am confirmed, will be to 
consult with my Principal Deputy and my staff on the organization of 
the Office of the DNI (ODNI).
    Question 4.a.b.c.: Explain your understanding of the 
responsibilities of the following officers:
    a. the individual assigned responsibilities for analytic integrity 
under Section 1019 of the National Security Intelligence Reform Act of 
2004.
    b. the individual assigned responsibilities for safeguarding the 
objectivity of intelligence analysis under Section 1020 of the National 
Security Intelligence Reform Act of 2004.
    c. the General Counsel of the Office of the DNI.
    Answer: The officer or entity assigned responsibility for analytic 
integrity is charged with ensuring that finished intelligence products 
produced by any element or elements of the IC are timely, objective, 
independent of political considerations, based upon all sources of 
available intelligence, and employ the standards of proper analytic 
tradecraft. Specific responsibilities are set out in Section 1019.
     The officer assigned within the Office of the DNI to safeguard 
objectivity in analysis shall be available to analysts within the O/DNI 
to counsel, conduct arbitration, offer recommendations, and, as 
appropriate, initiate inquiries into real or perceived problems of 
analytic tradecraft or politicization, biased reporting, or lack of 
objectivity in intelligence analysis.
     The statutory General Counsel is the chief legal advisor of the O/
DNI and shall perform such functions as the DNI may prescribe.

                               PERSONNEL

    Question 5.a.b.:  Explain the DNI's authority to direct the 
transfer or detail of particular personnel from one element of the IC 
to another.
    a. If the head of an IC element or the head of the concerned 
department or agency objects to the transfer of particular personnel 
from one element of the IC to another, explain what authority the DNI 
has to direct the transfer or detail notwithstanding the objection.
    b. Explain the principles governing personnel transfers that a DNI 
should consider when drafting personnel transfer procedures with the 
heads of concerned departments and agencies.
    Answer: The personnel transfer authorities of the DNI provide a 
strong mechanism to direct resources to address evolving national 
security needs. Personnel transfer procedures are governed by the 
principle that transfers be to a higher priority intelligence activity 
and that the transfer supports an emergent need, improves program 
effectiveness, or increases efficiency.
    Question 6.:  Explain the DNI's authority to ensure that IC 
personnel are diverse, skilled, and properly trained and that those 
personnel are assigned or detailed to national intelligence centers or 
other IC elements during the course of their careers.
    Answer:  The IRTPA provides several tools to facilitate the 
development and flow of personnel across the IC, including the 
authority to provide for education and training, the ability to create 
financial and other incentives, and the establishment of occupational 
standards. If confirmed, I would use these authorities to address the 
personnel requirements of the Intelligence Community. I will attach 
great importance to cultivating the effectiveness and morale of our 
intelligence workforce.
    Question 7.a.b.c.d.:  Explain the DNI's authority to terminate the 
employment of any officer or employee of the IC outside the Office of 
the DNI.
    a. If the DNI has this authority, what effect, if any, would the 
objection of the head of the concerned IC element or the head of the 
concerned department or agency have on the exercise of this authority?
    b. Explain the DNI's authority to terminate the employment of the 
head of an IC element (other than a Presidential-appointee), or 
otherwise hold the IC element head accountable, based on an action by 
that individual that disregards a DNI decision or position on any given 
matter.
    c: What, if any, authorities does the DNI have to hold particular 
officers or employees of the IC accountable for poor performance or 
reward or promote a particular officer or employee for outstanding 
performance?
    d. What actions, if any, should be taken to strengthen 
accountability for all officers and employees of the IC?
    Answer:  My understanding is that the National Security Act does 
not give the Director of National Intelligence (DNI) direct authority 
to discipline or terminate the employment of an employee of another 
department or agency of the United States Government. If a matter 
arises concerning the performance of an employee of the IC outside of 
the office of the DNI which I believe requires attention, I would 
pursue the matter with the relevant agency head. The DNI is authorized 
to establish personnel standards across the Intelligence Community (IC) 
that may include standards of conduct and accountability.

                           INFORMATION ACCESS

    Question 8.a.b.c.d.: Explain the DNI's authority to formulate, 
implement, and enforce IC-wide information access policies.
    a. What actions will you take, should you be confirmed as DNI, to 
enhance information access by ensuring that all IC analysts--with a 
valid security clearance and a need-to-know--have access to pertinent 
information contained in human intelligence operations cables, raw 
signals intelligence, or other such information not currently made 
available to analysts?
    b. Some statutory barriers to information access have been removed 
by the USA PATRIOT Act and Intelligence Authorization legislation. 
Explain whether additional modifications to Executive Order 12333 or 
other applicable authorities or statutes will be required before the IC 
can operate like a true ``information enterprise''--where information 
is accessible by all IC elements.
    c. Explain the DNI's authority, notwithstanding the objections of 
the heads of IC elements or the heads of concerned departments or 
agencies, to direct the head of an IC element to comply with DNI 
policies and directives on information access. If the DNI lacks this 
authority, explain what authority, if any, the DNI has to ensure that 
the head of an IC element complies with DNI policies and directives on 
information access.
    d. Explain the information technology challenges facing the IC and 
the DNI's authority, through the Chief Information Officer for the IC 
or otherwise, to ensure that the IC develops an enterprise architecture 
and maintains information technology systems in a manner that enables 
and promotes DNI policies and directives on information access.
    Answer: The DNI has been given a variety of authorities to 
determine access to intelligence information, including the authority 
to ``manage and direct'' the dissemination of national intelligence, to 
set uniform security and information technology standards, and to 
approve procurements authority over all enterprise architecture-related 
information technology items funded in the NIP. In addition the DNI 
will have a statutory CIO. If confirmed, I will utilize the DNI's 
authorities to the fullest extent to review any barriers that exist and 
to ensure maximum availability of and access to intelligence 
information.

                                 BUDGET

    Question 9.a.b.c.:  Describe your understanding of the authority of 
the DNI concerning the National Intelligence Program (NIP), 
specifically:
    a. how a DNI should apply independent judgment to the NIP budget 
submissions from the heads of agencies or organizations within the IC 
and the heads of their respective departments;
    b. how a DNI should resolve NIP budget disputes, including disputes 
involving budget priorities, between himself and the heads of IC 
elements or the heads of concerned departments and agencies; and
    c. the importance of the DNI authority to ensure the effective 
execution of the annual budget for intelligence and intelligence-
related activities of the U.S. Government.
    Answer:  The Director of National Intelligence (DNI) is responsible 
for developing and determining the NIP budget and, if confirmed, I will 
make the final decisions on the budget that is submitted to the 
President.
     The DNI should assess the current budget resolution practices and 
develop an appropriate resolution process in accordance with the DNI's 
budget authorities. The DNI's authority to ensure effective execution 
of the annual budget for intelligence and intelligence related 
activities is important because it is part of the mechanism for 
creating a unified Intelligence Community. In enacting intelligence 
reform, Congress and the President were clear that the DNI have full 
budget authority to manage the IC as a unified enterprise and if 
confirmed I look forward to exercising these authorities to best effect 
a more unified IC.
    Question 10.a.b.:  Explain the DNI's authority, notwithstanding the 
objections of the heads of IC elements or the heads of concerned 
departments and agencies, to terminate or reduce funding for a program 
in the NIP.
    a. Explain the DNI's authority, notwithstanding the objections of 
the heads of IC elements or the heads of concerned departments and 
agencies, to prevent a major system acquisition funded wholly from the 
NIP from proceeding through a milestone decision. If the DNI lacks this 
authority, explain under what circumstances, and explain the DNI's 
options for preventing the program from proceeding.
    b. If the DNI terminates a program by refusing to fund it in the 
NIP, but the Secretary of Defense still supports the program and 
provides funding for the program in the Joint Military Intelligence 
Program (JMIP), the Tactical Intelligence and Related Activities 
(TIARA), or another budget account, what authority does the DNI have to 
prevent the Secretary of Defense from taking such action?
    Answer: The IRTPA provides that the DNI has exclusive milestone 
decision authority (MDA) for intelligence programs within the NIP, 
except that with respect to Department of Defense programs, the DNI has 
MDA jointly with the Secretary of Defense. If the DNI and the Secretary 
of Defense cannot reach agreement where a joint milestone decision is 
required, the President shall resolve the difference. The DNI has the 
authority to participate in the development of the Department of 
Defense's JMIP and TIARA budgets. If confirmed, I would exercise the 
budget authority conferred on me by the IRTPA to the fullest.
    Question 11.a.b.c.: Explain the research and development challenges 
facing the IC and the DNI's authority, through the Director of Science 
and Technology in the Office of the DNI or otherwise, to ensure that 
the research and development activities of the IC are consistent with 
DNI priorities, regardless of how the activities are funded (NIP or 
otherwise).
    a. Explain the DNI's authority to ensure funding for such 
activities in the NIP.
    b. Explain the DNI's authority to prevent IC elements from 
circumventing DNI research and development decisions and priorities by 
using separate budget accounts (e.g., JMIP, TIARA, or otherwise) to 
fund activities the DNI has previously rejected for inclusion in the 
NIP,
    c. Should you be confirmed as DNI, will you ensure that the 
research and development activities of the IC:
    i. address system requirements from the tasking of collection to 
final dissemination of collected and analyzed intelligence (also known 
as ``end-to-end architecture);
    ii. are prioritized in a manner that addresses not only 
deficiencies in collection, but also deficiencies in analysis and 
dissemination of collected intelligence information; and
    iii. ensure interoperability of national intelligence, tactical 
military intelligence, and military systems?
    Answer:  The DNI has the authority to develop and determine and to 
ensure the effective execution of the annual budget for intelligence 
and intelligence related activities. In addition, the Office of the DNI 
will have a Director of Science and Technology. If confirmed, I will 
assess and prioritize the research and development challenges facing 
the Intelligence Community, including those outlined in your questions, 
and I will utilize the Director of Science and Technology to oversee 
Intelligence Community research and development activities to ensure 
the efficient and effective use of resources. As part of that process I 
would ensure that the Office of the DNI participate in the development 
of DoD's budgets for JMIP and TIARA to coordinate interoperability 
between national and tactical systems.
    Question 12.a.b.:  With respect to acquisitions of major systems 
that are ``split-funded'' (i.e., a portion of the NIP and a portion in 
the JMIP, TIARA, or other budget account), explain the DNI's authority, 
notwithstanding the objections of the heads of IC elements or the heads 
of concerned departments and agencies, to terminate such programs.
    a. Explain the DNI's authority, notwithstanding the objections of 
the heads of IC elements or the heads of concerned departments and 
agencies, to prevent such acquisitions from proceeding through a 
milestone decision. If the DNI lacks this authority, what are the DNI's 
options for preventing such programs from proceeding?
    b. If the DNI terminates funding for such a program in the NIP, but 
the Secretary of Defense still supports the program and provides 
funding for the program in the JMIP or TIARA, what authority does the 
DNI have to prevent the Secretary of Defense from funding the program?
    Answer:  The DNI has the authority and responsibility to develop 
and determine the National Intelligence Program budget, a process that 
will require the DNI to make NIP funding decisions. In addition, the 
DNI has the authority to participate in the development of the 
Department of Defense's JMIP and TIARA budgets. If confirmed, I intend 
to have the Office of the DNI participate in DoD's development of the 
JMIP and TIARA budgets. The IRTPA provides that the DNI has exclusive 
milestone decision authority (MDA) for major systems acquisitions 
funded solely within the NIP, except that with respect to Department of 
Defense programs, the DNI has MDA jointly with the Secretary of 
Defense. If the DNI and the Secretary of Defense cannot reach agreement 
when a joint milestone decision is required, the President shall 
resolve the difference.
    Question 13.a.b.: During his confirmation hearing, Mr. Porter Goss 
informed the Committee that he shared the Committee's frustration that 
the estimated cost of procuring major systems, such as satellites, 
routinely fall far below the actual cost of procuring those systems. 
Mr. Goss assured the Committee that he would comply with the legal 
requirements of Section 506A of the National Security Act of 1947, 
including preparing independent cost estimates for each major system to 
be acquired by the IC, budgeting to those estimates, and, if necessary, 
explaining why budgets depart from such estimates.
    a. Will you make the same assurance to the Committee?
    b. Should you be confirmed, how will you address budgetary 
shortfalls caused by funding to levels identified in independent cost 
estimates, especially in the National Reconnaissance Program?
    Answer: If confirmed, I will comply with the legal requirements for 
independent cost estimates that are applicable to National Intelligence 
Program acquisitions. If confirmed, I will assess budgetary shortfalls 
by analyzing the program's capabilities against the President's 
intelligence priorities.

   RELATIONSHIP WITH THE DIRECTOR OF THE CENTRAL INTELLIGENCE AGENCY

    Question 14.a.b.:  Explain the DNI's authority to supervise, 
direct, or control the manner in which the Director of the Central 
Intelligence Agency (D/CIA) exercises his statutory responsibility to 
provide overall direction for and coordination of the collection of 
national intelligence outside the United States through human sources 
(i.e., the D/CIA's ``national human intelligence (HUMINT) manager'' 
responsibilities).
    a. Does the DNI have the authority to mandate that the D/CIA permit 
another IC element (e.g., the Defense Intelligence Agency (DIA) or the 
Federal Bureau of Investigation (FBI)) to proceed with a human 
intelligence operational activity that was originally rejected by the 
D/CIA, a Chief of Station, or other D/CIA designee?
    b. Does the DNI have the authority, notwithstanding the decision 
and continued objection of the D/CIA, a Chief of Station, or other D/
CIA designee, to authorize an IC element to conduct a human 
intelligence operational activity that was originally rejected by the 
D/CIA, a Chief of Station, or other D/CIA designee?
    Answer:  The Director of National Intelligence (DNI) has broad 
tasking authority over the Intelligence Community (IC) to ``manage and 
direct'' the tasking of collection of national intelligence, which 
includes approving collection requirements and resolving conflicts in 
the tasking of national assets. The Director of CIA (D/CIA) has 
statutory responsibility for running the day-to-day operations of the 
CIA and for providing the direction and coordination of HUMINT 
activities outside the United States for the elements of the U.S. 
Government authorized to undertake such activities. In this regard, the 
D/CIA reports to the DNI regarding the activities of the CIA. If an 
instance were to arise in which an element of the IC disagreed with the 
decision of the D/CIA, the DNI would resolve the difference and 
determine the best course of action.
    Question 15.:  Explain the DNI's authority to supervise, direct, or 
control the manner in which covert actions are conducted by the Central 
Intelligence Agency.
    Answer:  The Director of CIA (DICIA) reports to the Director of 
National Intelligence (DNI) regarding the activities of the CIA, 
including covert action. The DNI is responsible for fulfilling 
Congressional notification requirements and for ensuring that the CIA 
and other IC elements comply with the Constitution and laws of the 
United States.
    Question 16.a.b.:  With respect to foreign liaison activities of 
the IC:
    a. Explain the DNI's authority to supervise, direct, or control the 
manner in which the D/CIA exercises his statutory responsibility to 
coordinate the relationships between IC elements and the intelligence 
and security services of foreign governments or international 
organizations.
    b. Explain the DNI's authority to mandate that the D/CIA permit 
another IC element (e.g., DIA or FBI) to conduct a liaison relationship 
with an intelligence or security services of a foreign government or 
international organization.
    Answer:  Under the IRTPA, the Director of CIA's (D/CIA's) authority 
to coordinate foreign intelligence relationships is exercised ``under 
the direction of the DNI `` If confirmed, I will work closely with the 
D/CIA to implement this authority to ensure activities across the IC 
are appropriately considered and coordinated.

 RELATIONSHIP WITH THE DIRECTOR OF THE NATIONAL COUNTERTERRORISM CENTER

    Question 17.a.b.c.d.:  Explain the DNI's authority to supervise, 
direct, or control the manner in which the Director of the National 
Counterterrorism Center (D/NCTC) exercises his statutory responsibility 
to plan, and track the progress of, joint counterterrorism operations.
    a. Explain the DNI's authority to direct the D/NCTC to modify a 
strategic operational plan for joint counterterrorism operations.
    b. Explain the DNI's authority to prevent an IC element from 
participating in, or complying with, a D/NCTC-approved strategic 
operational plan.
    c. Explain the authority of the DNI to modify the role or 
responsibility assigned to an IC element under a D/NCTC-approved 
strategic operational plan.
    d. Explain the authority of the DNI, notwithstanding the objections 
of the DINCTC, to terminate funding in the NIP for a D/NCTC-approved 
strategic operational plan for a joint counterterrorism operation.
    Answer:  As the principal intelligence advisor to the President and 
manager of the National Intelligence Program (NIP), the DNI is 
responsible for the effective use and performance of intelligence 
assets against all national security missions. Under the IRTPA, the DNI 
is responsible for overseeing the National Counterterrorism Center 
(NCTC). The Director of the NCTC (D/NCTC) reports to the DNI with 
respect to the NCTC budget and programs, counterterrorism analysis, and 
the conduct of intelligence operations implemented by other elements of 
the Intelligence Community (IC). The DNI has the authority to direct 
the D/NCTC to modify a strategic operational plan for joint 
counterterrorism intelligence operations.
    The DNI has the authority to terminate NIP-funded programs in 
accordance with the requirements for Office of Management and Budget 
approval and consultation with affected entities, subject to the 
limitations specified in the transfer and reprogramming provisions of 
the IRTPA, including notification of Congress.

                           COLLECTION TASKING

    Question 18.:  Explain the DNI's authority to direct an IC element 
to collect national intelligence, including foreign intelligence or 
counterintelligence, concerning:
    a. a particular subject or topic; and
    b. a particular individual, including a U.S. person.
    c. with respect to both a. and b. explain the DNI's authority to 
direct the national intelligence, including foreign intelligence or 
counterintelligence, collection activities of the FBI.
    Answer:  The IRTPA gives the DNI broad authority to ``manage and 
direct'' the tasking of collection, analysis, production, and 
dissemination of national intelligence by IC elements, including those 
of the Federal Bureau of Investigation. This tasking authority includes 
approving requirements on specific areas of interest, as well as the 
collection of foreign intelligence or counterintelligence against 
specific individuals, in compliance with all U.S. laws and policy 
related to the collection of U.S. person information.

                            USA PATRIOT ACT

    Question 19.:  On December 31, 2005, several provisions in the USA 
PATRIOT Act, and some provisions from other Acts, will ``sunset'' 
(cease to have effect). Do you support the reauthorization of the 
provisions subject to the USA PATRIOT Act ``sunset'' provision?
    Answer:  Decisions regarding the sunset provisions and the 
reauthorization of specific elements of the USA PATRIOT Act are matters 
best addressed by the Congress and the President. If confirmed, I will 
abide by all laws, including any changes the Congress and the President 
make to the USA PATRIOT Act.

                       NATIONAL SECURITY THREATS

    Question 20.: What are the principal threats to national security 
with which the IC must concern itself in the coming years?
    Answer:  Terrorism and WMD proliferation are the two principal 
threats to national security. Nevertheless, the Intelligence Community 
must remain vigilant to the emergence of new threats to national 
security.
    Question 21.: In your opinion, has the IC done an adequate job in 
adjusting its policies, planning, training, and programs to address 
current and future threats?
    Answer: As recognized by Congress in passing the IRTPA, much more 
needs to be done--and can be done--to address current and future 
threats.
     As the President has said, ``we will work to give our intelligence 
professionals the tools they need. Our collection and analysis of 
intelligence will never be perfect, but in an age where our margin for 
error is getting smaller, in an age in which we are at war, the 
consequences of underestimating a threat could be tens of thousands of 
innocent lives. And my administration will continue to make 
intelligence reforms that will allow us to identify threats before they 
fully emerge so we can take effective action to protect the American 
people.''
     If confirmed, I am committed to addressing these questions as a 
matter of utmost priority.

                  FUTURE OF THE INTELLIGENCE COMMUNITY

    Question 22.:  What do you consider to be the highest priority 
challenges facing the IC? As DNI, what would you do, specifically, to 
address these challenges?
    Answer: Aside from specific national security threats, the highest 
priority challenge for the IC is strengthening its sense of community 
through such practices as improved information sharing and improved 
personnel policies. If confirmed, I will work closely with senior IC 
officials to ensure that the IC works together effectively to address 
these threats.
    Question 23.: Explain whether the collection requirements and 
priorities of the IC are appropriate to address current and future 
threats. If not, explain what actions you will take as DNI, should you 
be confirmed, to realign collection requirements and priorities.
    Answer: Collection requirements and priorities must be reviewed, 
vetted, and revalidated on a continuous basis. If confirmed, I will 
review current processes and make adjustments as necessary to ensure 
that this is done.
    Question 24.:  Explain your views concerning the quality of 
intelligence analysis conducted by the IC. What steps, if any, do you 
believe are necessary to improve the quality of intelligence analysis 
within the IC, including the use of alternative analysis, competitive 
analysis, and ``red teaming''?
    Answer:  The quality of analysis can always be improved. The IRTPA 
gives the DNI the responsibility and mechanisms to facilitate 
improvement. Techniques such as alternative analysis can play an 
important role. If confirmed, I am committed to achieving the highest 
possible standard of analysis by the IC.
    Question 25.:  As DNI, how would you ensure that intelligence 
consumers receive national intelligence that is timely, objective, 
independent of political considerations, and based upon all sources 
available to the IC?
    Answer:  If confirmed, I would use all the tools available to the 
DNI and the IC to seek to fulfill this obligation.

                      PRIVACY AND CIVIL LIBERTIES

    Question 26.:  Describe the efforts of the IC to protect privacy 
and civil liberties and what, if any, challenges face the IC in these 
areas. Explain the role of the Civil Liberties Protection Officer, of 
privacy and civil liberties officers, and of the Privacy and Civil 
Liberties Board in ensuring that the IC complies with the United States 
Constitution and applicable laws, regulations, and implementing 
guidelines governing intelligence activities.
    Answer:  Historically, IC components have operated under Attorney 
General guidelines for the collection, retention, and dissemination of 
U.S. person information. The IRTPA creates additional safeguards 
through the Civil Liberties Protection Officer and the Privacy and 
Civil Liberties Board, who have the specific responsibility to ensure 
the protection of civil liberties and privacy.
    Question 4.a.b.c.:  Explain your understanding of the 
responsibilities of the following officers:
    a. the individual assigned responsibilities for analytic integrity 
under Section 1019 of the National Security Intelligence Reform Act of 
2004.
    b. the individual assigned responsibilities for safeguarding the 
objectivity of intelligence analysis under Section 1020 of the National 
Security Intelligence Reform Act of 2004.
    c. the General Counsel of the Office of the DNI.
    Answer:  The officer or entity assigned responsibility for analytic 
integrity is charged with ensuring that finished intelligence products 
produced by any element or elements of the IC are timely, objective, 
independent of political considerations, based upon all sources of 
available intelligence, and employ the standards of proper analytic 
tradecraft. This function can make an important contribution to the 
credibility and value of the intelligence community's work. If 
confirmed, I would expect and rely upon this officer or entity to carry 
out the specified functions vigorously. The regular and annual audits 
will reinforce the imperative for high standards throughout the 
community both by deterring biased, politicized, or incomplete analysis 
and by identifying areas for improvement through lessons learned and 
recommendations. I feel very strongly that providing objective national 
intelligence to the President, the Congress, and the departments and 
agencies is a critical national task and I look forward to working with 
Congress to ensure we meet the highest standards of analytic integrity.
     The officer assigned within the Office of the DNI to safeguard 
objectivity in analysis will be available to analysts within the O/DNI 
to counsel, conduct arbitration, offer recommendations, and, as 
appropriate, initiate inquiries into real or perceived problems of 
analytic tradecraft or politicization, biased reporting, or lack of 
objectivity in intelligence analysis. I view this function as important 
to meeting the high expectations our Nation's policymakers place on the 
integrity of the IC's analytical product. The existence of this officer 
should be well-advertised within the Office, and the officer selected 
should perform his or her functions much the way an ombudsman would, 
with discretion, neutrality, and a commitment to determining whether O/
DNI analysts are performing their jobs with proper tradecraft and 
objectivity. This officer will also have direct access to me and my 
senior subordinates to raise any issue related to the objectivity of 
analysis produced in O/DNI.
     The statutory General Counsel is the chief legal advisor of the O/
DNI and shall perform such functions as the DNI may prescribe. I view 
the GC and the Office he or she will manage, as playing a critical role 
in ensuring all employees or contractors assigned to the O/DNI comply 
with U.S. law and any applicable regulations and directives. I would 
expect the GC will be a key member of my senior advisory team, provide 
legal and ethical counsel to O/DNI managers and staff members alike, 
and participate in all significant decisions taken in the Office.
    Question 5.a.b.:  Explain the DNI's authority to direct the 
transfer or detail of particular personnel from one element of the IC 
to another.
    a. If the head of an IC element or the head of the concerned 
department or agency objects to the transfer of particular personnel 
from one element of the IC to another, explain what authority the DNI 
has to direct the transfer or detail notwithstanding the objection.
    b. Explain the principles governing personnel transfers that a DNI 
should consider when drafting personnel transfer procedures with the 
heads of concerned departments and agencies.
    Answer:  The personnel transfer authorities of the DNI provide a 
strong mechanism to direct resources to address evolving national 
security needs. While these authorities permit the DNI to move 
personnel around the community with a large degree of discretion, if 
confirmed I would plan to engage with the heads of affected departments 
and agencies and take full account of their unique mission needs. In 
addition to the statutory conditions governing personnel transfers, I 
will adhere to procedures developed in coordination with the relevant 
heads of departments and agencies to ensure that, to the extent 
practicable, such transfers are effected smoothly and with minimal 
disruption to other activities underway in the Community. The extent to 
which I am authorized to direct a transfer over the objection of a 
department or agency head will depend, at least in part, on the 
procedures developed. In developing such procedures, I would expect to 
consider, among other factors, the likely impact of a proposed transfer 
on the affected organizations or units, programs or operations, and 
individuals, as well as the perceived benefits organizationally and 
operationally by virtue of that transfer.
    Certainly the Congress has laid down guidance on the principles 
that should govern transfer of personnel: transfers should be to a 
higher priority intelligence activity and support an emergent need; 
they should also improve effectiveness and increase efficiency. If 
confirmed, one of my early undertakings will be to give further 
definition, perhaps through the Joint Intelligence Community Council, 
to these terms. However, as head of the Intelligence Community and 
empowered to manage it as a single unified enterprise, I intend to 
exercise my authority to the fullest for the benefit of the country.
    Question 8.a.b.c.d.: Explain the DNI's authority to formulate, 
implement, and enforce IC-wide information access policies.
    a. What actions will you take, should you be confirmed as DNI, to 
enhance information access by ensuring that all IC analysts--with a 
valid security clearance and a need-to-know--have access to pertinent 
information contained in human intelligence operations cables, raw 
signals intelligence, or other such information not currently made 
available to analysts?
    b. Some statutory barriers to information access have been removed 
by the USA PATRIOT Act and Intelligence Authorization legislation. 
Explain whether additional modifications to Executive Order 12333 or 
other applicable authorities or statutes will be required before the IC 
can operate like a true ``information enterprise''--where information 
is accessible by all IC elements.
    c. Explain the DNI's authority, notwithstanding the objections of 
the heads of IC elements or the heads of concerned departments or 
agencies, to direct the head of an IC element to comply with DNI 
policies and directives on information access. If the DNI lacks this 
authority, explain what authority, if any, the DNI has to ensure that 
the head of an IC element complies with DNI policies and directives on 
information access.
    d. Explain the information technology challenges facing the IC and 
the DNI's authority, through the Chief Information Officer for the IC 
or otherwise, to ensure that the IC develops an enterprise architecture 
and maintains information technology systems in a manner that enables 
and promotes DNI policies and directives on information access.
    Answer:  The DNI has been granted a host of authorities to foster 
greater access to intelligence information, including the authority to 
``manage and direct'' the dissemination of national intelligence by 
intelligence community (IC) elements, to set uniform security and 
information technology standards within the IC, and to approve 
procurements over all enterprise architecture-related information 
technology items funded in the NIP. In addition there will be a 
statutory CIO for the IC. If confirmed, I will utilize the DNI's 
authorities to the fullest extent to review any barriers that exist 
and, consistent with national security requirements, ensure maximum 
availability of and access to intelligence information within the IC. 
This is also an issue to which I expect to devote considerable 
attention at the outset of my tenure.
     If confirmed, I expect to build upon the inter-agency work that 
has been done under Executive Order 13356 by way of developing common 
standards for the sharing of terrorism information. Such standards 
might include ways of protecting information so that it can be 
distributed at the lowest classification level possible and minimizing 
the use of classification compartments. I believe it is important for 
analysts to have the tools necessary to do their jobs.
     I am not aware at this time of any legislative or regulatory 
impediments to information sharing within the IC. The DNI authorities 
in this regard appear on their face to be sufficient to meet the 
statutory objectives. To the extent that the ODNI CIO or I identify any 
such barriers as we implement our program within the IC, I would so 
report next February as required by statute.
     Likewise, I will need more time to understand the nature and 
extent of technological challenges we face in ensuring greater 
intelligence access throughout the IC. I expect the Departments and 
agencies to be cooperative and I am confident we could work 
constructively together. I do not foresee inadequate DNI authorities as 
a stumbling block, with respect to meeting our stated objectives, 
although if necessary I will seek the requisite additional authorities.
    Question 10.a.b.:  Explain the DNI's authority, notwithstanding the 
objections of the heads of IC elements or the heads of concerned 
departments and agencies, to terminate or reduce funding for a program 
in the NIP.
    a. Explain the DNI's authority, notwithstanding the objections of 
the heads of IC elements or the heads of concerned departments and 
agencies, to prevent a major system acquisition funded wholly from the 
NIP from proceeding through a milestone decision. If the DNI lacks this 
authority, explain under what circumstances, and explain the DNI's 
options for preventing the program from proceeding.
    b. If the DNI terminates a program by refusing to fund it in the 
NIP, but the Secretary of Defense still supports the program and 
provides funding for the program in the Joint Military Intelligence 
Program (JMIP), the Tactical Intelligence and Related Activities 
(TIARA), or another budget account, what authority does the DNI have to 
prevent the Secretary of Defense from taking such action?
    Answer:  The DNI is authorized to develop and determine the NIP 
budget and to effect with broad discretion funds transfers and 
reprogramming within the NIP. Both of these authorities would enable 
the DNI, subject to various conditions and/or restrictions, to 
effectively terminate or reduce funding for a program in the NIP. I 
hasten to add, however, that no such decision would be made lightly, 
particularly if a department or agency head expressed concerns about 
that program's status. Ultimately, however, the law vests in the DNI 
great authority over the NIP and, if confirmed, I would intend to 
exercise that authority to effect a more unified Intelligence 
Community.
     The DNI has exclusive milestone decision authority (MDA) for 
intelligence programs funded wholly within the NIP with respect to 
acquisitions of non-Department of Defense (DoD) major systems. That 
authority, in principle, would allow the DNI alone to prevent such a 
program from proceeding through a milestone decision. With respect to 
the acquisition of a DoD major system, however, the DNI and Secretary 
of Defense have joint milestone decision authority for intelligence 
programs. By law, any inability by the DNI and Secretary of Defense to 
resolve differences under this joint MDA arrangement would be taken to 
the President.
     The Secretary of Defense has significant discretion over the JMIP 
and TIARA programs while the DNI has substantial control over the NIP. 
This creates a natural tension but also encourages the two principals 
to work cooperatively and constructively together and to forge 
compromise. For his part, the DNI is authorized to participate in the 
budget development of the JMIP and TIARA and is to be consulted by the 
Secretary of Defense with respect to any funds transfer or 
reprogramming under the JMIP. If confirmed, I would fully expect to 
exercise these budget authorities. The Secretary of Defense and I have 
agreed to work closely on these and other issues.
    Question 12.a.b.:  With respect to acquisitions of major systems 
that are ``split-funded'' (i.e., a portion of the NIP and a portion in 
the JMIP, TIARA, or other budget account), explain the DNI's authority, 
notwithstanding the objections of the heads of IC elements or the heads 
of concerned departments and agencies, to terminate such programs.
    a. Explain the DNI's authority, notwithstanding the objections of 
the heads of IC elements or the heads of concerned departments and 
agencies, to prevent such acquisitions from proceeding through a 
milestone decision. If the DNI lacks this authority, what are the DNI's 
options for preventing such programs from proceeding?
    b. If the DNI terminates funding for such a program in the NIP, but 
the Secretary of Defense still supports the program and provides 
funding for the program in the JMIP or TIARA, what authority does the 
DNI have to prevent the Secretary of Defense from funding the program?
    Answer:  The law provides the DNI with MDA only for acquisitions 
funded solely within the NIP. Where DoD programs are concerned, the DNI 
has MDA jointly with the Secretary of Defense. Thus, the DNI does not 
have the authority to unilaterally terminate or otherwise affect 
programs partially funded in the JMIP or TIARA. If the DNI and the 
Secretary of Defense cannot agree regarding DoD programs funded in the 
NIP, the President decides. Because the law directs the DNI and the 
Secretary of Defense to work, together in many budget areas, if 
confirmed, I expect to build procedures to facilitate resolution of 
disputes. However, the President and Congress vested in the DNI new and 
expanded budgetary and acquisition authorities and I would exercise 
them to the fullest to achieve a more unified Intelligence Community.

                            USA PATRIOT ACT

    Question 19.:  On December 31, 2005, several provisions in the USA 
PATRIOT Act, and some provisions from other Acts, will ``sunset'' 
(cease to have effect). Do you support the reauthorization of the 
provisions subject to the USA PATRIOT Act ``sunset'' provision?
    Answer:  Yes, I support renewal of the PATRIOT Act. The President 
has called on Congress to reauthorize the Patriot Act and I support its 
extension also. I especially embrace those provisions that now allow 
for the robust exchange of information between the intelligence and law 
enforcement communities, and believe that the Act's FISA enhancements, 
based on FBI Director Mueller's testimony and other public evidence, 
justify continued effect.
    Congress passed the PATRIOT Act with overwhelming bipartisan 
support after September 11th. As Attorney General Gonzales testified 
recently, ``this law has been integral to the government's prosecution 
of the war on terrorism. We have dismantled terrorist cells, disrupted 
terrorist plots and captured terrorists before they could strike.'' I 
look forward to further studying the Patriot Act if confirmed and 
considering whether additional improvements in the area of intelligence 
collection are needed to better prosecute the war on terrorism.

[GRAPHIC] [TIFF OMITTED] T2581.084

[GRAPHIC] [TIFF OMITTED] T2581.085

[GRAPHIC] [TIFF OMITTED] T2581.086

[GRAPHIC] [TIFF OMITTED] T2581.087

[GRAPHIC] [TIFF OMITTED] T2581.088

[GRAPHIC] [TIFF OMITTED] T2581.089

[GRAPHIC] [TIFF OMITTED] T2581.090

[GRAPHIC] [TIFF OMITTED] T2581.091

[GRAPHIC] [TIFF OMITTED] T2581.092

[GRAPHIC] [TIFF OMITTED] T2581.093

[GRAPHIC] [TIFF OMITTED] T2581.094

   Questions for the Record Submitted by Members of the Committee to 
    Ambassador John Negroponte, Nominee to be Director of National 
                              Intelligence

                       QUESTIONS OF SENATOR BOND

                           Information Access
    Question 1. In one of your responses to our committee's questions-
for-the-record you state that you will utilize the DNI's authorities to 
the fullest extent to ensure maximum availability of, and access to, 
intelligence information within the intelligence community. You state 
that you intend to build on work done under the auspices of Executive 
Order 13356 to develop common standards for the sharing of terrorism 
information. I was pleased, though, to also hear you express the 
reality that we have valid needs to protect our sources. So it seems to 
me that the trick is getting the right information to the right people, 
but ONLY the right people. In other words, enforce the need-to-know 
policy within the community.
    Do you feel there should be an instance in which a CIA Directorate 
of Intelligence analyst working a specific issue is privy to 
information that a State INR or DIA analyst working the exact same 
issue is not? If not, do you have the authorities to prevent this type 
of information hoarding?
    Answer. If confirmed, I would use the DNI's statutory authorities 
to ensure maximum availability of and access to intelligence 
information within the IC, consistent with national security 
requirements including the legitimate need to protect sources and 
methods.
    Because I have not yet begun a thorough review of current practices 
and concerns, I would need more time to determine the exact contours of 
an improved information-sharing system. However, I am confident that we 
can work constructively together within the IC to resolve current 
concerns and meet our shared objectives. I believe that I have ample 
authority both to prevent inappropriate hoarding of information and to 
enforce the need-to-know principle as appropriate, but would not 
hesitate to seek additional authorities should that prove necessary. I 
understand the importance of the need-to-know policy and you correctly 
describe the challenge of balancing this with the need to make sure 
that information gets to all the analysts who need it. As to your 
hypothetical, it is difficult to answer without additional information. 
Information access would likely be influenced by many factors. My goal 
is to ensure that all possible information is available to the 
analytical community in order to achieve the best possible analytical 
product.
    Question 2. In light of the recently released report of the WMD 
Commission, do you feel that these information-sharing standards should 
be limited to terrorism-related information?
    Answer. In general, I believe there should be common standards for 
sharing all intelligence information, including terrorism-related 
information. However such common standards should enhance and not 
hamper access to intelligence information. As I said above, however, if 
confirmed, I would need to more thoroughly review and assess the 
current situation and proposals before determining any final system.
    Question 3. Frequently, the need-to-know policy is often used as an 
excuse by collectors to zealously hoard ``their'' information at the 
expense of others who need it to do their job. This gets to ownership 
of information and who makes the call as whether a person has a need-
to-know. Who, in your mind, ``owns'' information collected by the 
intelligence community? Who should make the call as to who gets access 
to that information?
    Answer. I have agreed with the Committee that we need to move away 
from information ``sharing'' and more toward information ``access'' as 
``sharing'' implies ownership. Any information collected is owned by 
the American people not any particular agency, and it must be 
productively used by all relevant agencies to protect their interests 
and those of our allies. If confirmed, I intend to use the authorities 
given to me to establish policies and procedures to ensure that any 
conflict between the need-to-share intelligence information and the 
need-to-protect sources and methods is appropriately balanced. In order 
to address the specific issues raised, I would review the current 
policies and procedures in place to ensure that any unnecessary 
barriers are removed. The principal authority with respect to access to 
intelligence information resides with the DNI

                             Fixing the FBI

    Question 4. The WMD Commission stated that ``[the FBI] is on its 
way to becoming an effective intelligence agency, but will never arrive 
if it insists on using only its own map.'' I've met with Director 
Mueller who--while acknowledging many bumps along the way, such as the 
recent Virtual Case File fiasco--has assured me of the progress he is 
making toward turning the bureau into a valued member of the 
intelligence community.
    Do you have a ``map'' for the FBI's transition to an effective 
intelligence agency?
    Answer. As the WMD Commission noted, the FBI has made some progress 
in building an intelligence capacity since September 11, 2001, but more 
needs to be done. I have read with interest the WMD Commission's recent 
recommendations for the restructuring of the FBI. I have met with 
Director Mueller and look forward to working closely with him if 
confirmed. I know that Director Mueller is keeping an open mind on this 
issue and I would intend to participate in the review of the WMD 
Commission's recommendations to ensure that the concerns raised are 
adequately and effectively addressed.

                               __________
                       Questions of Senator Levin

                       RESPONSIVENESS TO CONGRESS

    Question 1. Ambassador Negroponte, Many of us have been very 
frustrated by the lack of responsiveness of parts of the Intelligence 
Community and other federal agencies to Congress, and to requests for 
documents and for declassification. There have been recent problems 
getting documents on subjects ranging from intelligence assessments on 
Iraq to detainee abuse. In one instance, the Armed Services Committee 
waited more than a year to get answers to Questions for the Record from 
the former DCI. In other instances, the CIA promised to provide 
documents and then failed to do so for six to nine months. This is 
simply unacceptable.
    If confirmed, will you commit to ensuring timely and responsive 
information to members of the Committee, and will you make every effort 
to respond to requests for existing documents within 15 days?
    Answer. Working with this Committee and being responsive to its 
information needs would be a high priority for me if I am confirmed. If 
we are unable to make a substantive response within 15 days, we would 
at a minimum provide the Committee with an interim response indicating 
that we are working on the request and explaining what is involved in 
developing a substantive response.

                     IC LEADERSHIP KEEPING INFORMED

    Question 2. Ambassador Negroponte: The most famous 16 words 
concerning exaggerated intelligence about Iraq were the words of 
President Bush in his January 2003 State of the Union speech concerning 
the allegation that Iraq had tried to acquire uranium from Africa: 
``The British government has learned that Saddam Hussein recently 
sought significant quantities of uranium from Africa.''
    It is incredible that these words were inserted into the 
President's speech, given that the CIA had successfully requested that 
similar words be removed from a draft of the President's October 7, 
2002 speech in Cincinnati. That effort included a personal call from 
DCI Tenet to the Deputy National Security Advisor to ask that the 
language be eliminated.
    Remarkably, DCI Tenet did not even hear or read the State of the 
Union contemporaneously, so he was unaware that the offending words had 
been put back in that speech until several months later.
    Also remarkable, according to news reports, former DCI Tenet and 
former Deputy DCI McLaughlin were not even aware that a foreign 
intelligence service and CIA officials doubted the veracity of 
Curveball until the Silberman-Robb Commission told them.
    Do you agree that there should be a formal review process for major 
statements by senior policymakers about intelligence matters, and that 
the head of the U.S. Intelligence Community should be aware of such 
public statements about intelligence and aware of Intelligence 
Community concerns that a major source may be a fabricator?
    Answer. I certainly agree that the Intelligence Community should be 
aware of concerns about the reliability of sources, regardless of 
whether it relates to a speech. I am not aware of what procedures are 
currently in place for reviewing the intelligence aspects of major 
speeches. If confirmed, I would certainly look into this issue and 
assure myself that the Intelligence Community is providing the best 
possible support to policymakers in this area. Specifically, I would 
work with the President's staff to ensure that any portions of his 
speeches referring to intelligence information would be double-checked 
with the Intelligence Community beforehand.

                        DETAINEE ABUSE DOCUMENTS

    Question 3. Ambassador Negroponte: There are a couple of memos 
related to detainee interrogation that are of great interest to this 
Committee and to Congress. They are:
    1. A memo, signed by Associate Attorney General Jay Bybee in the 
Justice Department's Office of Legal Counsel, evaluating the legality 
of specific interrogation techniques. This memo was reportedly produced 
around the time of the August 1, 2002 memo, also signed by Mr. Bybee, 
which concerned the interpretation of laws relating to torture and 
interrogation.
    2. A March 14, 2003 memo prepared by Deputy Assistant Attorney 
General Yoo entitled ``Military Interrogation of Alien Unlawful 
Combatants Held Outside the United States.'' This memo was referred to 
in the report of Vice Admiral Church on interrogation techniques and 
operations.
    These two memos are highly relevant to the Intelligence Community 
in its practice of interrogation techniques, including the Defense 
Intelligence Agency.
    Would you check to see if either of these two memos have been 
provided to the Intelligence Community and report back on your findings 
by April 19?
    If either, or both, of the memos has been provided to the 
Intelligence Community, would you provide them to the Committee?
    Answer. I understand that the Executive Branch has a strong 
confidentiality interest regarding Office of Legal Counsel opinions. I 
do not know the answers to your specific questions, but if I am 
confirmed, I would look into the matter.

                   CIA IG REVIEW OF ABUSE ALLEGATIONS

    Question 4. Ambassador Negroponte: The CIA Inspector General (IG) 
is looking into allegations of detainee abuses by CIA personnel.
    Do you know or could you find out and let us know whether, as part 
of its inspection of detainee abuse allegations, the CIA IG is also 
conducting a comprehensive review of the policies and legal authorities 
governing CIA detention and interrogation activities to see whether 
these policies contributed to the alleged abuses of detainees in U.S. 
custody?
    Answer. If confirmed I would be pleased to look into this matter.

                  CHURCH REPORT ON ``GHOST DETAINEES''

    Question 5. Ambassador Negroponte: Vice Admiral Church, in his 
report on DoD interrogation techniques, found evidence of approximately 
30 ``ghost detainees'' held unregistered at DoD facilities in Iraq at 
the request of the CIA. The Church Report also states that the Defense 
Department has ceased the practice of holding ``ghost detainees'' at 
DoD facilities.
    Are you able to confirm that the United States ceased the practice 
of holding ``ghost detainees'' at U.S. facilities? Do you agree with 
the assessment that this practice violates international law?
    Answer. It would not have been appropriate for me to be fully 
briefed on this before confirmation, and so I have not had yet an 
opportunity to gather all the information that would be required to 
develop a view on the matter. If confirmed, I would certainly be 
getting briefed on these issues and would look into this matter.

                            RENDITION POLICY

    Question 6. Ambassador Negroponte: Numerous recent press reports 
describe the CIA's policy of ``extraordinary rendition,'' under which 
terrorist suspects are sent to be interrogated in foreign countries, 
some with a known track record of using torture.
    Recently, Attorney General Alberto Gonzales and White House Counsel 
Dan Bartlett have reportedly defended this policy of extraordinary 
rendition. Yet they have not articulated a legal basis for it, while 
admitting that the Administration ``can't fully control'' what other 
countries do--including countries that are known to engage in torture. 
This policy directly contradicts President Bush's statement on January 
27th, 2005, that ``torture is never acceptable, nor do we hand over 
people to countries that do torture.''
    Does the United States have a policy of extraordinary rendition 
which permits the transfer of suspected terrorists to foreign 
countries, including ones with a track record of human rights abuses, 
for interrogation? Do you support such a policy?
    Do you know whether there has there been a legal determination that 
extraordinary rendition is legal under U.S. domestic law and our treaty 
obligations?
    Answer. It would not have been appropriate for me to be fully 
briefed on this before confirmation, so I do not yet have all the 
information required to respond to this question. As a condition to its 
advice and consent to the ratification of the Convention Against 
Torture, the Senate required an understanding pursuant to which the 
United States may transfer persons to other countries unless it is more 
likely than not that they will be tortured. My understanding is that 
the longstanding legal position of the U.S. Government is, consistent 
with the Senate's understanding, that it is legal to send a person to 
another country unless we believe it is more likely than not that he 
will be tortured.

        DISAPPEARANCE OF FATHER JAMES CARNEY IN HONDURAS IN 1983

    Question 7. Ambassador Negroponte: The disappearance and apparent 
death of Father James Carney, an American citizen in Honduras, occurred 
while you were Ambassador in Tegucigalpa. You met with family members 
at the time in search of clues into Father Carney's disappearance, and 
I know you were well aware of concerns the Carney family had that he 
had been targeted by Honduran death squads.
    In your opinion, what happened to Father Carney, and did the United 
States do all it could to locate him and determine his fate?
    Answer. As you know, Father Carney was accompanying a group of 
guerrillas who had infiltrated into Honduras from Nicaragua, with the 
purpose of overthrowing the government. I believe Father Carney died 
because he was left behind in the jungle by his companions after 
suffering a knee injury. I believe we did everything possible to locate 
Father Canvey. In that connection I attach two letters dated 23 May 
2001, written by Sarah Horsey, who was Consul General in Honduras at 
the time of Father Carney's disappearance. These letters explain the 
priority I attached to the search for Father Carney. (see attachment 1)

                  PRESS REPORT ON CABLE FROM HONDURAS

    Question 8. Ambassador Negroponte: The Washington Post of April 12, 
2005 reported that, in relation to concerns about possible ``death 
squad'' activity in Honduras, you prepared a cable in October 1983 in 
which you spoke positively of General Gustavo Alvarez's ``dedication to 
democracy.''
    Is the report concerning the cable accurate? If so, do you stand by 
your characterization about Gen. Alvarez's ``dedication to democracy?''
    Answer. I do not recall the particular conversation reported in the 
October 1983 telegram, which is entitled, ``General Alvarez on the 
Democratic Process.'' The point of my message, I believe, was to show 
that Alvarez was committed to the constitutional process unfolding at 
the time. I believe it was important to have Alvarez on the record as 
being committed to constitutional rule. I believe, my characterization 
of Alvarez ``dedication to democracy'' was overstated and with the 
benefit of hindsight, including Alvarez' removal from his position by 
his own fellow officers in March of 1984, would not have used that 
phrase if I had the opportunity to write that message again. I do not 
believe, however, that Alvarez himself aspired to political office and, 
in that sense, he supported the constitutional process.
    The full text of the cable is attached to give context to the 
quotation. (see attachment 2).
                               __________
                       Questions of Senator Snowe

                 DNI AUTHORITIES--SECRETARY OF DEFENSE

    Lead-In: Mr. Ambassador, many, such as former CIA and FBI Director 
William Webster, are concerned that the gaps and ambiguities left in 
the legislation may adversely impact your ability to do your job. 
Webster says that he had problems with then-Secretary of Defense Cheney 
because of ``blurred authority in the budget field.'' (WP, 3/01/05).
    Last August in an appearance in front of the House Armed Services 
Committee, former Senator and 9/11 Commissioner Kerrey expressed his 
frustrations that while it is always the intelligence community 
director that gets called up here to explain failures, it is the 
Department of Defense that has the true budget and personnel 
authorities that often precipitated such failures.
    The Robb-Silberman Report cautioned that ``headstrong agencies'' 
will ``try to run around or over the DNI.''
    Two weeks ago, the Secretary of Defense signed a memo that some see 
as a roadblock to information flow between DoD and DNI. (WP, 4/18/05). 
Clearly, it places an Under Secretary in the path of communication.
    Question 1. How will you ensure that the office on the DNI is on an 
equal footing with DoD and that when you set national intelligence 
strategy, that strategy is carried out without fail within the defense 
agencies?
    Answer. If confirmed, I intend to fully utilize the authorities 
that have been provided with respect to overseeing and directing the 
implementation of the National Intelligence Program. As I have 
mentioned, the Secretary and I have agreed to maintain close 
coordination and cooperation on all such matters.
    Question 2. How do you intend to track and ensure taskings to the 
intelligence agencies from combatant commanders who can do so outside 
of the DM organization are consistent with national intelligence 
strategies?
    Answer. I recognize that it is the DNI's responsibility to ensure 
that the NIP budgets within DoD are adequate to satisfy the national 
intelligence needs of DoD. If confirmed I intend to work cooperatively 
and constructively with all of the IC elements within the DoD to do so. 
I have not yet looked into the question of monitoring taskings from 
combatant commanders but, if confirmed, I look forward to working on 
this issue.

                     DNI AUTHORITIES--TURF BATTLES

    Lead-in: In each report that has been issued over the past several 
years outlining the intelligence failures of 9/11 and the Intelligence 
Community's assessments of Iraq's Weapons of Mass Destruction Programs, 
one major theme that consistently emerges is that chronic turf wars 
among government agencies impede our Nation's ability to effectively 
assess and counter its most dangerous adversaries.
    The Committee's report on Iraq's WMD program is replete with 
information-sharing lapses that resulted in flawed analysis, and was a 
direct result of the turf wars between agencies. More recently, the 
Robb-Silberman Report notes, with respect to counter-terrorism, 
analysis and threat warning must be properly aligned, supported and 
integrated to defeat the terrorist target. In sum, the President's 
Commission found that redundancies exist in the roles, missions, and 
authorities of counter-terrorism organizations, and that the ambiguous 
roles and authorities of the National Counter-terrorism Center (NCTC) 
and the DCIs Counterterrorist Center (CTC) have sparked turf battles 
and produced unnecessary duplication of effort and unproductive 
competition.
    This finding is particularly troubling considering that when the 
President proposed the creation of the Terrorist Threat Integration 
Center (TTIC) (now the National Counter-terrorism Center (NCTC)), in 
his State of the Union Address in 2003, the goal was to end duplication 
and confusion among agencies' counter-terrorist activities. Yet over 2 
years later, the ambiguous roles, missions, and authorities of counter-
terrorism organizations have hindered effective threat warnings.
    Question 3. As the WMD Commission notes, the persistence of agency 
coordination problems and unclear definitions of responsibility with 
regard to counter-terrorism activities, suggest a lack of Intelligence 
Community leadership. How will you use your authorities to define clear 
roles, mission, and responsibilities among IC agencies to stop the turf 
wars that result in duplication of effort, inefficient use of limited 
resources and unproductive competition that hinder effective 
intelligence collection and analysis?
    Answer. Eliminating overlap, duplication and inefficiency will be a 
key challenge for the DNI. If confirmed, I intend to use the budgetary 
and personnel authorities provided to the DNI under the IRTPA to 
effectively manage the IC and to removed overlap and duplication of 
effort. I would have to study carefully the relevant organizational 
structures to determine how best to ensure a unified approach. The work 
of this Committee and the WMD Commission provide useful guidance and, 
if confirmed, I look forward to working with this Committee in this 
critical area.
    Question 4. The Robb-Silberman Report also addresses the 
difficulties the TTIC or NCTC has had in getting personnel detailed to 
support its mission. This issue brings to light the criticism that 
although the Intelligence Community reform legislation is a good start, 
the DNI lacks ``command authority'', or the ability to tell agencies 
what to do--or in this case, perhaps the ability to direct IC agencies 
to support a priority IC mission. How will you use your authorities to 
direct personnel and resources to ensure that the Intelligence 
Community agencies are supporting the intelligence priorities of our 
Nation?
    Answer. If confirmed, I intend to fully utilize, if necessary, all 
of the personnel authorities given to the DNI, including the authority 
to detail up to 150 personnel to the ODNI within the first year, and 
100 personnel upon the establishment of any new center. I intend to 
develop procedures to coordinate with the relevant heads of departments 
and agencies to ensure that, to the extent practicable, such transfers 
are effected smoothly and with minimal disruption to other activities 
underway in the Community. While I believe the DNI has sufficient 
authorities in this area, if experience shows that adjustments are 
necessary I would not hesitate to seek additional authority. As for 
ability to direct resources, Congress wisely vested in the DNI 
reprogramming and transfer authorities that I would not hesitate to 
invoke should it become necessary to dedicate resources to emerging 
intelligence priorities.

                           INSPECTOR GENERAL

    Lead-in: Mr. Ambassador, all of the major post-9/11 reviews of the 
intelligence community, including those carried out by this Committee 
and those emanating from Commissions appointed by the President, have 
been replete with information-sharing failures, analytic failures, and 
collection failures that contributed to the Community's inability to 
forewarn this Nation's policymakers about 9/11 and the largely 
erroneous assessments regarding Iraq's WMD programs.
    To help ensure that such failures are not repeated and that there 
is more accountability injected into the intelligence community, I 
introduced the Intelligence Community Accountability Act last Fall to 
institute widespread accountability within the intelligence community 
by creating an Inspector General for the entire Community. This 
Community-wide IG would have had the ability to investigate current 
issues in any of the Community's 15 agencies, not just conduct 
``lessons learned'' studies. I believe an IG with such broad powers can 
help identify problem areas and identify the most efficient and 
effective business practices required to ensure that critical 
deficiencies are addressed before it's too late, before we have another 
intelligence failure, before lives are lost.
    However, the Intelligence Reform bill passed last year merely 
authorizes the DNI to create an Inspector General in the Office of the 
DNI, without the explicit, broader powers that would enable that IG to 
conduct investigations throughout the intelligence community and inject 
the additional accountability that I believe is sorely lacking. This 
concerns me.
    I believe some of the agencies impacted feared the loss of control 
or powers to conduct such reviews themselves. However, I believe there 
is broad support for the establishment of an IG within the office of 
the DNI who could examine issues within the DNI staff, the NCTC, and 
the National Proliferation Center (NPC) that, under the current law, 
will lack an internal oversight mechanism although they will be the 
center of our intelligence community information gathering and sharing 
efforts. Additionally, there must be a mechanism to transcend barriers 
in the event that one agency IG is conducting an investigation that 
extends into another agency, especially as operations are becoming more 
``joint'' in nature.
    Question 5.  What are your thoughts about a DNI-level Inspector 
General--do you intend to establish an IG that can investigate across 
agencies and not just within the office of the DNI? Will you require 
additional legislative authority in order to accomplish this?
    Answer. I understand the importance of an Inspector General and, if 
confirmed, I expect to establish an IG within the ODNI. However, I 
would address the specific details upon taking office.
    Question 6. The Robb-Silberman Report recommended that the DNI IG 
should have responsibility for protecting intelligence collection 
sources and methods from leaks and inadvertent disclosures as well as 
determining the releasability of intelligence information to foreign 
governments in diplomatic demarches. What are your thoughts about those 
suggestions?
    Answer. While I have not had an opportunity to consider that 
recommendation in detail, I recognize my authorities and 
responsibilities for ensuring the protection of sources and methods, 
and I intend to carefully consider the best way to implement those 
authorities.
    Question 7. In your experience, what is the best way to perform the 
constant ``lessons learned'' approach to improving the intelligence 
product provided to national policy-makers? Are agency-based internal 
reviews unbiased enough or does this require periodic external reviews 
that a DNI-level IG might be better placed to conduct?
    Answer. As I mentioned in my testimony, I believe that a ``lessons 
learned'' mechanism is invaluable to improving intelligence products. 
While the DNI IG may be one avenue for such review, the statute 
provides for other such mechanisms within the DNI, including the 
establishment of an alternative analysis ombudsman and an entity to 
review the objectivity of finished intelligence. If confirmed, I would 
expect to use a variety of mechanisms to ensure that the intelligence 
community learns from its experience--institutionalizing and building 
on those things that work well and correcting those things that do not.

                                ANALYSIS

    Lead-in: Ambassador Negroponte, as you know this Committee found in 
its report that the ``group-think'' dynamic was so strong that IC 
collectors, analysts and managers did not use established mechanisms to 
challenge assumptions that led to the conclusion that Hussein possessed 
vast stockpiles of WMD. Furthermore, we concluded that while the 
Director of Central Intelligence was supposed to act as head of both 
the CIA and the intelligence community, for the most part he acted only 
as the head of the CIA to the detriment of the intelligence product 
provided to national policymakers--the infamous aluminum tubes being 
the most egregious example.
    We also heard from Dr. David Kay, head of the Iraq Survey Group 
that a complete lack of competitive analysis led to stale data and 
findings being passed completely unchallenged to policy-makers. In 
response to a question I asked about competitive analysis, he agreed 
that the present system does not encourage diversity of analysis or 
competitive analysis but that he thought a DNI would encourage it 
because you would represent the whole. That is why I worked to get 
provisions for ``red-teaming'' (as a synonym for alternative analysis) 
put into the legislation and I would like to explore with you your 
thoughts about the effectiveness and role of alternative analysis.
    Question 8. How, as DNI, will you ensure that the President gets 
the benefit of all pertinent viewpoints from the entire community on 
major intelligence issues/debates?
    Answer. As you mention, the legislation provides for an alternative 
analysis review of all intelligence products. I recognize that it is 
critically important that all relevant viewpoints within the community 
are identified and explored at the appropriate level, and that they are 
presented to the President in an appropriate manner. If confirmed, I 
intend to work hard to avoid phenomena such as group-think and look 
forward to working with those in the intelligence community, the 
Congress, and outside experts to insure that the intelligence community 
is at the forefront in using creative means of ensuring the best 
possible competitive analysis.
    Follow-up: Besides setting up a strictly bureaucratic reporting 
function, how will you inculcate into the culture a desire to include 
all aspects of an argument regardless of agency viewpoints?
    Answer. Your concern reflects my belief that an integrated and 
unified community culture is imperative. I have worked in many 
different organizations and understand the importance of organizational 
culture and the challenges in changing it. If confirmed, one of my 
first priorities would be to review the current mechanisms in place 
with respect to how intelligence is currently provided and to consider 
what changes would address the concerns that have been raised. 
Specifically with reference to organizational culture, I would expect 
to consult with those inside and outside government, as well as with 
the Congress, for ideas on how to inculcate an organizational culture 
that would produce the best and most robust possible intelligence.
    Question 9. Beyond the requirement in the law to appoint a special 
officer to ensure intelligence analysis is objective and free from 
political interference, how will you drive the establishment of 
alternative analysis cells into the differing agencies?
    Answer. As provided for in the legislation, if confirmed, I would 
designate an entity to ensure objective analysis, and would empower 
that entity to manage this process for the ODNI and across the IC. I 
fully expect that all of the 15 IC elements would address this issue 
with that entity. Reinforcing a culture that insists upon the best 
possible, objective intelligence absolutely free from any political or 
other agenda is a critical part of this effort.
    Question 10. The Robb-Silberman Report recommended establishment of 
a National Intelligence University in part to improve the training of 
analysts--how could an NIU change the culture of analysts so that each 
analyst understands and applies the techniques of alternative analysis 
as a matter of course?
    Answer. The IRTPA provides the DNI with broad authorities to 
require cross-disciplinary education and training. If confirmed, I 
intend to pursue a training curriculum that would provide all IC 
analysts with the necessary tools to appropriately analyze the vast 
amounts of intelligence received on a daily basis. That kind of 
educational experience is one of the tools that can help build and 
reinforce the appropriate organizational culture in the intelligence 
community.

                            MISSION CENTERS

    Lead-in: Mr. Ambassador, the Robb-Silberman Report recommended that 
the DNI create a management structure centered around ``mission 
managers'' responsible for designing and implementing a coordinated 
collection and analytical effort against targets. This raises questions 
about the role of mission managers and also the utility of Intelligence 
Community Centers, such as the National Counterterrorism Center and the 
Nonproliferation Center which were established by the Intelligence 
Community reform legislation.
    Dr. Amy Zegart, author of Flawed by Design: The Evolution of the 
CIA and the JCS and the NSC told this Committee last summer that 
``organizational culture is the silent killer of innovation. Building 
new organizational arrangements with more people and more power will 
not make us safer if intelligence officials still view the world 
through old lenses and hoard information in old stove pipes.'' (SSCI 
Hearing, 8/18/04) So I am concerned that while we work to align 15 
already disparate groups into a coherent whole that setting up 
additional organizations may exacerbate the problem if not approached 
correctly.
    Question 11. In your experience, particularly in embassies overseas 
and in the State Department, where work is distributed both into 
substantive ``cones,'' and in cross-cutting geographic bureaus, do you 
believe reorganizing the IC around mission areas is effective and 
efficient? By doing so, will we reduce or simply perpetuate the stove 
pipes or other interagency barriers that exist in the Intelligence 
Community?
    Answer. If confirmed, my priority would be to create a unified IC 
that is agile and responsive to the intelligence needs of the United 
States. While I believe that the center and mission manager concepts 
are useful, I believe the establishment of such mechanisms must be 
carefully reviewed with respect to each particular intelligence problem 
in order to determine whether it is an appropriate solution for that 
problem. I would carefully evaluate the best possible approach in each 
instance and look forward to seeking the view of those in the 
intelligence community, outside experts and the Congress.
    Question 12. Will consolidating the collection and analytic efforts 
of the Intelligence Community within such task-specific centers or with 
mission managers prevent or exacerbate the type of ``group-think'' we 
saw in the assessments on Iraq's WMD programs?
    Answer. You have identified a tension inherent in the efforts to 
restructure the Intelligence Community. If confirmed, we must work to 
ensure that efforts to foster complete, all-source analysis are not 
tainted by what the Committee has termed group-think. I would review 
this issue closely, paying particular attention to the lessons learned 
in the establishment of the NCTC. However, even with the creation of 
centers like the NCTC, IRTPA provides new tools to safeguard against 
group-think--like alternative analysis mechanisms. Our goal must be to 
ensure that whatever structure is used contributes to the best possible 
result.

                 DNI AUTHORITIES--``MISSION'' AGENCIES

    Lead-in: As you know, Mr. Ambassador, the Intelligence Reform Act 
established the National Counterterrorism Center (or NCTC). The 
Director of the NCTC has broad authority for analyzing and integrating 
all terrorism and counterterrorism intelligence and conducting 
strategic operational planning for counterterrorism activities. And 
while the Director of the NCTC is to report to you on budgetary and 
programmatic matters, the law requires him to report directly to the 
President on the planning and progress of joint counterterrorism 
operations.
    This country can never again accept organizational and bureaucratic 
maneuvering that results in the President and national policy-makers 
receiving an intelligence product that does not take into account 
inputs from every agency. But the law names you as principal advisor to 
the President on intelligence matters so I am curious how you will act 
to de-conflict that and other conflicts in Presidential reporting 
because clearly although agency chiefs will retain control of their 
operations, you will be held accountable for their mistakes.
    Question 13. What are your concerns about these dual reporting 
chains that have been set up in the legislation?
    Answer. The NCTC falls organizationally within the Office of the 
DNI. To that end, I would expect that my close working relationship 
with both the President and the Director of the NCTC would provide 
ample opportunity to ensure de-confliction of issues of common concern, 
and coordination and cooperation in our mutual goal of ensuring 
accurate and timely intelligence for the President. I believe that the 
current mechanisms are adequate, but should that prove not to be the 
case, if confirmed, I would not hesitate to ask for additional 
authorities. One of the early actions of my tenure would be to 
recommend to the President a candidate for nomination to be the 
Director of the NCTC, which is a position requiring Senate 
confirmation.
    Question 14. Who will be responsible for preparing the Presidential 
Daily Brief? Will it still be prepared by the CIA and you just present 
it?
    Answer. The issue of the President's Daily Brief is one that is 
very personal to the President and must be tailored specifically to 
meet his needs. If confirmed, I would work closely with the President 
to ensure that the preparation and presentation of the PDB is 
consistent with his needs and provides the best possible intelligence.
    Follow-up: If your office takes responsibility for writing the PDB, 
do you risk spending half of your time collating information and 
writing the PDB?
    Answer. The DNI has many responsibilities under the IRTPA, one of 
which is the PDB. If confirmed, I would carefully consider the amount 
of time required to carry out each function of the position. I am 
acutely aware of the concerns regarding the amount of staff time 
necessary to prepare the PDB and would take seriously those concerns in 
determining the best possible use of my own personal time. I can assure 
you that I would not let my activities on any one task be the cause of 
failing to appropriately address others. I do not believe that the time 
I would personally devote to the PDB would encroach on my other 
important responsibilities. On the other hand, working on the PDB and 
attending the daily briefings of the President would be an important 
element of keeping the President well informed and assuring the quality 
of our analytical product.
    Question 15. How will you maintain control of the ``mission'' 
agencies and ensure you fully understand both the source and context of 
the Intelligence provided to the President?
    Answer. As you know, both the IRTPA and the WMD Report contemplate 
the idea of centralizing work on certain issues in order to ensure 
better consistency and control. If confirmed, I would actively consider 
those recommendations and, specifically, the need for ``centers'' and 
``mission managers'' in the most important intelligence matters in 
order to ensure that I would always be current on all IC missions and 
have a level of understanding that would allow me to provide the 
necessary information to the President.
    Follow-up: What role do you see for the DNI in the drafting and 
presentation of ``mission'' agency briefs to the President?
    Answer. With respect to the 15 IC elements, I would ensure that all 
presentations to the President regarding national intelligence matters 
reflect the best possible intelligence and analysis, including and a 
full consideration of any limitations and divergent, viewpoints.

                               PERSONNEL

    Lead-in: As we discussed last week, I believe that one of your 
primary tasks will be to energize the IC workforce and give them 
direction. We both agree that our intelligence community professionals 
are the best in the world and every day they work tirelessly in the 
shadows to keep this country safe but I believe they are eagerly 
looking for strong leadership so they can move forward with the 
business of securing the country.
    We must develop a workforce that is adequately agile and flexible 
to counter the myriad threats we face. The IC must recognize that the 
growing diversity of the threat requires a commensurate growth in a 
diverse workforce. In February, DO Goss, while submitting his plan to 
recruit the additional analysts and case officers directed by the 
President, said his plan will focus on recruiting more officers and 
analysts who ``look, sound and talk like'' the groups being spied on, 
so that they ``can have close access and learn plans and intentions.'' 
(WP, 2/16/05)
    It's been said that a great leader takes people where they don't 
necessarily want to go, but ought to be. Your leadership as the first 
Director of National Intelligence will be required to break down the 
old rice bowls and stove-pipes so that loyalty to an agency or an 
established bureaucracy is replaced by the understanding that every 
agency and every employee comprising the intelligence community is part 
of one team and that team's goal is to secure America.
    Question 16. What role will the DNI play in the definition of the 
personnel and training standards to ensure that we are getting the 
right people with the right skills to match the IC priorities that 
understand they work for America and not just an agency?
    Answer. I believe that fostering a true sense of community within 
the IC is one of the most important goals that the DNI must pursue. 
Personnel across the IC must be more closely integrated, and we must 
seek to achieve a shared culture through harmonized personnel, training 
and leadership practices. I also believe that we must work hard to 
recruit a diverse workforce of the best possible personnel for the 
intelligence community with the appropriate range of skills, 
experiences and backgrounds.
    The IRTPA has provided the DNI with broad personnel authorities and 
educational and training requirements. If confirmed, I would actively 
seek to foster that sense of community by unifying standards across the 
community, encouraging cross-disciplinary education and training, and 
encouraging the engagement of all IC elements and personnel to come up 
with mutually supportive solutions. I believe this is an area in which 
we could improve, and such improvement would dramatically affect the 
productivity, dependability and cohesiveness of the IC.
    Follow-up: How will the DNI ensure that CIA or any other agency 
training of their recruits is consistent with current intelligence 
priorities and not just an indoctrination into the CIA bureaucracy of 
old?
    Answer. If confirmed, I would need to further consider what 
specific mechanisms would best unify and harmonize the education and 
training processes of IC elements. One of my preliminary thoughts is to 
identify a person who could oversee the harmonization process and link 
the existing educational institutions.
    Follow-up: How do you plan to use the large increase in personnel 
mandated by the President with regard to the mix between analysis and 
information collection?
    Answer. I have not had an opportunity to consider this issue in 
depth. However, I understand the importance of ensuring that there be a 
thorough review of the placement of personnel and that such placement 
reflects an appropriate mix in critical disciplines.

                              ATTACHMENTS:

    Attachment 1: Two Letters from Sarah Horsey, U.S. Consul General--
Honduras, 1981-1984:
    --Letter to Editor of the Los Angeles Times
    --Letter to Ombudsman of the Los Angles Times
    Attachment 2: State Department Cable, Tegucigalpa 11124, 13 October 
1983
    --Text of State Department Cable
    --Original declassified State Department Cable

    [GRAPHIC] [TIFF OMITTED] T2581.095
    
    [GRAPHIC] [TIFF OMITTED] T2581.096
    
    [GRAPHIC] [TIFF OMITTED] T2581.097
    
    [GRAPHIC] [TIFF OMITTED] T2581.098
    
    [GRAPHIC] [TIFF OMITTED] T2581.099
    
    [GRAPHIC] [TIFF OMITTED] T2581.100
    
    [GRAPHIC] [TIFF OMITTED] T2581.101
    
    [GRAPHIC] [TIFF OMITTED] T2581.102
    
    [GRAPHIC] [TIFF OMITTED] T2581.103
    
    [GRAPHIC] [TIFF OMITTED] T2581.104
    
    [GRAPHIC] [TIFF OMITTED] T2581.105
    
    [GRAPHIC] [TIFF OMITTED] T2581.106
    
    [GRAPHIC] [TIFF OMITTED] T2581.107
    
    [GRAPHIC] [TIFF OMITTED] T2581.108
    
    [GRAPHIC] [TIFF OMITTED] T2581.109

                                  <all>

</pre></body></html>
